<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]


 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies for inclusion in the 
record. The submitted materials relate to the fiscal year 2010 
budget request for programs within the subcommittee's 
jurisdiction.]

               Prepared Statement of the Ad Hoc Coalition

    Mr. Chairman, Members of the Subcommittee, this statement is 
respectfully submitted on behalf of the ad hoc coalition composed of 
the organizations listed below. The coalition supports sustained 
funding for our Nation's food aid programs, including Titles I and II 
of Public Law 480, and therefore strongly opposes all proposals to 
divert funding away from these important programs.
                         food aid's unique role
    The donation of American commodities as food aid has been the 
cornerstone of United States and global foreign assistance programs 
since their inception. However, food aid has evolved in important ways 
over the years. Food aid began as an outgrowth of American farm policy 
that generated sizeable surpluses and American foreign policy 
characterized by a Cold War competition for the hearts and minds of 
impoverished populations across the globe. Since then, American farm 
policy has evolved away from surpluses, and therefore food can no 
longer be mischaracterized as ``dumping'' of excess commodities. 
Indeed, the United States now purchases commodities for donation on the 
open market. In today's economic climate, the need to provide societal 
stability, avoid failed States, prevent terrorist breeding grounds, and 
bolster America's image abroad has never been more important.
    In recent years, debate in the foreign assistance community has at 
times questioned the role of food aid. Led by European Union trade 
negotiators who have complained about American food aid as a 
smokescreen to shield their own protectionist agriculture policies, 
some have bemoaned the potential distorting effects that food donations 
might have on local agriculture where U.S. food is disbursed. Other 
opponents of food aid have suggested that perhaps we would be better 
off if we did not donate commodities, but instead relied solely on 
agricultural development and local purchases. Like others in the aid 
community, we look forward to the day when food aid is no longer 
needed, but we are nowhere near that goal today. Our in-kind food aid 
programs are needed now more than at any time in their history.
    Donated food aid is the most reliable means of introducing food to 
needy communities in order to combat hunger and save lives. This is not 
to say that other, creative means available under the Foreign 
Assistance Act or elsewhere have no role. To the contrary, these are an 
important part of the aid ``tool kit'', which can and should be 
employed to further developmental goals, including food self-
sufficiency among food aid recipients and to address unforeseeable 
breaks in the food aid pipeline. But those that paint food aid as 
unnecessary and even harmful exhibit shortsightedness that does a great 
disservice to those we all strive to help.
    The need for food aid today is stronger than ever. Hunger is a 
powerful destabilizing force, and America faces a convergence of 
terrorist and other security threats from failed and unstable states 
that feed on ill will toward our Nation. The U.N. WFP tells us that in 
recent years the food insecure have been hit by a ``perfect stone of 
increases in food prices coupled with export restrictions imposed by 
traditional regional and local food exporters. Here at home, the 
economy has lost 5.1 million jobs since December 2007. U.S. food aid 
programs not only further our humanitarian and food security goals by 
allowing Americans to contribute to the needy in a tangible way, but 
the programs also provide stable jobs for Americans. These programs 
help us get more from our aid dollars both here and abroad.
                     the sharp decline in food aid
    Despite the broad, bipartisan support that food aid has long 
enjoyed, shipments declined by 71 percent, from 9.1 million tons in 
1999 to a low of 2.7 million tons in 2007. These shipment levels are 
less than one-third of what they were a decade ago even though the most 
fragile communities now find themselves in the grip of an unprecedented 
food crisis. Therefore, we respectfully request that this steady 
erosion of food aid be reversed, and that funding be at least 
maintained at the $2.5 billion level appropriated in fiscal year 2008 
to ensure the continued effectiveness and stability of these important 
and historically successful programs.
  food aid versus cash donations for ``local and regional purchases''
    Food for Peace, which provides farm products grown in the United 
States to millions overseas in bags marked ``From the American 
People,'' is a clear and tangible sign of America's concern and 
generosity to its recipients. This same ``in-kind'' composition 
generates important economic benefits to our Nation--vital jobs in many 
industries, farm income, markets for agriculture processors, and 
revenue for American transportation providers and ports. It also 
generates Federal, State, and local tax revenues, as well as secondary 
economic effects, such as farm equipment purchases and farm family 
spending in our broader economy. For these reasons, a strong domestic 
constituency for food aid, in good economic times and bad, has 
sustained America's food aid programs through decades of competing 
funding priorities. As Secretary of Agriculture Vilsack said during the 
2009 International Food Aid Conference, ``[O]ur capacity to meet this 
extraordinary need [of global hunger] must start with a commitment to 
build a strong economy here in the United States. Without that strong 
economy, we cannot make a strong commitment to International Food 
Aid.''
    Furthermore, for decades American agriculture interests have 
provided a dependable source of high-quality nutritious food that is 
not always reliably available to local or regional markets. Given the 
ongoing food crisis for many nations, in terms of price, availability, 
and quality, and considering the recent actions by some food-exporting 
nations to halt food exports when domestic shortages occur, the amount 
and dependability of U.S.-produced food aid in Public Law 480 is 
crucial to our humanitarian assistance effort.
    Using American taxpayer dollars to purchase foreign agricultural 
commodities would forego the unique benefits of U.S. food aid, such as 
predictable food aid supply and good American jobs, when our country 
and food-deficit areas need them most. Nevertheless, additional 
resources have already been directed to so-called ``local and regional 
purchases'': USAID was recently provided new funding of $125 million 
under the Foreign Assistance Act through the International Disaster and 
Famine Assistance Account and Congress also established a $60 million 
CCC-funded USDA pilot program in the 2008 Farm Bill to examine the 
potential dangers and benefits of this approach before considering 
further expansion of its use in conjunction with a strong in-kind food 
aid program centered around American commodities.
                restoration of title i/food for progress
    Recent focus has been upon Title II emergency food aid, but the 
Title I concessional sales food aid program is also an important tool 
in the aid ``toolbox''. In order to ensure that countries with the most 
dire need have sufficient donated food aid, the coalition recommends 
that USDA offer the Title I concessional sales program to countries 
that can afford it. Title I allows us to leverage our aid dollars, 
helping more people in need with our limited budget resources.
    To the extent that the Title I funding truly cannot be used for 
concessional sales, it may be converted to donations on full grant 
terms through the Food for Progress (``FFP'') program. There is strong 
demand for Title I funding channeled through FFP: For fiscal year 2007, 
100 proposals were submitted by PVOs and 16 by governments, but only 11 
new proposals were approved.
                    conclusions and recommendations
    Mr. Chairman, the coalition is committed to maintaining the funding 
for America's food aid programs to meet humanitarian needs, enhance the 
potential for economic growth in recipient countries, and stimulate the 
economy here at home. Our recommendation is to increase, over time, 
annual food assistance with a blend of programs supported by direct 
appropriations and CCC program authorities. Specifically, the coalition 
respectfully recommends the following:
  --Full funding of Title II at the $2.5 billion authorized by law, 
        which is consistent with the fiscal year 2008 appropriation 
        level.
  --Title I/Food for Progress program levels should be restored to 
        responsible levels so that the unique efficiencies of the 
        program are not lost and more people can be fed.
  --In committee report language, the Committee should reiterate its 
        fiscal year 2003 directive to the administration to make 
        greater use of existing CCC authorities to expand food aid to 
        regions in critical need.
    Public Law 480 Food for Peace is the world's most successful 
foreign assistance program, and has saved countless lives. Its 
straightforward delivery of American food to the hungry fills a clear 
and immediate need overseas, and its unique architecture has made it a 
successful program here at home that has endured for over fifty years. 
While we support creative efforts to address the root causes of hunger, 
we cannot emphasize enough that now, more than ever, the world needs 
Public Law 480 food aid.
    Thank you, Mr. Chairman.

America Cargo Transport Corp.
American Maritime Congress
American Maritime Officers
American Maritime Officers'
Service American Peanut Council
American Soybean Association
Global Food and Nutrition Inc.
International Organization of Masters, Mates & Pilots
Liberty Maritime Corporation
Maersk Line, Ltd.
Marine Engineers' Beneficial Association
Maritime Institute for Research and Industrial Development
National Association of Wheat Growers
National Corn Growers Association
National Council of Farmer Cooperatives
National Oilseed Processors Association
National Potato Council
Seafarers International Union
Sealift, Inc.
Tosi Maritime Consultants, LLC
Transportation Institute
United Maritime Group, LLC
U.S. Dry Bean Council
U.S. Dry Pea & Lentil Council
U.S. Wheat Associates, Inc.
USA Rice Federation
                                 ______
                                 

       Prepared Statement of the American Farm Bureau Federation

    The American Farm Bureau Federation (AFBF) has identified five 
general areas for increased emphasis and funding for United States 
Department of Agriculture (USDA) programs in the fiscal year 2010 
agriculture spending bill. They are:
  --Programs that strengthen rural communities;
  --Programs that improve USDA efficiency;
  --Programs that enhance and improve food safety and protection;
  --Programs that expand export markets for agriculture; and
  --Programs that insure the availability of crop protection tools for 
        food production.
    Within these categories, we would like to call your attention to 
specific programs deserving of your support.
Programs that Strengthen Rural Communities
    The lack of high-speed, modern telecommunications systems in rural 
America hinders its residents' access to educational, medical and 
business opportunities, and therefore the economic growth of rural 
America. We support $1.3 billion for loans and grants administered by 
the Rural Utilities Service to increase rural broadband capacity and 
telecommunications services and to fund the Distance Learning and 
Telemedicine Program.
    Rural entrepreneurs often lack access to the capital and technical 
assistance necessary to start new businesses. These new ventures are 
needed for rural communities to sustain themselves and contribute to 
our national economy. AFBF supports funding for USDA Rural Development 
(RD) programs that foster new business development in rural 
communities. These programs include Value-Added Agricultural Production 
Grants, Business and Industry Direct and Guaranteed Loans, and the 
Rural Microentrepreneur Assistance Program.
    Many rural communities lack access to the tax base necessary to 
provide modern community facilities like fire stations. We support 
funding for RD's Community Facility Direct and Guaranteed Loans, which 
finance the construction, enlargement or improvement of essential 
community facilities in rural areas and towns with populations of less 
than 20,000.
    Renewable energy production holds great promise as a means to help 
America's farmers and rural communities contribute to our national 
economy and enhance our national security. We support increasing 
funding for the Renewable Energy and Energy Efficiency Program (REEP) 
by $250 million. REEP offers grants, guaranteed loans and combination 
grant/guaranteed loans to help agricultural producers and rural small 
businesses purchase and install renewable energy systems and make 
energy efficiency improvements in rural areas.
    The Revolving Fund (RFP) Grant Program helps communities acquire 
safe drinking water and sanitary, environmentally sound waste disposal 
facilities. With dependable water facilities, rural communities can 
attract families and businesses that will invest in the community and 
improve the quality of life for all residents. We support funding for 
this important program.
    AFBF supports funding for and opposes any effort to eliminate the 
Resource Conservation and Development program. This vital program 
supports economic development and resource protection. This program, in 
cooperation with rural development councils, helps local volunteers 
create new businesses, form cooperatives, develop marketing and agri-
tourism activities, improve water quality and flood control, improve 
leadership and other business skills and implement renewable energy 
projects.
    We support full funding for Agriculture in the Classroom, a 
national grassroots program coordinated by the USDA. This worthy 
program helps students gain a greater awareness of the role of 
agriculture in the economy and society, so that they may become 
citizens who support wise agricultural policies.
Programs that Improve USDA Efficiency
    Farm Bureau strongly supports providing an additional $250 million 
to USDA to improve computer technology in the Farm Service Agency 
(FSA). FSA currently operates on the oldest technology system within 
USDA and one of the oldest systems in the entire Federal Government. 
These outdated systems create enormous inefficiencies throughout the 
department, and it is unclear how long these antiquated systems can 
continue to support increasingly complex farm programs. Systems across 
agencies under USDA jurisdiction cannot communicate with each other, 
which could lead to improper payments and often requires duplicative 
paperwork and additional labor hours. Upgrading FSA computer technology 
now will lead to greater efficiencies down the road and could prevent a 
future system failure.
Programs that Enhance and Improve Food Safety and Protection
    Americans spend more than $1 trillion annually on food--nearly half 
of it in restaurants, schools and other places outside the home. 
Consumers have a reasonable expectation that the food products they buy 
are safe. The continued safety of food is crucial to consumers, as well 
as production agriculture and the food industry. AFBF believes that 
sufficient, reliable Federal funding for the government's food and feed 
safety and protection functions is vital to this effort.
    Therefore, we recommend that funding be increased for food 
protection at the Food and Drug Administration (FDA) and at the Food 
Safety and Inspection Service (FSIS) and directed to:
  --Increased education and training of inspectors;
  --Additional science-based inspection, targeted according to risk;
  --Research and development of scientifically based rapid testing 
        procedures and tools;
  --Accurate and timely responses to outbreaks that identify 
        contaminated products, remove them from the market and minimize 
        disruption to producers; and
  --Indemnification for producers who suffer marketing losses due to 
        inaccurate government-advised recalls or warnings.
    We also support authorized funding of $2.5 million for the Food 
Animal Residue Avoidance Databank (FARAD). FARAD aids veterinarians in 
establishing science-based recommendations for drug withdrawal 
intervals, critical for both food safety and animal health. No other 
government program provides or duplicates the food safety information 
FARAD provides to the public. Without the critical FARAD program, 
producers may be forced to euthanize animals or dispose of meat, milk 
and eggs due to the lack of withdrawal information.
Programs that Expand Export Markets for Agriculture
    AFBF supports funding at authorized levels for:
  --Public Law 480 programs which serve as the primary means by which 
        the United States provides needed foreign food assistance 
        through the purchase of U.S. commodities. In addition to 
        providing short-term humanitarian assistance, the program helps 
        to develop long-term commercial export markets.
  --The International Food for Education Program which is an effective 
        platform for delivering severely needed food aid and 
        educational assistance.
    The Market Access Program, the Foreign Market Development Program, 
the Emerging Markets Program and the Technical Assistance for Specialty 
Crops program are effective export development and expansion programs. 
These programs have resulted in record increases in demand for U.S. 
agriculture and food products abroad and should be fully funded.
    As trade increases between countries, so too does the threat of new 
invasive and noxious pests that can destroy America's agricultural and 
natural resources. Therefore, we support full funding for the following 
Animal Plant Health Inspection Service (APHIS) programs:
  --The APHIS Plant Protection and Quarantine personnel and facilities, 
        especially the plant inspection stations, are necessary to 
        protect U.S. agriculture from costly pest problems that enter 
        the United States from foreign lands.
  --APHIS trade issues resolution and management activities are 
        essential for an effective response when other countries raise 
        pest and disease concerns (i.e., sanitary and phytosanitary 
        measures) to prohibit the entry of American products. APHIS 
        must be active at U.S. ports and in overseas locations to 
        monitor pest and disease conditions, negotiate trading 
        protocols and to intervene when foreign officials wrongfully 
        prevent the entry of American imports.
  --APHIS Biotechnology Regulatory Services (BRS) play an important 
        role in overseeing the permit, notification and deregulation 
        process for products of biotechnology. BRS personnel and 
        activities are essential to ensure public confidence and 
        international acceptance of biotechnology products.
    Full funding for the Foreign Agricultural Service (FAS) is urgently 
needed to maintain services in an agency that has been significantly 
depleted in recent years. We urge continued support for the Office of 
the Secretary for cross-cutting trade negotiations and biotechnology 
resources.
    The U.S. Codex Office is essential to developing harmonized 
international standards for food and food products. Codex standards 
provide uniformity in food rules and regulations by allowing countries 
to adopt similar levels of safety protection for consumers while 
concurrently facilitating transparency in food trade.
Programs that Insure the Availability of Information on Crop Protection 
        Tools Used for Food Production
    Farmers need access to reliable and affordable crop protection 
chemicals. Farm Bureau supports $8.4 million be provided to the 
National Agricultural Statistical Service (NASS), specifically for the 
continuation of agricultural chemical-use surveys for fruits, 
vegetables, floriculture and nursery crops. NASS surveys provide 
current and relevant data about the use of agricultural chemicals 
involved in the production of food, fiber and various horticultural 
products. The information collected helps USDA to conduct reliable 
analysis of product use and EPA to characterize the potential 
theoretical risks associated with agricultural chemical products. Only 
with reliable data can USDA and EPA accurately access the economic 
benefits of agricultural chemicals and make responsible decisions about 
product registration.
                                 ______
                                 

  Prepared Statement of the American Honey Producers Association, Inc.

    Chairman Kohl and Members of the Subcommittee, my name is Kenneth 
Haff, and I currently serve as President of the American Honey 
Producers Association (``AHPA''). I am pleased today to submit the 
following statement on behalf of the AHPA, a national organization of 
commercial beekeepers actively engaged in honey production and crop 
pollination throughout the country. The purpose of this statement is to 
bring to your attention the continued threats faced by American 
beekeepers and the billions of dollars in U.S. agriculture that rely 
upon honeybee pollination services. With those threats in mind, we 
respectfully request an appropriation of at least $20 million to combat 
CCD and to conduct other essential honeybee research through the ARS 
and other agencies at the Department of Agriculture, as provided for in 
the 2008 Farm Bill.
    As I speak to you today, U.S. beekeepers are facing the most 
extraordinary of challenges. Colony Collapse Disorder (``CCD'') has 
continued to ravage bee colonies across the United States, moving from 
one hive to another in unpredictable patterns. The result has been the 
death of up to 90 percent of the bee colonies in affected apiaries. In 
early 2007, the National Research Council at the National Academy of 
Sciences characterized the beekeeping industry as being in ``crisis 
mode''--a point echoed and re-emphasized in last year's USDA action 
plan regarding honeybee threats. Hundreds of news articles and many in-
depth media reports have continued to chronicle the looming disaster 
facing American beekeepers and the producers of over 90 fruit, 
vegetable and fiber crops that rely on honeybee pollination. However, 
despite extensive and coordinated work by experts from government, 
academia and the private sector, the definitive causes of and solutions 
for CCD have yet to be identified.
    The emergence of CCD shines a bright light on the inadequacies of 
current honeybee research, particularly on the lack of capacity to 
address new challenges and to take long-term steps to assure honeybee 
health. In saying this, we do not mean to diminish the vital, ongoing 
work of ARS and other honeybee scientists. They do their job and they 
do it very well. In recent years, however, honeybee research has become 
largely confined to four ARS laboratories that provide the first line 
of defense against exotic parasitic mites, Africanized bees, viruses, 
brood diseases, pests, pathogens and other conditions. Universities and 
the private sector have substantially scaled back their efforts due to 
a lack of available funds. Moreover, ARS laboratories lack sufficient 
resources even for current honeybee research priorities. For example, 
we understand that ARS currently lacks funds even to test high priority 
CCD samples that ARS scientists have already collected.
    In past fiscal years, this Subcommittee has supported the 
beekeeping industry through funding for agricultural research 
activities. As you know, in the fiscal year 2003 cycle, the 
Subcommittee rejected a proposal that would have resulted in the 
elimination of three ARS laboratories that are indispensable to the 
survival of our industry. Again, in the fiscal year 2009 omnibus 
appropriations bill, Congress preserved funding for the Weslaco, Texas 
ARS research facility despite a recommendation in President Bush's 
fiscal year 2009 budget proposal to close that facility. Those were 
wise decisions. Without these labs, the American honeybee may not have 
survived the various above-mentioned threats, and the infrastructure 
would not exist today upon which an aggressive research campaign may 
continue to be built.
    For fiscal year 2009, Congress appropriated an additional $800,000 
in research funding specifically designated to combat CCD. We 
appreciate and support the increased funding for CCD research, and we 
sincerely thank this Subcommittee for its diligent attention to the 
crises before us. However, we believe strongly that an increase in 
$800,000 does not come close to meeting the growing demands imposed by 
CCD and other threats to honeybee health. Instead, to meet the needs of 
the American beekeeper and to stave off a pending agricultural crisis 
for growers and consumers, we respectfully urge the Subcommittee to 
appropriate $20 million in new research funds dedicated toward CCD and 
other honeybee health research projects. As you know, the 2008 Farm 
Bill included an authorization of $100 million over five years for such 
initiatives. A $20 million appropriation in fiscal year 20010 would 
reflect that authorization, and would provide government, academic and 
private sector researchers with the vital resources needed to combat 
CCD and other emerging threats and assure long-term honeybee health. 
Such funding would be a prudent investment in the U.S. farm 
infrastructure, which, along with U.S. consumers, derives tens of 
billions of dollars of benefit directly from honeybee pollination. 
Finally, in addition to the new and significant additional funding 
proposed for CCD research needs, we specifically suggest increased 
funding in the amount of at least $250,000 for promising honeybee 
genome research at the ARS laboratory in Baton Rouge. Genome research 
is likely to be central to resolving mysterious threats such as CCD and 
to ensuring bee health and productivity for generations to come.
            the importance of honeybees to u.s. agriculture
    Honeybees are an irreplaceable part of the U.S. agricultural 
infrastructure. Honeybee pollination is critical in the production of 
more than 90 food, fiber, and seed crops and directly results in more 
than $15 billion in U.S. farm output. The role of pollination is also 
vital to the health of all Americans given the dietary importance of 
fruit, vegetables and nuts, most of which are dependent on pollination. 
Honeybees are necessary for the production of such diverse crops as 
almonds, apples, oranges, melons, blueberries, broccoli, tangerines, 
cranberries, strawberries, vegetables, alfalfa, soybeans, sunflower, 
and cotton, among others. In fact, honeybees pollinate about one-third 
of the human diet.
    The importance of this pollination to contemporary agriculture 
cannot be understated. In fact, the value of such pollination is vastly 
greater than the total value of honey and wax produced by honeybees. 
More than 140 billion honeybees, representing 2 million colonies, are 
transported by U.S. beekeepers across the country every year to 
pollinate crops.
    The importance of honeybees--and the U.S. honey industry which 
supplies the honeybees for pollination--is illustrated by the 
pollination of California's almond crop. California grows 100 percent 
of the Nation's almond crop and supplies 80 percent of the world's 
almonds. Honeybees are transported from all over the Nation to 
pollinate California almonds, which are the largest single crop 
requiring honeybee pollination. More than one million honeybee hives 
are needed to pollinate the 600,000 acres of almond groves that line 
California's Central Valley. Thus, nearly half of the managed honey-
producing colonies in the United States are involved in pollinating 
California almonds in February and March.
    Many other U.S. agriculture producers require extensive honeybee 
pollination for their crops, including blueberry, avocado, and cotton 
growers. Cattle and farm-raised catfish industries also benefit from 
honeybee pollination, as pollination is important for growing alfalfa, 
which is fodder for cattle and farm-raised fish. As OnEarth magazine 
has noted, the fate of California's almond crop rests ``on the slender 
back of the embattled honeybee.''
                       threats to u.s. honeybees
    Since 1984, the survival of the honeybee has been threatened by 
continuing infestations of mites, pests and other conditions for which 
appropriate controls must continually be developed by scientists at the 
four ARS laboratories and other highly qualified research institutions. 
These longstanding and worsening infestations have caused great strain 
on the American honeybee to the point where some U.S. honey producers 
have felt the need--for the first time in over 80 years--to import bees 
from New Zealand and Australia for pollination. Ironically, scientists 
and industry leaders have since concluded that there is likely a 
correlation between the introduction of foreign bees and the emergence 
of CCD, the newest and greatest challenge to the survival of American 
honeybees.
    However, the specific cause of CCD and treatments for it remain 
elusive to both beekeepers and scientists. The research is complex, as 
there are a wide range of factors that--either alone or in 
combination--may be causes of this serious condition. Areas for 
research include the stress from the movement of bees to different 
parts of the country for extensive commercial pollination, the 
additional stress of pollinating crops, such as almonds, that provide 
little honey to the bees, and the impact of certain crop pesticides and 
genetic plants with altered pollination characteristics. Continuing 
infestations of the highly destructive Varroa mite, combined with other 
pests and mites, are also thought to compromise the immune systems of 
bees and may leave them more vulnerable to CCD. At the same time, 
researchers will need to focus on the many reported instances in which 
otherwise healthy, pest-free, stationary bee colonies are also 
suffering collapse or problems with reproduction.
    While researchers continue in their exhaustive effort to isolate 
the specific causes of CCD, the AHPA strongly urges the Congress to 
work with the Department of Agriculture to ensure that exotic bees and 
the threats they pose are restricted from importation into the United 
States. Under current law, the Department of Agriculture has the duty 
to refuse a shipment's entry into the United States where the export 
certificate identifies a bee disease or parasite of concern to the 
United States or an undesirable species or subspecies of honeybee, 
including the Oriental honeybee or ``Apis cerana'' (7 CFR  322.6(a)(2) 
(2004)). In the case of Australian honeybees, officials in that country 
have detected the presence of the Apis cerana honeybee throughout their 
country, a species known to harbor parasitic mites and possibly viruses 
that do not currently exist in the United States. At the time of 
discovery, officials tracked a large number of Apis cerana bees, 
indicating that the species had been in Australia for some time without 
detection. While Australian officials claim to have quarantined these 
bees and destroyed hives known to contain them, we have heard reports 
that new discoveries have taken place since such claims by Australian 
officials, indicating an insufficient capacity by Australian officials 
to accurately assess risks. AHPA believes that this development allows 
no other conclusion but for the Department to suspend entry of 
Australian honeybees.
                   ongoing and new critical research
    AHPA, other industry officials, and leading scientists believe that 
an important contributing factor in the current CCD crisis is the 
longstanding, substantial under funding of U.S. bee research. In recent 
years, the Federal Government has spent very modest amounts at each ARS 
Honeybee Research Laboratory--for a sector that directly contributes 
$15 billion per year to the U.S. farm economy. Worse still, funding 
amounts have not been increased to account for growing bee health 
concerns. USDA honeybee researchers remain under funded. As noted 
above, current funding shortages have caused important CCD-related bee 
samples to go untested. Additionally, despite their ability to provide 
significant and innovative new research on emerging bee threats, 
researchers in the academic and private sectors also lack the necessary 
financial resources for these vital tasks. With the emergence of CCD, 
there is a serious gap between the threats faced by U.S. honeybees and 
the capacity of our researchers to respond. Closing this gap will 
require significant new resources. It is estimated that each new 
scientist, technician and the support materials that they need will 
cost an additional $500,000 per year.
    To address these challenges, the AHPA respectfully requests an 
appropriation of at least $20 million to combat CCD and conduct other 
essential honeybee research. These funds should be allocated in 
accordance with authorizations provided in the 2008 Farm Bill. 
Specifically, the funds should be divided among the following 
Department of Agriculture agencies and programs: (1) the four ARS Bee 
Research Laboratories for new personnel, facility improvement, and 
additional research; (2) the Animal and Plant Health Inspection Service 
to conduct a nation-wide honeybee pest and pathogen surveillance 
program; (3) the ARS Area Wide CCD Research Program divided evenly 
between the Beltsville, MD and the Tucson, Arizona research 
laboratories to identify causes and solutions for CCD in affected 
States; (4) the Cooperative State Research, Education, and Extension 
Service at the Department of Agriculture to fund extension and research 
grants to investigate the following: honey bee biology, immunology, and 
ecology; honey bee genomics; native bee crop pollination and habitat 
conservation; native bee taxonomy and ecology; pollination biology; 
sub-lethal effects of insecticides, herbicides, and fungicides on honey 
bees, native pollinators, and other beneficial insects; the effects of 
genetically-modified crops, including the interaction of genetically-
modified crops with honey bees and other native pollinators; honey, 
bumble, and other native bee parasites and pathogens effects on other 
native pollinators; and (5) the additional ARS research facilities in 
New York, Florida, California, Utah, and Texas for research on honey 
and native bee physiology, insect pathology, insect chemical ecology, 
and honey and native bee toxicology.
    Since the beekeeping industry is too small to support the cost of 
needed research, publicly-funded honeybee research by the four ARS bee 
laboratories is absolutely key to the survival of the U.S. honey and 
pollination industry. For example, the pinhead-sized Varroa mite is 
systematically destroying bee colonies and prior to CCD was considered 
the most serious threat to honeybees. Tracheal mites are another 
contributing factor to the loss of honeybees. Tracheal mites infest the 
breathing tubes of adult honeybees and also feed on the bees' blood. 
The mites essentially clog the bees' breathing tubes, blocking the flow 
of oxygen and eventually killing the infested bees.
    The industry is also plagued by a honeybee bacterial disease that 
has become resistant to antibiotics designed to control it, and a 
honeybee fungal disease for which there is no known treatment. These 
pests and diseases, especially Varroa mites and the bacterium causing 
American foulbrood, are now resistant to chemical controls in many 
regions of the country. Further, we have seen that these pests are 
building resistance to newly-developed chemicals more quickly than in 
the past, thereby limiting the longevity of chemical controls.
    As previously mentioned, the cause or causes of CCD are unknown. 
Thus, pest, viral and bacterial disease research takes on added 
significance. First, pest, viral and bacterial disease research may 
itself provide insight into the discovery of CCD's root causes. Second, 
whether pests and bacterial diseases are directly a factor in CCD or 
not, they nonetheless continue to threaten bee population health and 
vitality. Given CCD's particularly devastating impact on bee 
populations, even greater emphasis must be placed on mitigating known 
threats in order to achieve the overall goal of ensuring adequate honey 
production and pollination capacity.
    In addition to pest and bacterial disease research, the sequencing 
of the honeybee genome in 2006 at Baylor University has opened the door 
to creating highly effective solutions to bee health and population 
problems via marker-assisted breeding. Marker-assisted breeding would 
permit the rapid screening of potential breeders for specific DNA 
sequences that underlie specific desirable honeybee traits. The 
sequenced honeybee genome is the necessary key that will allow 
scientists to discover the important DNA sequences. Additional funding 
for the ARS research laboratory at Baton Rouge will assure that this 
critically important work goes forward.
    Because of the sequenced honeybee genome, it is now possible to 
apply molecular biological studies to the development of marker-
assisted breeding of honeybees. Marker-facilitated selection offers the 
first real opportunity to transform the beekeeping industry from one 
that has been dependent upon a growing number of expensive pesticides 
and antibiotics into an industry that is free of chemical inputs and 
that is economically viable in today's competitive global marketplace. 
Additionally, this new sequencing capacity may prove central to 
identifying both the causes of and solutions to CCD. New pathogens have 
recently been identified in the United States that are thought to be 
associated with CCD. Genetic research can be utilized to determine 
whether a comparative susceptibility to such pathogens exists among 
various bee populations, and if so, can serve to facilitate breeding 
with enhanced resistance.
    The four ARS Honeybee Research Laboratories work together to 
provide research solutions to problems facing businesses dependent on 
the health and vitality of honeybees. The key findings of these 
laboratories are used by honey producers to protect their producing 
colonies and by farmers and agribusinesses to ensure the efficient 
pollination of crops. Each of the four ARS Honeybee Research 
Laboratories (which are different in function from the ARS Wild Bee 
Research Laboratory at Logan, Utah) focuses on different problems 
facing the U.S. honey industry and undertakes research that is vital to 
sustaining honey production and assuring essential pollination services 
in this country. Furthermore, each of the four ARS Honeybee Research 
Laboratories has unique strengths and each is situated and equipped to 
support independent research programs which would be difficult, and in 
many cases impossible, to conduct elsewhere. Given the multi-factor 
research capacity needed to address the scourge of CCD, it is important 
that each research laboratory is permitted to continue and expand upon 
its unique strengths.
    And while to date the four ARS Research Laboratories have been the 
backbone of American Honeybee research, we do not believe that those 
four facilities alone--even when fully funded--will have the capacity 
to meet today's research needs. This is why last year, after analyzing 
the new and serious threats to U.S. honeybees, Congress, 
representatives of the farm sector and leading researchers developed 
the research priorities that were incorporated into both the House and 
Senate versions of the Farm Bill and in separate House and Senate 
pollination legislation. In addition to increased resources for ARS 
research, these experts pressed for new funding, through CSREES, for 
government, academic and private sector research. They also urged new 
bee surveillance programs through the Animal and Plant Health 
Inspection Service to address the alarming lack of accurate information 
about the condition of U.S. bee colonies.
    One particularly effective way of adding needed capacity and 
innovative expertise in the effort to ensure honeybee health would be 
to reinvigorate private sector and university bee research initiatives. 
For many years, these sectors played a vital role in honeybee research, 
and many leading universities have significant bee research 
capabilities. In recent years, non-federal agency research has 
substantially declined due to a lack of support for such initiatives. 
Funding the 2008 Farm Bill authorization of $10.26 million for the 
Department of Agriculture's Cooperative State Research, Education, and 
Extension Services (CSREES) would go a long way toward achieving this 
goal.
    CSREES is tasked with advancing knowledge for agriculture by 
supporting research, education, and extension programs. Funds may be 
channeled through the Department to researchers at land-grant 
institutions, other institutions of higher learning, Federal agencies, 
or the private sector. The requested funding for CSREES would provide 
important flexibility in allocating badly needed Federal dollars among 
government, private sector and university researchers. The recipients 
would provide more widespread research on honeybee biology, immunology, 
ecology, and genomics, pollination biology, and investigations into the 
effects on honeybees of potentially harmful chemicals, pests, other 
outside influences, and genetically modified crops. The result of such 
funds would be to ensure flexible financing with a comprehensive plan 
for battling CCD, pests, and other ongoing and future honeybee threats.
    Additionally, the same coalition of experts identified a need for a 
honeybee pest and pathogen surveillance program. Although significant 
data exists on American honey production, comparably less and lower 
quality data exists on beekeepers and bees. Providing $2.31 million 
under the 2008 Farm Bill authorizations to the Animal and Plant Health 
Inspection Service at the Department of Agriculture would allow the 
Department to utilize such data to better respond to pest and disease 
outbreaks, and to compile data that may better enable prediction of new 
threats. Given the roughly $15 billion added to the U.S. farm economy 
each year by honeybees, this is certainly a worthwhile investment in 
the honeybee and pollinator industry.
                   industry workforce vulnerabilities
    Beekeeping is a highly skilled trade that requires extensive 
training before workers are able to handle, monitor, and treat bees. 
For nearly ten years, American beekeepers have relied heavily on 
Nicaraguan workers hired through the H-2A visa program to staff complex 
honey production and pollination operations.
    Commercial beekeeping has become increasingly challenging in recent 
years with the emergence of new diseases and pests that threaten bee 
health, including American foul brood, tracheal and varroa mites, 
chalkbrood, and most recently, Colony Collapse Disorder (CCD). 
Nicaraguan H-2A beneficiaries are trained to identify these threats and 
to treat the bees skillfully and appropriately. Additionally, 
commercial beekeepers place hives on farms and ranches in hundreds of 
locations throughout multiple towns and counties, often in hard-to-find 
back road areas. Training new workers to find these hives and to comply 
with the requirements of landowners can alone take months. Finally, 
Nicaraguan workers are trained on a wide variety of equipment necessary 
to the industry, including honey extractors, forklifts, and large 
trucks used to haul equipment and bees to and from warehouses and 
apiaries.
    Unfortunately, on December 18, 2008, the Department of Homeland 
Security published a final rule that changed existing law so that H-2A 
visa ``petitions may only be approved for nationals of countries that 
the Secretary of Homeland Security has designated as participating 
countries.'' The list, published without advance warning names 28 
``participating countries'', including Belize, Costa Rica, El Salvador, 
Guatemala, and Honduras. Absent from the list is Nicaragua. And 
although the rule provides the Secretary of Homeland Security with 
discretionary authority to approve nationals from non-participating 
countries if it is ``in the U.S. interest'', this discretion has yet to 
be exercised with respect to beekeeper petitions. Without sufficient 
guidance on the ``U.S. Interest'' test, the effect will be to ensure 
that no Nicaraguan worker petitions are approved in 2009, forcing some 
beekeepers to close down operations.
    The AHPA does not wish to question broader national security or 
immigration policy rationales for restricting the participating country 
list. However, in this instance, Nicaraguan workers have provided an 
invaluable service to America's honey production and pollination 
industries for nearly ten years. In all cases, the workers have 
returned to their home country at the end of the pollination season and 
the beekeepers who employ them have taken great strides to ensure that 
they comply with immigration and labor laws in petitioning the 
government for H-2A visas. Refusing approval this year will seriously 
limit America's pollination capacity, directly threatening $15 billion 
in U.S. agricultural interests.
                               conclusion
    In conclusion, we wish to thank you again for your past support of 
honeybee research and for your understanding of the critical importance 
of these ARS laboratories. By way of summary, in fiscal year 2010, the 
American Honey Producers Association strongly encourages at least $20 
million in new funding for CCD and other honeybee research spread among 
the four ARS Honeybee Research Laboratories, other ARS research 
facilities across the country, the Cooperative State Research, 
Education, and Extension Service at the Department of Agriculture, and 
the Animal and Plant Health Inspection Service. AHPA also opposes 
importation of Australian honeybees and unnecessary denial of H-2A 
workers from Nicaragua. Only through critical research can we have a 
viable U.S. beekeeping industry and continue to provide stable and 
affordable supplies of bee-pollinated crops, which make up fully one-
third of the U.S. diet. I would be pleased to provide answers to any 
questions that you or your colleagues may have.
                                 ______
                                 

 Prepared Statement of the American Indian Higher Education Consortium

    Mr. Chairman and Members of the Subcommittee, on behalf of the 
American Indian Higher Education Consortium (AIHEC) and the 32 Tribal 
Colleges and Universities (TCUs) that compose the list of 1994 Land 
Grant Institutions, thank you for this opportunity to share our funding 
requests for fiscal year 2010.
    This statement is presented in three parts: (a) a summary of our 
fiscal year 2010 funding recommendations, (b) a brief background on 
Tribal Colleges and Universities, and (c) an outline of the 1994 Tribal 
College Land Grant Institutions' plan for using our land grant programs 
to fulfill the agricultural potential of American Indian communities, 
and to ensure that American Indians have the skills and support needed 
to maximize the economic potential of their resources.
                          summary of requests
    We respectfully request the following funding levels for fiscal 
year 2010 for our land grant programs established within the USDA 
Cooperative State Research, Education, and Extension Service (CSREES) 
and the Rural Development mission area. In CSREES, we specifically 
request: $5.0 million for the 1994 Institutions' competitive extension 
grants program; $3.0 million for the 1994 Institutions' competitive 
research grants program; $3.342 million for the higher education equity 
grants; $12 million payment into the Native American endowment fund; 
and in the Rural Development--Rural Community Advancement Program 
(RCAP), that $5.0 million be provided for each of the next 5 fiscal 
years for the TCU Essential Community Facilities Grants Program. The 
grants help to address the critical facilities and infrastructure needs 
at the colleges to increase our capacity to participate fully as land 
grant partners.
             background on tribal colleges and universities
    The first Morrill Act was enacted in 1862 specifically to bring 
education to the people and to serve their fundamental needs. Today, 
147 years after enactment of the first land grant legislation, the 1994 
Land Grant Institutions, as much as any other higher education 
institutions, exemplify the original intent of the land grant 
legislation, as they are truly community-based institutions.
    The Tribal College Movement was launched in the past 40 years with 
the establishment of Navajo Community College, now Dine College, 
serving the Navajo Nation. Rapid growth of the TCU Movement soon 
followed, primarily in the Northern Plains region. In 1972, six 
tribally controlled colleges established the American Indian Higher 
Education Consortium to provide a support network for member 
institutions. Today, AIHEC represents 37 Tribal Colleges and 
Universities--32 of which compose the current list of 1994 Land Grant 
Institutions located in 12 States. Our institutions were created 
specifically to serve the higher education needs of American Indian 
students in Indian Country. They serve many thousands of Indian full- 
and part-time students and community members from over 250 federally 
recognized tribes.
    The 1994 Land Grant Institutions are accredited by independent, 
regional accreditation agencies and like all institutions of higher 
education, must undergo stringent performance reviews to retain their 
accreditation status. TCUs serve as community centers by providing 
libraries, tribal archives, career centers, economic development and 
business centers, public meeting places, and child and elder care 
centers. Despite their many obligations, functions, and notable 
achievements, TCUs remain the most poorly funded institutions of higher 
education in this country. The vast majority of the 1994 Land Grant 
Institutions is located on Federal trust territory. Therefore, states 
have no obligation, and in most cases, provide no funding to TCUs. In 
fact, most States do not even provide funds to our institutions for the 
non-Indian state residents attending our colleges, leaving the TCUs to 
assume the per student operational costs for non-Indian students 
enrolled in our institutions, accounting for approximately 20 percent 
of our student population. This is a significant financial commitment 
on the part of TCUs, as they are small, developing institutions and 
cannot, unlike their state land grant partners, benefit from economies 
of scale--where the cost per student to operate an institution is 
reduced by the comparatively large size of the student body.
    As a result of 200 years of Federal Indian policy--including 
policies of termination, assimilation and relocation--many reservation 
residents live in conditions of poverty comparable to those found in 
Third World nations. Through the efforts of Tribal Colleges and 
Universities, American Indian communities are availing themselves of 
resources needed to foster responsible, productive, and self-reliant 
citizens. It is essential that we continue to invest in the human 
resources that will help open new avenues to economic development, 
specifically through enhancing the 1994 Institutions' land grant 
programs, and securing adequate access to information technology.
1994 land grant programs--ambitious efforts to reach economic potential
    In the past, due to lack of expertise and training, millions of 
acres on our reservations lie fallow, under-used, or have been 
developed through methods that have caused irreparable damage. The 
Equity in Educational Land Grant Status Act of 1994 is addressing this 
situation and is our hope for future advancement.
    Our current land grant programs remain small, yet very important to 
us. It is essential that American Indians explore and adopt new and 
evolving technologies for managing our lands. With increased capacity 
and program funding, we will become even more significant contributors 
to the agricultural base of the nation and the world.
    Competitive Extension Grants Programs.--That The 1994 Institutions' 
extension programs strengthen communities through outreach programs 
designed to bolster economic development; community resources; family 
and youth development; natural resources development; agriculture; as 
well as health and nutrition education and awareness.
    In fiscal year 2009, $3,321,000 was appropriated for the 1994 
Institutions' competitive extension grants. The 1994 Institutions' 
ability to maintain existing programs and to respond to emerging issues 
such as food safety and homeland security, especially on border 
reservations, is severely limited without adequate funding. Increased 
funding is needed to support these vital programs designed to address 
the inadequate extension services that have been provided to Indian 
reservations by their respective state programs. It is important to 
note that the 1994 extension program does not duplicate the Federally 
Recognized Tribes Extension Program, formerly the Indian Reservation 
Extension Agent program. 1994 Tribal College Land Grant programs are 
very modestly funded. The 1994 Tribal College Land Grant Institutions 
have applied their ingenuity for making the most of every dollar they 
have at their disposal by leveraging funds to maximize their programs 
whenever possible. Some examples of 1994 extension programs include: 
Lac Courte Oreilles Ojibwa Community College in Wisconsin is 
strengthening the household economies of local reservation communities 
by offering financial education curriculum in managing budgets, saving 
for the future, and understanding the credit basics. Sitting Bull 
College, which serves reservation communities in both North and South 
Dakota, offers an equine extension program to help youth learn about 
the historical role of horses in American Indian Tribal life, while 
teaching them important leadership skills necessary to succeed in 
today's world. These are just two examples of the innovative programs 
being conducted at 1994 Institutions. To continue and expand these 
successful programs, we request that the subcommittee support this 
competitive program by appropriating $5.0 million to sustain the growth 
and further success of these essential community-based extension 
programs.
    1994 Competitive Research Program.--As the 1994 Tribal College Land 
Grant Institutions enter into partnerships with 1862/1890 land grant 
institutions through collaborative research projects, impressive 
efforts to address economic development through natural resource 
management have emerged. The 1994 Research Program illustrates an ideal 
combination of Federal resources and tribal college-state institutional 
expertise, with the overall impact being far greater than the sum of 
its parts. We recognize the severe budget constraints under which 
Congress is currently functioning. However, the $1,610,000 appropriated 
in fiscal year 2009 is grossly inadequate to develop capacity and 
conduct necessary research at our institutions. The 1994 Research 
Program is vital to ensuring that TCUs may finally be recognized as 
full partners in the Nation's land grant system. Many of our 
institutions are currently conducting applied research, yet finding the 
resources to conduct this research to meet their communities' needs is 
a continual challenge. This research authority opens the door to new 
funding opportunities to maintain and expand the research projects 
begun at the 1994 Institutions, but only if adequate funds are secured 
and sustained. A total research budget of $1,610,000, for which all 32 
of the 1994 Institutions compete for research dollars, is clearly 
insufficient. Priority issue areas currently being studied at the 1994 
Institutions include: sustainable agriculture and forestry; 
biotechnology and bioprocessing; agribusiness management and marketing; 
plant propagation, including native plant preservation for medicinal 
and economic purposes; animal breeding; aquaculture; human nutrition 
(including health, obesity, and diabetes); and family, community, and 
rural development. The College of Menominee Nation in Wisconsin is 
collecting and analyzing data concerning forest health and 
sustainability that will help its tribal forest managers meet the 
growing demand for forest products while protecting the woodlands 
environment for future generations. Turtle Mountain Community College 
in North Dakota is studying the spread of West Nile virus, which causes 
serious diseases in animals and people. Results of the study will 
assist tribal efforts in the surveillance, prevention, and control of 
the mosquito-borne virus. These are just two examples of 1994 Research 
projects. We strongly urge the subcommittee to fund this program at a 
minimum of $3.0 million to enable our institutions to develop and 
strengthen their research capacity.
    1994 Institutions' Educational Equity Grant Program.--This program 
is designed to assist 1994 Tribal College Land Grant Institutions with 
academic programs. Through the modest appropriations first made 
available in fiscal year 2001, the TCU Land Grant Institutions have 
begun to support courses and to conduct planning activities 
specifically targeting the unique educational needs of their respective 
communities.
    The 1994 Institutions have developed and implemented courses and 
programs in natural resource management; environmental sciences; 
horticulture; forestry; and food science and nutrition. This last 
category is helping to address the epidemic rates of diabetes and 
cardiovascular disease that plague American Indian reservations. We 
request that the subcommittee appropriate a minimum of $3,342,000 to 
allow the 1994 Tribal College Land Grant Institutions to build upon 
their course offerings and successful activities that have been 
launched.
    Native American Endowment Fund.--Endowment installments that are 
paid into the 1994 Tribal College Land Grant Institutions' account 
remain with the U.S. Treasury. Only the annual interest yield, less the 
USDA's administrative fee, is distributed to the institutions. The 
latest gross annual interest yield for the 1994 Institutions Endowment 
was $3,929,412 and after the USDA takes its standard four-percent 
administrative fee, $3,772,236 should be available for distribution to 
the eligible 1994 Tribal College Land Grant Institutions by statutory 
formula. While the Department has not yet shared the breakdown of funds 
to be distributed to each of the 1994 Institutions for this year, last 
year the USDA administrative fee was larger than the amount paid to all 
but nine of the 1994 Tribal College Land Grant Institutions or in other 
words the USDA claims a fee that is higher than 70 percent of the 1994 
Institutions' payments. Once the distribution amounts are determined 
for this year's disbursement, we fully expect similar results.
    Just as other land grant institutions historically received large 
grants of land or endowments in lieu of land, this endowment assists 
1994 Tribal College Land Grant Institutions in establishing and 
strengthening their academic programs in such areas as curriculum 
development, faculty preparation, instruction delivery, and to help 
address critical facilities and infrastructure issues. Many of the 
colleges have used the endowment in conjunction with the Education 
Equity Grant funds to develop and implement their academic programs. As 
earlier stated, TCUs often serve as primary community centers and 
although conditions at some have improved substantially, many of the 
colleges still operate under less than satisfactory conditions. In 
fact, most of the TCUs continue to cite improved facilities as one of 
their highest priorities. Several of the colleges have indicated the 
need for immediate new construction and substantial renovations to 
replace buildings that have long exceeded their effective life spans 
and to upgrade existing facilities to address accessibility and safety 
concerns.
    Endowment payments increase the size of the corpus held by the U.S. 
Treasury and thereby increase the annual interest yield disbursed to 
the 1994 Tribal College Land Grant Institutions. These additional funds 
would continue to support faculty and staff positions and program needs 
within 1994 agriculture and natural resources departments, as well as 
to help address the critical and very expensive facilities needs at 
these institutions. Currently, the amount that each college receives 
from this endowment is not adequate to address both curriculum 
development and instruction delivery, and completely insufficient to 
address the necessary facilities and infrastructure projects at these 
institutions. In order for the 1994 Tribal College Land Grant 
Institutions to become full partners in this Nation's great land grant 
system, we need and, through numerous treaty obligations, are due the 
facilities and infrastructure necessary to fully engage in education 
and research programs vital to the future health and well being of our 
reservation communities. We respectfully request the subcommittee fund 
the fiscal year 2010 endowment payment at $12.0 million--returning the 
payment amount to the pre across-the-board rescission level imposed 
each year on nondefense appropriated funding. We also request that the 
subcommittee review the USDA's administrative fee and consider reducing 
it for the Native American Endowment so that more of these already 
limited funds can be utilized by the 1994 Tribal College Land Grant 
Institutions to conduct vital community based programs.
    Tribal College Essential Community Facilities Program (Rural 
Development).--In fiscal year 2009, $3,972,000 of the Rural Development 
Advancement Program (RCAP) funds appropriated for loans and grants to 
benefit federally recognized American Indian tribes was targeted for 
essential community facility grants at Tribal College Land Grant 
Institutions. This level of funding is a decrease of about half of a 
million dollars from fiscal year 2007, when the program was 
appropriated $4.5 million--reduced to $4,419,000 by the across the 
board cut. We urge the subcommittee to designate $5.0 million each year 
of the next five fiscal years to afford the 1994 Institutions the means 
to aggressively address critical facilities needs, thereby allowing 
them to better serve their students and respective communities.
                               conclusion
    The 1994 Land Grant Institutions have proven to be efficient and 
effective vehicles for bringing educational opportunities to American 
Indians and the promise of self-sufficiency to some of this Nation's 
poorest and most underserved regions. The modest federal investment in 
the 1994 Tribal College Land Grant Institutions has already paid great 
dividends in terms of increased employment, access to higher education, 
and economic development. Continuation of this investment makes sound 
moral and fiscal sense. American Indian reservation communities are 
second to none in their potential for benefiting from effective land 
grant programs and, as earlier stated, no institutions better exemplify 
the original intent of the land grant concept than the 1994 Land Grant 
Institutions.
    We appreciate your support of the 1994 Tribal College Land Grant 
Institutions and recognition of their role in the Nation's land grant 
system. We ask you to renew your commitment to help move our students 
and communities toward self-sufficiency. We look forward to continuing 
our partnership with you, the U.S. Department of Agriculture, and the 
other members of the Nation's great land grant system--a partnership 
with the potential to bring equitable educational, agricultural, and 
economic opportunities to Indian Country.
    Thank you for this opportunity to present our funding proposals to 
the subcommittee. We respectfully request your continued support and 
full consideration of our fiscal year 2010 appropriations 
recommendations.
                                 ______
                                 

      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other state and locally owned utilities throughout the United 
States (all but Hawaii). Collectively, public power utilities deliver 
electricity to one of every seven electricity consumers (approximately 
45 million people), serving some of the nation's largest cities. 
However, the vast majority of APPA's members serve communities with 
populations of 10,000 people or less.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2010 funding priorities within the jurisdiction of the 
Agriculture, Rural Development, Food and Drug Administration and 
Related Agencies Subcommittee.
Department of Agriculture: Rural Utility Service Rural Broadband Grants 
        and Loans
    APPA was pleased with the funding level of $2.5 billion in the 
American Recovery and Reinvestment Act for ``grants, loans and loan 
guarantees, for broadband infrastructure in any area of the United 
States.'' APPA urges the Subcommittee to fully fund the Rural Utilities 
Service's (RUS) rural grant and loan programs at or above the stimulus 
levels.
    APPA believes it is important to provide incentives for the 
deployment of broadband to rural communities, many of which lack 
broadband service. Increasingly, access to advanced communications 
services is considered vital to a community's economic and educational 
development. In addition, the availability of broadband service enables 
rural communities to provide advanced health care through telemedicine 
and to promote regional competitiveness and other benefits that 
contribute to a high quality of life. Approximately one-fourth of 
APPA's members are currently providing broadband service in their 
communities. Several APPA members are planning to apply for RUS 
broadband loans to help them finance their broadband projects.
Department of Agriculture: Title IX Programs
    APPA supports full funding of programs authorized in Title IX of 
the 2008 Farm Bill for energy efficiency, renewable energy and 
biofuels. APPA requests the full fiscal year 2010 funding level of $60 
million for the Rural Energy for America Program (REAP), $5 million for 
the Rural Energy Self-Sufficiency program, and $5 million for the 
Community Wood Energy Program.
                                 ______
                                 

      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2010 appropriation for the 
Food and Drug Administration (FDA) research and regulatory programs. 
The ASM is the largest single life science organization in the world 
with about 42,000 members. The ASM mission is to enhance the science of 
microbiology, to gain a better understanding of life processes, and to 
promote the application of this knowledge for improved health and 
environmental well-being. The ASM recommends an appropriation of $2.25 
billion for the FDA in fiscal year 2010, a $386 million increase over 
the fiscal year 2009 budget.
    The FDA is responsible for the evaluation of domestic and foreign 
foods and consumer products to protect the public health and safety. 
Funding levels for sometime have significantly fallen below amounts 
needed to enable the FDA to fulfill its growing oversight for nearly 
one-quarter of the U.S. Gross National Product. The ASM appreciates the 
estimated $1 billion for food safety anticipated in the President's 
proposed fiscal year 2010 budget. However, serious budget shortfalls in 
the past have diluted FDA's ability to respond to escalating, often 
unmet demands on its personnel and resources not only in food safety, 
but also across the agency. Each year, the Nation spends nearly $1.5 
trillion on FDA regulated goods. It is essential that FDA have state-
of-the-art scientific capabilities and a fully staffed contingent of 
scientists if the United States is to maintain its economic 
competitiveness. FDA's mission is not only to ensure product safety but 
to also stimulate and facilitate innovation.
    Since January, the FDA has approved new drugs for diabetes and 
malaria, a rapid diagnostic test to detect the avian influenza H5N1 
virus in minutes rather than hours, and the first approved drug made 
with materials from genetically engineered animals. Threats to public 
health persist, including sporadic food borne illnesses linked to 
everyday foods like tomatoes, peanuts, and recently, alfalfa sprouts. 
FDA's regulatory responsibilities cover the bulk of U.S. domestic and 
imported foods, plus medical devices, drugs, food additives, blood and 
vaccine products, and cosmetics. Since 2001, its mission has also 
expanded to counterterrorism and homeland security. Several external 
reviews of FDA performance have confirmed in recent years that 
inadequate funding for the agency has undermined efforts to protect 
public health in the United States.
      a safe and secure u.s. food supply depends on fda excellence
    Regulating food in the United States is an enormous task. Food 
expenditures exceed $1.1 trillion annually. In the past 5 years, the 
volume of imported products has doubled, with 60 percent categorized as 
food or food-related products, and is predicted to triple by 2015. Yet 
the FDA examined less than 1 percent of the 7.6 million fresh produce 
lines imported from fiscal years 2002 to 2007. This year, the Nation 
will import agricultural products worth an estimated $81 billion, 
continuing the steady trend of rising U.S. consumption of imported 
food. The number of identified food borne disease outbreaks has tripled 
since the early 1990s. Each year, about 76 million people contract a 
food borne illness in the United States, about 325,000 require 
hospitalization, and about 5,000 die. The U.S. Department of 
Agriculture (USDA) estimates medical costs and lost wages associated 
with just five of the major food borne illnesses reach $6.9 billion 
annually, and total costs are likely much higher. The Centers for 
Disease Control and Prevention (CDC) has enumerated more than 250 
different food borne diseases and more causative agents continue to be 
found. FDA actions thus far this year have included the current recall 
of Salmonella-contaminated pistachio products; a consumer warning about 
certain cheeses that could contain Listeria monocytogenes, bacteria 
that can cause serious and sometimes fatal infections; and advisories 
to food preparers about possible norovirus in some domestic oysters.
    As food moves from farm to table it encounters innumerable points 
for possible contamination, either accidental or deliberate. To 
mitigate failures in our highly complex food supply, the FDA's ongoing 
Protecting America's Food Supply initiative integrates food safety and 
food defense. In November 2007, the FDA launched its Food Protection 
Plan with a three-pronged strategy of expanded prevention, improved 
intervention, and more rapid response to events like disease outbreaks. 
The FDA also participates in the multiagency Action Plan for Import 
Safety, publishing in March its final rule on required prior notice of 
foreign food shipments arriving at U.S. ports. Unfortunately, these and 
other FDA food safety programs have been consistently underfunded to 
the detriment of public health.
    The following are examples of FDA's enormous responsibilities:
  --The FDA regulates about 80 percent of the U.S. food supply, 
        responsible for $417 billion worth of domestic food and $49 
        billion in imported food annually.
  --In the United States, the agency oversees more than 136,000 
        registered domestic food facilities (over 44,000 food 
        manufacturers and processors, plus roughly 113,000 warehouses 
        that include storage tanks and grain elevators).
  --FDA personnel collaborate with staff at other Federal agencies and 
        State and local authorities to regulate more than 2 million 
        farms, 935,000 restaurants and institutional food facilities, 
        and 114,000 supermarkets, grocery stores, and other food 
        outlets.
  --Over 300 U.S. ports receive products from more than 150 countries/
        territories. In the last decade, the number of food entry lines 
        has tripled, shipped from approximately 200,000 FDA registered 
        foreign facilities that manufacture, process, pack, or store 
        food consumed in the United States.
    In 2008, the CDC concluded that the incidence of the most common 
food borne illnesses had changed very little in the previous 3 years, a 
grim plateau in preventing diseases caused by Salmonella, Escherichia 
coli and other food borne pathogens. The disturbing report joined other 
official reports, expert committee reviews, and publicized disease 
investigations that abundantly demonstrate the importance of improving 
food safety in the United States. In November 2007, FDA's own Science 
Advisory Board published a highly critical report concerning the state 
of science at FDA and the ability to undertake its massive mission. 
Last September, the Government Accounting Office (GAO) published its 
negative review of the FDA's oversight of domestic and imported fresh 
produce, citing funding shortages and too few FDA inspectors as 
contributing factors.
    Nationwide outbreaks of food-related illness grab headlines, exact 
high costs for the food industry, and force health officials to 
scramble to conduct the scientific detective work and implement 
preventive strategies to contain the problem. These outbreaks absorb 
significant FDA resources and personnel, like the far-reaching fallout 
from Salmonella-contaminated peanut products that is still rippling 
through the U.S. food industry. Health officials have reported more 
than 600 cases of disease tied to consumption of the suspect products, 
leading to the voluntary recall of more than 2,100 products in 17 
categories by more than 200 companies, and the list continues to grow. 
In January, the FDA expanded the recall list to include pet food 
products that contain peanut paste made by the company, which has 
declared bankruptcy. The large number of products and brands, magnified 
by the large quantities of some products, makes this one of the most 
complex food recalls in U.S. history.
    fda oversight of drugs, vaccines, and diagnostics protects u.s. 
                               consumers
    Just as FDA's responsibilities in food safety have increased 
enormously over the past decade, so has its responsibility in other 
areas, especially drug safety, including adverse events as well as 
contamination both from microbial and chemical sources. We share the 
concerns detailed in the 2006 Report on Drug Safety and the Science 
Board Report.
    The steady release of new therapeutic drugs, vaccines, and 
diagnostic tests by the U.S. private sector helps protect the Nation 
from infectious and other types of diseases. Several divisions within 
the FDA focus on evaluating both new and on-the-market products, 
assuring product safety and efficacy on behalf of health care 
providers, their patients, and the general public. Limited FDA budgets 
in recent years have not fully met the massive volume of 
responsibilities involved in this wide-ranging oversight, which 
includes detailed science-based lab analyses of new and established 
products, data assessment of incident reports, guidance statements and 
product alerts to the public and to health care providers, recall of 
unsafe products, and more.
    Recent shortages of vaccines commonly used against rabies and 
Haemophilus influenza type b (Hib) have underscored the importance of 
FDA-approved vaccines regulated by the agency's Center for Biologics 
Evaluation and Research (CBER). Before development of Hib conjugate 
vaccines, about 20,000 U.S. children had Hib infections each year, 
including 12,000 cases of bacterial meningitis of which about 5 percent 
died. Since the Nation's Hib immunization program began in the early 
1990s, incidence has decreased 99 percent. In developing countries, Hib 
remains a major cause of respiratory infections in infants and 
children. Unfortunately, a voluntary recall of Hib vaccine by a U.S. 
manufacturer in December 2007 resulted in shortages that have since 
been implicated in small Hib outbreaks in Minnesota and Pennsylvania. 
In June 2008, a French supplier of rabies vaccine temporarily halted 
production to upgrade its facilities, prompting U.S. officials to issue 
alerts regarding priority use of limited vaccine supplies. To maintain 
adequate immunization coverage, the FDA not only monitors already 
approved vaccines, but also evaluates the latest vaccine technologies. 
This March, the agency approved a vaccine to prevent Japanese 
encephalitis (JE) that was developed using cell culture technology, 
making it the only JE vaccine available in the United States. Found 
mainly in Asia, the viral disease affects about 30,000 to 50,000 people 
each year, resulting in 10,000 to 15,000 deaths. It is rarely seen in 
the United States, but there have been cases among those traveling to 
Asia.
    FDA scientists who evaluate new products must be able to assess 
leading-edge product development methodologies. For example, CBER 
researchers just completed a ``proof-of-concept'' study of a test using 
nanotechnology to detect quickly the smallest amount of anthrax toxin. 
Based on research at the Center for Devices and Radiological Health 
(CDRH), the FDA approved in March the first DNA test that identifies 
the two types of human papillomavirus (HPV) responsible for the 
majority of cervical cancers among U.S. women. HPV is the most common 
sexually transmitted infection in the United States, causing more than 
6 million new cases each year. The Center for Drug Evaluation and 
Research (CDER) assures that all prescription and over-the-counter 
drugs are safe and effective, overseeing a regulatory portfolio of many 
thousands of products. In 2007 alone, CDER approved nearly 80 drugs and 
biologics, a laborious process that demands singular scientific 
capabilities.
    The FDA also plays a key role in addressing the issue of 
antimicrobial resistance through its initiatives on monitoring and 
surveillance of antimicrobial resistance, facilitating the appropriate 
use of products and tests for infectious diseases, educating the public 
and health professionals about safe and effective use of 
antimicrobials, and assuring accurate product labeling.
         science at fda needs more resources, trained personnel
    The ASM is very concerned about the perceived weaknesses in FDA 
science and the possible negative impacts on the Nation's health. The 
2007 Science Board report conducted a thorough external review of 
science and technology across the agency. It identified several problem 
areas within the agency where FDA science was not keeping pace with the 
private sector, for example, the expertise necessary to evaluate 
products related to nanotechnology, robotics, systems biology, and 
especially genomics. The report also indicted inadequate computing 
capabilities used for surveillance and incident reporting, and a 
dwindling workforce of those trained in science-based investigation and 
research. In the 2008 GAO report on FDA's oversight of fresh produce, 
the agency acknowledged that it lacks resources for funding crucial 
extramural or internal research to understand produce contamination by 
pathogens such as E. coli O157:H7 or Salmonella. The FDA remains the 
Nation's foremost regulatory agency, but optimal oversight of 
increasingly complex products and systems requires fully equipped FDA 
laboratories with leading-edge capabilities. This is of particular 
concern with regard to tissue based products and screening for 
adventitious infectious agents.
    Research programs within the FDA focus on supporting the agency's 
regulatory role with the necessary science and technology tools. 
Understanding the latest advances in multiple scientific disciplines is 
essential for FDA regulators, evidenced by the agency's conclusion last 
year that meat and milk from clones of cattle, swine and goats are safe 
to eat, based on years of FDA study and analysis. The Center for Food 
Safety and Applied Nutrition (CFSAN) conducts food, cosmetic, and color 
additive safety research to protect the public from illnesses, 
contaminants, or other threats from consumer goods. Its scientists 
study the emergence or re-emergence of food borne microbial pathogens 
and evaluate or develop new lab methods needed to investigate 
outbreaks. The Office of Regulatory Affairs (ORA) also funds research 
activities to inform policy and regulation, plus contributing to the 
Nation's food defense efforts. ORA-supported research includes 
validation of detection methods for potential bioterrorism agents like 
Clostridium botulinum neurotoxin. The FDA has identified critical areas 
of needed research that include rapid test kit development, 
confirmatory methods, virology, biotechnology, in-vitro testing, and 
laboratory enhancement. To remedy these technological gaps, increased 
funding for FDA research is needed. As detailed in the 2007 Science 
Board Report, the continued underfunding of the Critical Path 
Initiative to bring FDA science into the 21st Century is a particular 
problem.
    Last year, additional funding in the fiscal year 2009 budget did 
add more than 1,300 new skilled employees. The second hiring phase, 
with a target of 1,400 additional staff, is underway, including 
chemists, microbiologists, and medical officers. However, critical 
personnel needs still remain, especially in the filed of genomics, 
information technology, and risk communication. The agency also 
leverages resources through partnering with other stakeholders, for 
example, the National Center for Food Safety and Technology, a research 
consortium whose members investigate new molecular tools to study 
antimicrobial resistance among pathogens and other emerging food safety 
issues. In September, the FDA awarded $5.2 million in grants to various 
State and local agencies to enhance food and feed safety including the 
first Rapid Response Team cooperative agreements with six U.S. States 
to create RRT teams able to respond to all food hazard incidents in the 
farm-to-table continuum. Also included were grants to upgrade chemistry 
labs to better analyze food samples collected by the FDA or other 
agencies, part of the ongoing effort to boost the surge capacity of 
State health department laboratories. However, this level of research 
funding is woefully inadequate given the cost of this type of research 
and the unfunded research priorities across the agency.
          asm recommends a substantial increase in fda funding
    The ASM urges Congress to support the irreplaceable role of the 
Food and Drug Administration in protecting public health and safety. 
Repeated cautionary reports have warned of besieged and deteriorating 
FDA capabilities in the face of soaring imports, new product lines, and 
issues about drug safety. The ASM recommends $2.25 billion for the FDA 
appropriation in fiscal year 2010.
                                 ______
                                 

      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2010 appropriation for the 
U.S. Department of Agriculture (USDA) research and education programs. 
The ASM is the largest single life science organization in the world 
with more than 40,000 members. The ASM mission is to enhance the 
science of microbiology, to gain a better understanding of life 
processes, and to promote the application of this knowledge for 
improved health and environmental well-being.
    The science based missions of the USDA, fueled by its research and 
education programs, are essential to human, environmental and animal 
health. The ASM strongly urges Congress to appropriate at least $1.24 
billion for the Agriculture Research Service in fiscal year 2010, $1.24 
billion for the Cooperative State Research, Education and Extension 
Service, and to provide $300 million for the Agriculture and Food 
Research Initiative (AFRI). Agriculture research plays an important 
role in the improvement of food safety, the environment, and animal and 
plant health but also contributes to the economic well-being of the 
nation. In a September 2007 report entitled: ``Economic Returns to 
Public Agriculture Research,'' the USDA Economic Research Service (ERS) 
found that the average rate of return from public investment in 
agriculture research is an impressive 45 percent on the dollar. In 
reviewing more than thirty-five economic studies on the social rate of 
return, the ERS also found that such a high rate of return is shared by 
all levels of the agricultural continuum, from the producer to the 
consumer.
                 the agriculture research service (ars)
    The core research arm of the USDA, the ARS is divided into four 
National Programs that focus on critically important areas of 
agricultural research:
  --Nutrition, Food Safety/Quality
  --Animal Production and Protection
  --Natural Resources and Sustainable Agricultural Systems
  --Crop Production and Protection
    Agricultural research is critically important to human and animal 
health. The ARS has funded a number of cooperative research projects 
related to zoonotic viruses including a study evaluating influenza 
vaccines in pigs and the establishment of a pig model from the 1930 
H1N1 swine influenza. The ARS works to understand the biology of animal 
pathogens including the H1N1 swine virus to combat such outbreaks at 
the animal level and reduce the risk to humans. The USDA's Animal and 
Plant Health Inspection Service (APHIS) also works extensively with 
zoonotic virus monitoring which contributes to the knowledge base of 
the ARS.
    The ASM urges Congress to fund the ARS with $1.24 billion in fiscal 
year 2010, a 4 percent increase from the fiscal year 2008 level.
Food Safety
    The ASM supports the Administration's pledge to increase funding 
for food safety. The first step to ensuring a safe and plentiful 
national food source is to maintain a successful research platform.
    Despite advances, food safety remains a serious and complex issue. 
Recent outbreaks of Salmonella Saintpaul demonstrate how quickly and 
severely pathogens can spread through the population. Understanding the 
cause of foodborne illness is an important step towards a better 
understanding of the ways to treat and prevent future outbreaks. 
According to the CDC, in the United States there are an estimated 76 
million cases of foodborne illness each year, resulting in 325,000 
hospitalizations and 5,000 deaths. Agricultural research is an 
irreplaceable tool in the fight against foodborne illness as 
researchers supported by the USDA work to understand and prevent the 
transference of some types of bacteria from the food supply.
    Recently, the CDC's Morbidity and Mortality Weekly Report stated 
that: ``None of the Healthy People 2010 targets for reduction of 
foodborne pathogens were reached in 2008. The lack of recent progress 
points to gaps in the current food safety system and the need to 
continue to develop and evaluate food safety practices as food moves 
from the farm to the table.'' Increased funding for the ARS is critical 
to the prevention, treatment and understanding of foodborne illness, 
both current and future outbreaks.
Antimicrobial Resistance
    The prevalence of antimicrobial resistance remains a threat to 
human and animal health as foodborne and other bacterial pathogens are 
increasingly changing and evolving to adapt to new antimicrobial 
agents. The USDA has supported a number of important research projects 
that bring together basic and applied research to combat this very real 
threat. Adequate funding for the USDA is vital to ensure such research 
continues as the occurrence of antimicrobial resistance increases.
Climate Change
    The ARS supports projects that work to ensure the effects of global 
change on agriculture are understood and ways to mitigate risks are 
developed. The impact of global climate change and global warming 
trends on agricultural yields could be severe. Without adequate funding 
for the ARS, the impact of climate change on food production and plant 
health could be neglected, with disastrous results. Current research 
projects related to climate change include:
  --Crop and Weed Responses to Increasing Atmospheric Carbon Dioxide
  --Evaluating Effects of Nitrogen Deposition and Ambient Ozone on an 
        Invasive Plant in the National Capitol Region
  --Soil Carbon in Urban Environments
    The ARS's Global Change National Program conducted a 5 year cycle 
of study from 2002--2007 to explore the effects of Global Change in 
depth. The programs' accomplishment report, conducted by non-ARS 
scientists, released in 2008 stated: ``The ARS is poised as a leader in 
the field of global change research to help understand the impacts of 
global change on agriculture, enable agriculture to adapt to global 
change and reduce the impact of agriculture on factors affecting global 
change.'' The report also emphasized the need for continued and future 
research to combat the evolving and complex problems that arise with 
climate change. Continued and sustainable funding for the ARS will help 
to ensure that other such crucial research can be completed to further 
the understanding of climate change.
Cooperative State Research, Education and Extension Service (CSREES)
    Soon to become the National Institute of Food and Agriculture 
(NIFA), CSREES works with land-grant universities, public and private 
organizations and supports research that increases understanding and 
knowledge of the unique link between the environment, agriculture and 
human health. Supporting research at the local and state level allows 
the CSREES to fund programs that impact not only scientific research, 
but local economies as well. The ASM urges Congress to appropriate at 
least $1.24 billion for the CSREES in fiscal year 2010, a 4 percent 
increase from the fiscal year 2008 level.
    CSREES supports a number of important areas of interest categorized 
as National Emphasis Areas:
  --Agricultural Systems
  --Animals
  --Biotechnology & Genomics
  --Economics & Community Development
  --Education
  --Families, Youth & Communities
  --Food, Nutrition & Health
  --International
  --Natural Resources & Environment
  --Pest Management
  --Plants
  --Technology & Engineering
Climate Change
    The effects of climate change are almost guaranteed to impact all 
life forms, and the research funded by the CSREES works to ensure that 
the best science is presented to offset such impacts. Supporting 
universities as well as public and private organizations lends 
opportunity for the best science and research to become a part of the 
larger solution.
    The buildup of CO<INF>2</INF> in the atmosphere has caused 
considerable concern as the negative effects of climate change are 
studied and understood. The Consortium for Agricultural Soils 
Mitigation of Greenhouse Gases, funded by the CSREES, is working to 
develop the technologies and strategies to successfully implement soil 
carbon sequestration and greenhouse gas reduction programs. Such 
initiatives are at the forefront of the race to find ways to combat the 
negative effects of global climate change. The CSREES support of such 
successful programs sends the message that climate change is an issue 
that needs collaboration from all science concentrations, especially 
from agricultural research.
Biofuels
    Proven to be the most resourceful and sustainable alternative to 
fossil fuels, biofuels bring the promise of a cleaner and more 
efficient source of energy. Much like fossil fuels however, biofuels 
create a substantial amount of waste called Glycerin that is difficult 
to break down. The creation of waste has slowed the implementation of 
biofuels as a mainstream, alternative to traditional fossil fuels. A 
project funded by the CSREES however, has developed a fermentation 
technology that combines E. coli with glycerin to create a high value 
chemical reducing the existence of waste, as the chemical created can 
be used as a commodity on the domestic market. Such projects, as 
supported by the CSREES, are providing real-life solutions to problems 
once considered too daunting to tackle.
The Agriculture and Food Research Initiative (AFRI)
    AFRI was established in the Food, Conservation, and Energy Act of 
2008 as a competitive grants program aimed to support research, 
education and the extension of our nation's food and agricultural 
systems. Formerly operating as the National Research Initiative program 
(NRI), AFRI is the foundation of competitive grants within the USDA, 
supporting a focus on six core areas within the food and agricultural 
sciences:
  --Plant Heath and Production
  --Animal Health
  --Food Safety, Nutrition and Health
  --Renewable Energy, Natural Resources and Environment
  --Agriculture Systems and technology
  --Agriculture Economics and Rural Communities
    AFRI moves the work of scientists past research and into 
development, implementation, education, and extension. Investments by 
the NRI in this type of research have resulted in a number of advances 
in critical issue areas such as, food safety, food security, 
sustainable fuel production and ecosystem health services. The 
importance of these programs on the overall health of the Nation cannot 
be underestimated. AFRI supports essential research with far reaching 
impacts into human, environmental and plant health, the basis of life.
    Currently authorized at $700 million per year, the ASM strongly 
urges Congress to fund AFRI with at least $300 million for fiscal year 
2010.
Education and Workforce
    Investing in research at the USDA ensures that coming generations 
of researchers, educators and students have the opportunity to stay 
within the agricultural sciences and keep the Nation competitive on a 
global scale. Reduced or stagnant funding sends the detrimental message 
to the Nation's students and research scientists that agricultural and 
biological research is not a worthwhile field to pursue. This risks a 
very real and problematic ``brain drain'' compromising the status of 
the United States as a world leader in cutting edge scientific 
research. Ensuring funding for competitive grants programs and basic 
research will help to send the positive message that investing in 
agricultural and biological sciences is worthwhile.
Conclusion
    The ASM urges Congress to increase research and education funding 
in the USDA budget, and provide at least $1.24 billion for the ARS, 
$1.24 billion for the Cooperative State Research, Education and 
Extension Service, and $300 million for AFRI in fiscal year 2010. 
Research in the agricultural and biological sciences is imperative to 
combat current and future threats to human, environmental, plant and 
animal health. The research supported by the USDA should be a priority 
that deserves steady, predictable and sustainable funding by the 
Federal Government. The future of our agricultural systems, a basis for 
human health, relies on it.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the Subcommittee as it considers the 
fiscal year 2010 appropriation for the USDA.
                                 ______
                                 

     Prepared Statement of the American Society for Nutrition (ASN)

    The American Society for Nutrition (ASN) appreciates this 
opportunity to submit testimony regarding fiscal year 2010 
appropriations for the U.S. Department of Agriculture (USDA) and 
specifically, its research programs. ASN is the professional scientific 
society dedicated to bringing together the world's top researchers, 
clinical nutritionists and industry to advance our knowledge and 
application of nutrition to promote human and animal health. Our focus 
ranges from the most critical details of research to very broad 
societal applications. ASN respectfully requests $1.377 billion for 
ARS, with $120 million of the total allocated to the Human Nutrition 
Research program. We request $300 million for the Agriculture and Food 
Research Initiative in fiscal year 2010.
    Basic and applied research on nutrition, food production, nutrient 
composition, food processing and nutrition monitoring is critical to 
American health and the U.S. economy. Awareness of the growing epidemic 
of obesity and the contribution of chronic illness to burgeoning health 
care costs has highlighted the need for improved information on dietary 
intake and improved strategies for dietary change. Demand for a safer 
and more nutritious food supply continues to increase. Preventable 
chronic diseases related to diet and physical activity cost the economy 
over $117 billion annually, and this cost is predicted to rise to $1.7 
trillion in the next 10 years. Nevertheless, funding for food and 
nutrition research at USDA has not increased in real dollars since 
1983! This decline in our national investment in agricultural research 
seriously threatens our ability to sustain the vitality of food, 
nutrition and agricultural research programs and in turn, threatens the 
future of our economy and the health of our Nation.
    USDA historically has been identified as the lead nutrition agency 
and the most important Federal agency influencing U.S. dietary 
patterns. Through the nutrition and food assistance programs, which 
form roughly 60 percent of its budget, USDA has a direct influence on 
the dietary intake (and ultimately the health) of millions of 
Americans. It is important to better understand the impact of these 
programs on the food choices, dietary intake, and nutritional status of 
those vulnerable populations which they serve. Research is the key to 
achieving this understanding, and it is the foundation upon which U.S. 
nutrition policy is built.
    USDA is in full or in part responsible for the development and 
translation of Federal dietary guidance, implementation of nutrition 
and food assistance programs and nutrition education; and, national 
nutrition monitoring. The USDA Human Nutrition Research programs ensure 
nutrition policies are evidence-based, ensure we have accurate and 
valid research methods and databases, and promote new understanding of 
nutritional needs for optimal health.
ARS Human Nutrition Research Program
    USDA has built a program of human nutrition research, housed in six 
centers (HNRCs) \1\ geographically disperse across the Nation and 
affiliated with the ARS, which links producer and consumer interests 
and forms the core of our knowledge about food and nutrition. These 
unique centers are working closely with a wide variety of stakeholders 
to determine just how specific foods, food components, and physical 
activity can act together during specific life-stages (e.g. prior to 
conception, in childhood, in older adult years) to promote health and 
prevent disease. The HNRCs are a critical link between basic food 
production and processing and health, including food safety issues. The 
center structure adds value by fully integrating a multitude of 
nutritional science disciplines that cross both traditional university 
department boundaries and the functional compartmentalization of 
conventional funding mechanisms.
---------------------------------------------------------------------------
    \1\ Of the six HNRCs, three are fully administered by ARS and are 
located in Davis, CA, Beltsville, MD, and Grand Forks, ND. The other 
three are administered through cooperative agreements with Baylor 
University Medical Center in Houston, TX; Tufts University in Boston, 
MA; and, the University of Arkansas in Little Rock.
---------------------------------------------------------------------------
    An important basic premise of research in the HNRCs is that many 
chronic diseases, such as diabetes and obesity, can be prevented by 
lifestyle issues, the most important of which are: consuming 
appropriate amounts of a well-balanced, healthful diet; and regularly 
engaging in adequate levels of physical activity. Using state-of-the-
art facilities and a concentration of critical scientific teams, the 
HNRCs are conducting the highest quality translational research. Also 
of importance are the long-term experiments involving the derivation of 
dietary reference intake values and nutrient requirements of 
individuals. Often compared to the intramural program at the National 
Institutes for Health, these centers tackle projects that are unlikely 
to be funded through other means, such as through competitive grants or 
by industry.
    The flat-funding of ARS in fiscal year 2009, coupled with flat-
funding of the Human Nutrition Research program for over 6 years, 
seriously jeopardizes the future of the centers, their important 
research projects, and the critical infrastructure provided by the USDA 
from which the HNRCs and scientists benefit. An estimated $10 million 
in additional funds is needed across the six HNRCs to ensure they can 
continue current research projects and to restore purchasing power lost 
to inflation over years of flat budgets.
    Another example of the unique nutrition research at ARS is the 
nutrition monitoring program, ``What We Eat in America'' (WWEIA). This 
program allows us to know not only what foods Americans are eating, but 
also how their diets directly affect their health. Information from the 
survey guides policies on food safety, food labeling, food assistance, 
military rations, pesticide exposure and dietary guidance. In addition 
to having an impact on billions of dollars in Federal expenditures, the 
survey data leverages billions of private sector dollars allocated to 
nutrition labeling, food product development and production. Despite 
this, WWEIA has been flat-funded at $11.5 million for over 13 years. 
The USDA budget for WWEIA must be increased two-fold to $23 million. 
Otherwise, we risk losing this national treasure if we do not restore 
lost funding and strengthen it for the future.
Agriculture and Food Research Initiative Competitive Grants Program
    The Food, Conservation, and Energy Act of 2008 established the 
Agriculture and Food Research Initiative (AFRI), a new competitive 
grants program authorized at $700 million annually, for research, 
extension, and education in support of our nation's food and 
agricultural systems within the soon-to-be-established National 
Institute of Food and Agriculture at USDA. This unique program, the 
successor to USDA's National Research Initiative (NRI) and the 
Initiative for Future Agriculture and Food Systems (IFAFS), takes 
research and innovation beyond the development phase, into 
implementation through contemporary education and extension programs.
    AFRI now includes programs aimed to improve the Nation's nutrition 
and health which were previously funded by other mechanisms. The 
nutrition- and health-related research focuses on two objectives: (1) 
improving human health by better understanding an individual's nutrient 
requirements and the nutritional value of foods; and (2) promoting 
research on healthier food choices and lifestyles. For example, USDA-
funded projects funded by the Human Nutrition and Obesity program have 
led to a better understanding of the behavioral and environmental 
factors that influence obesity, and to the development and evaluation 
of effective interventions. Specifically, USDA competitive grants have 
funded nutrition education interventions focusing on the reduction of 
childhood obesity in low-income families.
    While ASN believes the program should be funded at its full 
authorization level of $700 million, we understand that in the current 
fiscal climate, that is unlikely. However, with the Nation and world 
facing unprecedented health, food security and nutrition challenges, 
now is the time to renew investment in our Nation's agricultural 
research enterprise. A strong commitment to AFRI of $300 million in 
fiscal year 2010 (exclusive of any funding identified for the former 
Section 406 programs), with a goal of $500 million in total funding by 
fiscal year 2015, will provide America's agriculture, food and 
nutrition scientists, land managers and farmers with the tools 
necessary to solve problems and keep the country competitive, while 
also protecting the natural resource base and environment, enhancing 
human nutrition and fostering vibrant rural communities.
    The AFRI and the Human Nutrition Research Program under ARS are 
symbiotic programs that provide the infrastructure and generation of 
new knowledge that allow for rapid progress towards meeting national 
dietary needs. These programs allow USDA to make the connection between 
what we grow and what we eat. And through strategic nutrition 
monitoring, we learn more about how dietary intake affects our health.
    ASN thanks your Committee for its support of the ARS and the AFRI 
Competitive Grants Program. If we can provide any additional 
information, please contact Mary Lee Watts, ASN Director of Science and 
Public Affairs, at (301) 634-7112 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="abc6dccadfdfd8ebc5dedfd9c2dfc2c4c585c4d9cc85">[email&#160;protected]</a>
                                 ______
                                 

     Prepared Statement of the American Society of Plant Biologists

    On behalf of the American Society of Plant Biologists (ASPB) we 
submit this statement for the official record in support of increased 
funding for the U.S. Department of Agriculture's (USDA) National 
Institute of Food and Agriculture, specifically funding the Agriculture 
and Food Research Initiative at $300 million. This testimony highlights 
the importance of biology, particularly plant biology, as the Nation 
seeks to address vital issues including a sustainable food supply, 
climate change and energy security. We would like to thank the 
Subcommittee for its consideration of this testimony.
    The American Society of Plant Biologists is an organization of more 
than 5,000 professional plant biologists, educators, graduate students, 
and postdoctoral scientists. A strong voice for the global plant 
science community, our mission--which is achieved through engagement in 
the research, education, and public policy realms--is to promote the 
growth and development of plant biology and plant biologists and to 
foster and communicate research in plant biology. The Society publishes 
the highly cited and respected journals Plant Physiology and The Plant 
Cell, and it has produced and supported a range of materials intended 
to demonstrate fundamental biological principles that can be easily and 
inexpensively taught in school and university classrooms by using 
plants.
  food, fuel, climate change, and health: plant biology research and 
                            america's future
    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are almost always the primary 
producers in the Earth's ecosystems. Indeed, basic plant biology 
research is making many fundamental contributions in the areas of fuel 
security and environmental stewardship; the continued and sustainable 
development of better foods, fabrics, and building materials; and in 
the understanding of basic biological principles that underpin 
improvements in the health and nutrition of all Americans. To go 
further, plant biology research can help the Nation both predict and 
prepare for the impacts of climate change on American agriculture, and 
it can make major contributions to our Nation's efforts to combat 
global warming.
    In particular, plant biology is at the center of numerous 
scientific breakthroughs in the increasingly interdisciplinary world of 
alternative energy research. For example, interfaces among plant 
biology, engineering, chemistry, and physics represent critical 
frontiers in both basic biofuels research and bioenergy production. 
Similarly, with the increase in plant genome sequencing and functional 
genomics, the interface of plant biology and computer science is 
essential to our understanding of complex biological systems ranging 
from single cells to entire ecosystems.
    Plant biology also has much to offer to our basic understanding of 
biology. Many common biological problems can best be addressed using 
plants. For example, plants cells are totipotent and, unlike animal 
cells, can be regenerated to whole plants. Many genetic studies are 
best done in plants due to the ability to analyze large numbers of 
individuals. Fundamental biological discoveries (e.g., the discovery of 
gene silencing) derive from initial studies in plants.
    Despite the fact that plant biology research--the kind of research 
funded by USDA--underpins so many vital practical considerations for 
our country, the amount invested in understanding the basic function 
and mechanisms of plants is relatively small when compared with the 
impact it has on multibillion dollar sectors of the economy like 
energy, agriculture, health and nutrition.
                            recommendations
    ASPB, as a spokesperson for the plant science community, is in an 
excellent position to articulate the Nation's plant science priorities 
as they relate to agriculture. Our recommendations, in no particular 
order, are as follows:
  --With the new Farm Bill and a new research structure, it is ASPB's 
        hope that USDA will have an elevated role to play as part of 
        the expanding Federal research landscape. USDA already funds 
        research that is intended to provide a foundation for creating 
        sustainable food and new energy supplies; however, much higher 
        investment in competitive funding is needed if the Nation is to 
        continue to make ground-breaking discoveries. ASPB strongly 
        encourages the appropriation of at least $300 million in fiscal 
        year 2010 for the Agriculture and Food Research Initiative 
        (AFRI). ASPB encourages the full funding of $700 million to 
        AFRI within 5 years. AFRI, authorized at $700 million, will 
        play a vital role in maintaining America's food and energy 
        security through funding innovative research.

  --Climate change is real and will have significant impacts on 
        agriculture and our way of life for the foreseeable future. 
        There are significant questions that must be answered as to how 
        climate change will impact food production and the environment. 
        There are also clear opportunities to use biological systems to 
        ameliorate and respond to climate change, such as through 
        carbon sequestration or modification of plants to resist 
        environmental stress. Therefore, ASPB calls for additional 
        funding focused on studies of the effect of climate change on 
        agricultural cropping systems, basic studies of its effects on 
        plant growth and development, and targeted research focused on 
        modification of plants to resist climate change and for use in 
        carbon sequestration.
  --Current estimates predict a significant shortfall in the needed 
        scientific and engineering workforce as the demographics of the 
        U.S. workforce changes. For example, there is a clear need for 
        additional scientists in the area of energy research and, also, 
        plant breeding. USDA has not traditionally been a major funding 
        agency for education and training, other than that which occurs 
        through the funding of individual investigator and center 
        grants. Given the expected need for additional scientists and 
        engineers who are well-grounded in agriculture research and 
        development activities, ASPB calls for funding of specific 
        programs (e.g., training grants) that are targeted to provide 
        this needed workforce over the next 10 years and to adequately 
        prepare these individuals for careers in the agricultural 
        research of the future.
  --Considerable research interest is now being paid to the use of 
        plant biomass for energy production. Progress in this area has 
        been strongly affected by the ``fuel vs. food'' debate, which 
        arose from the current emphasis on the use of corn for ethanol 
        production. A response to this debate has been to switch the 
        focus to plant species that can be grown exclusively for 
        biomass (e.g., switchgrass, miscanthus, etc). However, if these 
        crops are to be used to their full potential, considerable 
        effort must be expended to improve our understanding of their 
        basic biology and development, as well as their agronomic 
        performance. These novel crops have not benefitted from many 
        years of improvements in crop management and breeding that have 
        been bestowed upon our current major crops (e.g., soybean, 
        corn)--improvements that, among other things, have vastly 
        increased yield and agronomic efficiency. Although efforts to 
        improve targeted bioenergy crops are just beginning, very 
        aggressive goals have been established for the use of these 
        crops to meet the Nation's fuel needs. Therefore, ASPB calls 
        for additional funding that would be targeted to efforts to 
        increase the utility and agronomic performance of bioenergy 
        crops.
  --Although USDA has done some quality work with private foundations 
        and other federal agencies such as the Department of Energy, 
        more can be done. Earlier this year the National Science 
        Foundation announced a partnership with the Bill and Melinda 
        Gates Foundation on ``Basic Research to Enable Agricultural 
        Development (BREAD),'' which will support basic research 
        relevant to problems of agriculture in developing countries.
    Because USDA should be at the forefront of agricultural discovery, 
ASPB would like to see USDA create similar programs and be a part of 
similar endeavors with either private foundations or other research 
agencies in the future.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists. Please do not hesitate to contact 
the American Society of Plant Biologists if we can be of any assistance 
in the future. For more information about the American Society of Plant 
Biologists, please see www.aspb.org.
                                 ______
                                 

 Prepared Statement of the American Society of Agronomy, Crop Science 
        Society of America, and Soil Science Society of America

    The American Society of Agronomy (ASA), Crop Science Society of 
America (CSSA), and Soil Science Society of America (SSSA) are pleased 
to submit the following funding recommendations for fiscal year 2010. 
ASA, CSSA, and SSSA understand the challenges the Subcommittee on 
Agriculture, Rural Development, Food and Drug Administration, and 
Related Agencies faces with the tight budget for fiscal year 2010. We 
also recognize that the Agriculture Appropriations bill has many 
valuable and necessary components. We applaud the subcommittee's 
efforts to fund mission-oriented, critical research through the USDA-
Cooperative State, Research, Education and Extension Service, its 
intramural research portfolio funded through the Agricultural Research 
Service as well as the conservation programs supported through the 
Natural Resources Conservation Service.
    ASA, CSSA, and SSSA are particularly grateful to the subcommittee 
for funding the Agriculture and Food Research Initiative (AFRI), the 
new competitive grants program for research, extension, and education 
within USDA's Cooperative State Research, Education, and Extension 
Service at $201.5 million in the fiscal year 2009 Omnibus 
Appropriations bill. In fiscal year 2010, at a time when our Nation 
needs to respond rapidly to challenges which threaten our ability to 
safely produce and distribute food, feed, fuel, and fiber, we believe 
it is essential to continue to build our competitive research programs. 
For this reason, we recommend funding AFRI at $300 million in the 
fiscal year 2010 agriculture appropriations bill. We believe that 
funding AFRI at this level would be a strong step in support of these 
important systems, enabling effective development and distribution of 
information which will achieve the goals of agricultural production 
(thereby maximizing the benefits of agroecosystem processes) and 
environmental stewardship.
    For the Agricultural Research Service (ARS), ASA, CSSA, and SSSA 
thank Congress for providing the agency with the much-needed investment 
of $176 million for buildings and facilities in the 2009 economic 
stimulus bill (Public Law 111-5). For fiscal year 2010, we recommend a 
funding level of $1,268 million or a 7 percent increase over the fiscal 
year 2009 enacted funding level. The ARS ensures that our Nation has a 
safe, reliable, and adequate supply of high quality food, feed, fiber 
and fuel.
    For the Cooperative State Research, Education and Extension Service 
(CSREES), ASA, CSSA, and SSSA recommend a funding level of $1,444 
million for fiscal year 2010, roughly an 18 percent increase over 
fiscal year 2009. Within CSREES we recommend an fiscal year 2010 
funding level of $300 million for AFRI.
    For fiscal year 2010, ASA, CSSA, and SSSA support a 7 percent or 
$75.5 million increase over fiscal year 2009 enacted funding level of 
$1,036 million for the Natural Resources Conservation Service (NRCS), 
which would bring total funding for NRCS to $1,108 million.
    With more than 25,000 members and certified professionals, ASA, 
CSSA, and SSSA are the largest life science professional societies in 
the United States dedicated to the agronomic, crop and soil sciences. 
ASA, CSSA, and SSSA play a major role in promoting progress in these 
sciences through the publication of quality journals and books, 
convening meetings and workshops, developing educational, training, and 
public information programs, providing scientific advice to inform 
public policy, and promoting ethical conduct among practitioners of 
agronomy and crop and soil sciences. ASA and SSSA certified 
professionals--Certified Crop Advisers (CCA), Agronomists (CPAg) and 
Soil Scientists (CPSS)--are specialists who work in the field with 
farmers, providing technical advice about the agronomic practices--
types and rates of fertilizer application, plant hybrid and variety 
selection, soil conservation, nutrient management, and integrated pest 
management--most appropriate to optimize crop yield and minimize 
environmental impact.
Agricultural Research Service (ARS)
    ASA, CSSA, and SSSA applaud the Agricultural Research Service's 
(ARS) ability to respond quickly to rapidly changing national needs. 
ARS's 2,100 scientists located at 100 research locations accomplish 
scientific discoveries that help solve problems in crop and livestock 
production and protection and human nutrition, and ensure a sustainable 
interaction of agriculture and the environment. ARS National Programs 
focus on the importance, impact, and quality of ARS research in (1) 
Nutrition, Food Safety/Quality, (2) Animal Production and Protection, 
(3) Natural Resources and Sustainable Agricultural Systems, and (4) 
Crop Production and Protection. Increasingly, ARS through Cooperative 
Research and Development Agreements (CRADA) between Federal 
laboratories and businesses forms partnerships that help move new 
technologies to the marketplace. These partnerships are especially 
important to leverage during a time when our Nation's economy remains 
vulnerable and Federal funding is constrained. Such cooperative 
research and development helps foster American businesses and enhances 
the position of the United States as a global leader in food, feed, 
fiber, and fuel production.
    ASA, CSSA, and SSSA find that research and technology transfer 
resulting from ARS programs ensures high-quality, safe food and other 
agricultural products; assesses the nutritional needs of Americans; 
helps to sustain a competitive agricultural economy; enhances the 
natural resource base and the environment; and provides economic 
opportunities for rural citizens, communities, and society as a whole. 
Again, ASA, CSSA, and SSSA recommend an ARS funding level of $1,268 
million for fiscal year 2010, a 7 percent increase above the fiscal 
year 2009 enacted.
Cooperative State Research, Education, and Extension Service (CSREES)
    ASA, CSSA, and SSSA find that the need has never been greater to 
enhance investment in Hatch and McIntire-Stennis formula funding. 
Therefore, ASA, CSSA, and SSSA recommend that both Hatch and McIntire-
Stennis receive a 10 percent increase over the fiscal year 2009 enacted 
level of funding, bringing the combined funding level to $258 million 
for fiscal year 2010. If we are to maintain the research capacity at 
our Nation's Land Grant Universities and Colleges of Agriculture 
necessary to keep American agriculture and forestry competitive, while 
recognizing the potential of our managed systems to provide beneficial 
ecosystem services, we need concerted investment in capacity building 
at our institutions.
    Agriculture and Food Research Initiative (AFRI).--ASA, CSSA, and 
SSSA strongly endorse a 49 percent increase in funding for the 
Agriculture and Food Research Initiative. The AFRI, established in the 
Food, Conservation, and Energy Act of 2008 (FCEA), is the successor to 
USDA's National Research Initiative (NRI) and the Initiative for Future 
Agriculture and Food Systems (IFAFS). ASA, CSSA, and SSSA find that 
funding AFRI at $300 million in the fiscal year 2010 agriculture 
appropriations bill (exclusive of any funding identified for Section 
406 programs) will show a strong commitment to America's farmers and 
rural entrepreneurs.
    Bioenergy Feedstock Research.--ASA, CSSA, and SSSA support funding 
of the Agricultural Bioenergy Feedstock and Energy Efficiency Research 
and Extension Initiative (Section 7207) of the Food, Conservation and 
Energy Act of 2008 (FCEA) at $25 million for fiscal year 2010. Section 
7207 is a new program which closes the critical research gap between 
fundamental biological discovery and the reliable expression of new 
traits in the field. The research and extension projects under Section 
7207 are critical to the future of the United States, and will improve 
agricultural biomass production using field observations. This is a 
nearly priceless step in translation of basic research. Furthermore, we 
applaud Congress for including $118 million in mandatory funding during 
the life of the FCEA for the Biomass Research and Development 
Initiative (BRDI). We are excited about the mandatory funding of the 
USDA portion of BRDI at $28 million for fiscal year 2010 and suggest 
that an additional $10 million in discretionary funding (it is 
authorized at $35 million) be placed towards this critical program for 
fiscal year 2010.
    Sustainable Agriculture Research and Education Programs.--ASA, 
CSSA, and SSSA find the SARE Professional Development Program to be an 
effective program and support funding for the program at $4.92 million 
for fiscal year 2010. Additionally, we urge the Subcommittee to 
consider an increase in SARE core funding to bring total funding to 
$15.7 million for fiscal year 2010.
    Higher Education.--ASA, CSSA, and SSSA urge the Subcommittee to 
fund the Institution Challenge Grants at $6.22 million for fiscal year 
2010. We strongly support a fiscal year 2010 level of $4.24 million in 
funding for the Graduate Fellowships Grants; these grants enable us to 
train the next generation of scientific innovators.
    Cooperative Extension Service.--Extension forms a critical part of 
research, education and extension program integration, a feature unique 
to CSREES. Unfortunately, recently the Smith Lever 3(b) and 3(c) 
account has been flat-funded (in constant dollars this account has seen 
a gradual erosion in funding). ASA, CSSA, and SSSA support $309 million 
in appropriations for fiscal year 2010, a $20 million increase over 
fiscal year 2009 enacted, for the continuing education and outreach 
activities supported by Smith-Lever 3(b) & (c) formula funds.
    New Technologies for Ag Extension (NTAE).--eXtension is a national 
web-based information and education delivery system that provides 
direct public access to science-based educational resources. ASA, CSSA, 
and SSSA find that internet-facilitated outreach through extension and 
other New Technologies for Ag Extension (NTAE) programs provide 
invaluable consolidation and streamlining of information. These 
communication technologies help to highlight appropriate management, 
expediting the voluntary adoption of the best practices. ASA, CSSA, and 
SSSA recommend a 10 percent increase in appropriation for fiscal year 
2010 for this program, bringing funding to $1.65 million.
    Integrated Research, Education, and Extension Competitive Grants 
Program.--Section 406 was initially authorized in the Agricultural 
Research, Extension and Education Reform Act of 1998. Since its 
inception this program has proven to be an indispensible part of water 
and pest management and numerous other issues. ASA, CSSA, and SSSA 
support a funding increase of 7 percent for programs under Section 406, 
which would bring total funding to $44.92 million. Furthermore, we 
strongly suggest that the International Science and Education (ISE) 
Grants Program also receive a 7 percent increase, bringing ISE funding 
to $3.21 million for fiscal year 2010, and increasing the funding of 
total integrated activities to $60 million for fiscal year 2010.
    Organic Farming Transition Program.--ASA, CSSA, and SSSA urge the 
Subcommittee to fund the Organic Farming Transition Program at $1.97 
million in fiscal year 2010, an increase over fiscal year 2009 of 7 
percent.
Natural Resources Conservation Service
    For fiscal year 2010, ASA, CSSA, and SSSA support a 7 percent 
increase over the fiscal year 2009 enacted funding level of $1,036 
million for the Natural Resources Conservation Service. This would 
bring total NRCS funding to $1,108 million.
    Conservation Security Program.--The Conservation Security Program 
provides financial and technical assistance to producers who advance 
the conservation and improvement of soil, water, air, energy, plant and 
animal life, and other conservation purposes on Tribal and private 
working lands. ASA, CSSA, and SSSA applaud Congress for passing the 
FCEA which keeps this important working lands conservation program as 
an uncapped mandatory program. Further, ASA, CSSA, and SSSA encourage 
the Subcommittee not to cap appropriations for this program.
    Environmental Quality Incentives Program.--The Environmental 
Quality Incentives Program provides technical assistance to eligible 
farmers and ranchers to address soil, water, air, and related natural 
resource concerns on their lands in an environmentally beneficial and 
cost-effective manner. ASA, CSSA, and SSSA support funding of this 
essential program at $1,337 million for fiscal year 2010.
In Summary
    A balance of funding mechanisms for research, including intramural, 
competitive and formula funding, is essential to maintain the capacity 
of the United States to conduct both basic and applied agricultural 
research to improve crop and livestock quality, and deliver safe and 
nutritious food products, while protecting and enhancing the Nation's 
environment and natural resource base. In order to address these 
challenges and maintain our position in an increasingly competitive 
world, we must continue to support research, education and extension 
programs funded through the Agricultural Research Service and 
Cooperative State Research, Education, and Extension Service, and 
conservation programs supported by the Natural Resources Conservation 
Service. Congress must enhance funding for these programs to ensure 
that Americans have access to a safe and nutritious food supply and to 
provide for the next generation of research scientists, extension 
agents and educators. According to the USDA Economic Research Service 
(Agricultural Economic Report Number 735), publicly funded agricultural 
research has earned an annual rate of return of 35 percent. This rate 
of return suggests that additional allocation of funds to support 
research in the food and agricultural sciences would be highly 
beneficial to the U.S. economy. Finally, we must ensure support for 
CSREES-funded extension programs to guarantee that these important new 
tools and technologies reach and are utilized by producers and other 
stakeholders.
    As you lead the Congress in deliberation on funding levels for 
agricultural research, extension, education and conservation programs, 
please consider American Society of Agronomy, Crop Science Society of 
America, and Soil Science Society of America as supportive resources. 
We hope you will call on our membership and scientific expertise 
whenever the need arises. Thank you for your thoughtful consideration 
of our requests. For additional information or to learn more about the 
American Society of Agronomy, Crop Science Society of America and Soil 
Science Society of America (ASA-CSSA-SSSA), please visit 
www.agronomy.org, www.crops.org or www.soils.org or contact ASA-CSSA-
SSSA Director of Science Policy Karl Glasener (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c4afa3a8a5b7a1aaa1b684a5a3b6abaaaba9bdeaabb6a3">[email&#160;protected]</a>, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="49222e25283a2c272c3b092a3b26393a67263b2e">[email&#160;protected]</a>, or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6308040f0210060d061123100c0a0f104d0c1104">[email&#160;protected]</a>) or 202-408-5382.
                                 ______
                                 

           Prepared Statement of the Animal Welfare Institute

USDA/APHIS/Animal Care (AC)/Animal Welfare Act (AWA) Enforcement
            AWI Request: $22,275,270 (near-level funding)
    Over the past decade, the subcommittee has responded to the urgent 
need for increased funding for Animal Care to improve its inspections 
of nearly 16,000 sites, including animal dealers, commercial breeders, 
laboratories, zoos, circuses, and airlines, to ensure compliance with 
Animal Welfare Act standards. AC now has 111 inspectors (with 5 
vacancies in the process of being filled), versus 64 inspectors at the 
end of the 1990s. During fiscal year 2008, they conducted 15,600 
inspections, including required annual visits to all research 
facilities that alone house over 1 million animals covered by the act. 
Moreover, AC inspectors engaged in extended, time-consuming follow-up 
with licensees/registrants regarded as problems because of the nature 
and frequency of their violations.
    It is important to sustain the progress that has been made. This 
budget request of $22,275,270 provides a minimal increase over fiscal 
year 2009 to cover pay costs as well as the added responsibilities 
associated both with the growing number of licensed/registered 
facilities, and with enforcing the new Congressional ban on imports 
from foreign puppy mills.
APHIS/Emergency Management Systems/Disaster Planning for Animals
            AWI Request: $1,001,000 (level funding)
    In addition to their AWA inspections, Animal Care personnel help 
plan and coordinate disaster response efforts for companion and service 
animals. In 2008, they assisted with pet evacuation and recovery during 
Hurricanes Gustav and Ike and the California wildfires. These efforts 
are required by law--laws enacted in recognition of the implications 
for disaster response, as learned during Hurricane Katrina, when people 
refuse to evacuate because no plans have been made for their companion 
animals. This is an important effort, and the additional funding is 
needed so that it does not come at the expense of AC's other programs.
Agricultural Research Service/National Agricultural Library (NAL)/
        Animal Welfare Information Center (AWIC)
            AWI Request: $1, 978,400
    We very much appreciate the Subcommittee's strong support for the 
Animal Welfare Information Center, including placing it within the 
NAL's budget as a line item. AWIC's services are integral to the 
Nation's biomedical research enterprise, as well as to other regulated 
entities, because they facilitate compliance with Federal animal 
welfare regulations and policies governing animal-related research. The 
AWIC helps to improve the conduct of research, including the care 
provided to the animals who are used, thereby ensuring a reduction in 
variables that can skew the research. Better science is the end result.
    Congress established AWIC under the Improved Standards for 
Laboratory Animals Act (the 1985 amendment to the Animal Welfare Act) 
to serve as a clearinghouse, training center, and educational resource 
for institutions using animals in research, testing, and teaching. The 
Center is the single most important resource for helping personnel at 
more than 1,200 United States research facilities meet their 
responsibilities under the AWA. Supported by a modest funding level, 
its services are available to everyone at these institutions, including 
animal technicians, research investigators, attending veterinarians, 
IACUC representatives, and the Institutional Official, as well as to 
other industries and regulated entities, USDA inspectors, and the 
general public.
    AWIC provides data on the following: alleviating or reducing pain 
and distress in experimental animals (including anesthetic and 
analgesic procedures); reducing the number of animals used for research 
where possible; identifying alternatives to the use of animals for 
specific research projects; and preventing the unintended duplication 
of animal experiments. The Center collects, updates, and disseminates 
material on humane animal housing and husbandry, the responsibilities 
of Institutional Animal Care and Use Committees (IACUCs), animal 
behavior, improved methodologies, psychological well-being of primates, 
and exercise for dogs. Through the resources it provides to the 
research community and other animal industries, such as zoos, AWIC 
contributes significantly to science-based decision-making in animal 
care.
    AWIC's website (http://awic.nal.usda.gov/) is one of the most 
accessed sites at the NAL, with an average of over 340,000 page-views 
per month in fiscal year 2008, a 12 percent increase over fiscal year 
2007. It provides valuable information on issues of importance not only 
to the science community but also to the agriculture and public health 
communities, including BSE and avian influenza, two of the top areas of 
inquiry for visitors to its website. In fiscal year 2008, in addition 
to hundreds of millions of kbytes of information downloaded from the 
website, more than 82,000 hard copies (paper and CD) were distributed, 
an increase of 17 percent over fiscal year 2007. This includes the 
distribution of the AWIC Bulletin to over 7,000 requestors. AWIC staff 
provided over 2,000 personal reference services; conducted 7 sessions 
of its workshop ``Meeting the Information Requirements of the Animal 
Welfare Act'' at universities, pharmaceutical/research firms, and NAL 
itself; and conducted 22 exhibitions and/or presentations at various 
professional and scientific meetings, as well as for several visiting 
delegations at NAL.
    AWIC expertise is also needed to address continuing deficiencies in 
IACUC oversight within research institutions. First identified some 
years ago in an OIG audit, USDA found IACUC-related violations 45 times 
in fiscal year 2007, and the primate abuse documented at the New Iberia 
Research Facility in 2008 provides fresh evidence of these problems. 
AWIC needs the funds to conduct more of its workshops, and to achieve a 
long-sought objective of holding a symposium on AWA requirements for 
IACUC nonaffiliated members (i.e., members from the community charged 
with representing the communities' concerns for the animals).
    Likewise, increased funding is necessitated by the expansion of 
AWIC's mandate to serve the broader industry regulated under the AWA: 
animal dealers, carriers and handlers, zoos and other exhibitors. 
Animal Care's veterinary medical officers and animal care inspectors 
are able to utilize the full range of AWIC's services to better fulfill 
their responsibilities. The AWIC works closely with Animal Care and 
with Emergency Veterinary Services on emerging crises such as the 
highly pathogenic avian influenza, and it also quickly responded to the 
current health emergency by adding a variety of information resources 
on the H1N1 virus to its website, its blog, and through Twitter.
    Among other endeavors, the $1.978 million would be used as follows: 
The addition of two much-needed specialists to expand the content of 
the Center's database and make it more user-friendly and searchable; 
development of web-based training modules to provide online delivery of 
training opportunities; workshops, in conjunction with Animal Care, to 
assist licensees and registrants frequently cited for AWA violations; 
acquisition of, including electronic access to, data, including certain 
veterinary publications (the receipt of which was discontinued due to 
budget shortfalls); restoration of a grants program that could be used 
to update essential publications and manuals and translate them into 
Spanish for the growing number of Spanish-speaking animal care 
personnel in labs and zoos; and the overhead that must be provided to 
the Agricultural Research Service and the National Agricultural 
Library. (It should be noted that, after salaries and benefits, the 
largest single expense AWIC has is its overhead costs to ARS and NAL, 
which comprise over 13 percent of this funding request. This large 
expense substantially reduces the funds available for AWIC to conduct 
programs and provide services.)
    AWIC's indispensability not only in assisting with compliance with 
the AWA but also in providing up-to-date information on a range of 
issues, from BSE to primate enrichment to the H1N1 virus, that are 
critical to the scientific and agricultural communities and the general 
public, justifies this modest proposed increase in its budget to enable 
it to meet growing demand for its expertise on multiple fronts.
Food Safety and Inspection Service (FSIS)/Humane Methods of Slaughter 
        Act (HMSA) Enforcement
            AWI Request: Sufficient Funds to Ensure Strengthened 
                    Enforcement of HMSA
    We greatly appreciate Congress' past efforts to address USDA's 
egregious failure to enforce the Humane Methods of Slaughter Act. 
Despite these efforts, USDA has made no improvement in this area. This 
failure jeopardizes both animal welfare and consumer welfare.
    Since 2001, Congress has provided millions in additional funds for 
humane slaughter enforcement, in part to be used to hire new in-plant 
employees to work full-time on HMSA enforcement only. However, to date, 
none have been hired solely to handle this responsibility.
    An AWI report found that enforcement of humane slaughter law is a 
low priority within USDA. (Crimes without Consequences: The Enforcement 
of Humane Slaughter Laws in the United States. www.awionline.org/farm/
pdf/SlaughterReport.pdf) Not much has changed since 2004, when the 
Government Accountability Office issued a report citing widespread 
animal welfare issues under USDA's watch. It appears that the agency 
ignored the report.
    Between 2002 and 2005, only 42 enforcement actions beyond 
deficiency reports for noncompliance with humane slaughter laws were 
taken in the United States. But whistleblower accounts and undercover 
videotape documentation from inside slaughterhouses reviewed in the 
report suggest that the current low level of humane enforcement is not 
due to a lack of violations. Instead, crimes are either not observed or 
recognized by inspection personnel, not reported through the proper 
channels, or the appropriate remedial measures are not taken.
    In 2008, undercover video obtained by an investigator from an 
animal protection group revealed abhorrent acts of cruelty to livestock 
at the Westland/Hallmark Meat Packing Company in Chino, Calif., raising 
both ethical and food safety issues.
    In the wake of this case, suggestions have been made regarding the 
installation of video cameras as a deterrent. AWI urges Congress to 
reject any attempt by the department to use cameras in lieu of 
inspectors.
    Inspectors must be able to observe animals from the time the truck 
arrives and animals are unloaded and moved, through the stunning and 
slaughter process, until the last animal on the vehicle is killed. 
Under the law, when an inspector sees an apparent violation, he/she is 
authorized to stop the line on the spot.
    AWI is concerned with USDA's lack of commitment to enforcement. 
Congress must provide enough funding to allow FSIS to assign as many 
inspectors as needed to fully enforce the HMSA at all slaughter plants, 
but then it must exercise its oversight power to make sure that those 
inspectors are in fact tasked only with HMSA enforcement, are 
adequately trained, and that they understand their mission: To enforce 
the law and to ensure the humane and safe treatment of animals killed 
for human consumption, as mandated by the HMSA.
Office of Inspector General (OIG)/Animal Fighting Enforcement
            AWI Request: $87,910,150 (near-level funding)
    In 2007, violations of the AWA's animal fighting provisions, as 
well as the possession of related implements, became felonies. AWI 
supports funding OIG sufficiently to allow it to pursue animal fighting 
cases vigorously. Animal fighting is often associated with other 
violent crimes, thus posing a threat to the welfare of both animals and 
our communities. This level of funding is also needed to enable OIG to 
carry out audits and investigations to improve compliance with the 
Animal Welfare Act, the Humane Methods of Slaughter Act, the Horse 
Protection Act, and the downed animal rules.
APHIS/Animal Care/Horse Protection Act (HPA) Enforcement
            AWI Request: $1 million
    The goal of the Horse Protection Act, passed in 1970, is to end the 
cruel practice of soring, by which unscrupulous owners and/or trainers 
primarily of Tennessee Walking Horses intentionally inflict pain on the 
legs and hooves of horses, through the application of chemical and 
mechanical irritants, to produce an exaggerated gait. In 2008, the 
American Association of Equine Practitioners condemned soring as ``one 
of the most significant welfare issues faced by the equine industry.'' 
Three Girl Scouts bravely documented the brutality of this crime in 
their video ``See it through my eyes.'' (Available at www.youtube.com/
watch?v=kqFeYu1CrjU)
    Throughout its history, however, the law has been openly flouted 
and inadequate funding has hampered enforcement. Through a separate, 
joint statement with the Humane Society of the United States and 
others, we support a request for $1 million for HPA enforcement. This 
sum would allow government oversight at many more horse shows and 
greater investment in technologies (gas chromatography/mass 
spectrometry and thermography) that improve detection of sored horses. 
It should be noted that in fiscal year 2007, the use of GC/MS, which 
detects foreign substances used to sore horses, resulted in positive 
findings in 50 percent of the animals tested.
APHIS/Investigative and Enforcement Services (IES)
            AWI Request: $14,036,350 (near-level funding)
    The Investigative and Enforcement Services division of APHIS is 
essential to meaningful enforcement of the AWA and HPA. Among other 
things, it investigates alleged violations of the AWA and undertakes 
appropriate enforcement action. It handles more animal welfare cases as 
new facilities become licensed and registered and Animal Care conducts 
more inspections. Moreover, IES has seen an increase in its workload 
involving HPA-related activities.
                                 ______
                                 

           Prepared Statement of the Animal Welfare Institute

    Re: Request of $1,978,400 for the Animal Welfare Information Center
    Dear Chairman Kohl and Ranking Member Cochran: Thank you for your 
interest in and efforts on behalf of the Animal Welfare Information 
Center (AWIC) at the National Agricultural Library (NAL). Previous 
efforts to eliminate AWIC have failed as a result of Congress' 
appreciation of the agency's value to the research community and it 
support for its programs.
    The AWIC was established in 1986 in response to a mandate in the 
Improved Standards for Laboratory Animals amendment to the Animal 
Welfare Act (AWA). The Center serves as a clearinghouse, training 
center, and education resource for those involved in the use of animals 
for research, testing, and teaching (as well as other entities covered 
by the AWA), and the need and demand for its services continue to 
outstrip its resources. AWIC provides training and compiles, 
distributes, and posts on its website information resources from the 
scientific literature to assist researchers who use animals. The 
subjects covered include husbandry, handling, and care of animals; 
personnel training; animal behavior; alternatives; improved 
methodologies; environmental enrichment of non-human primates; and pain 
control via anesthesia and analgesia. It also serves as a resource for 
the wider scientific and agricultural communities by providing access 
to material on zoonotic diseases such as avian influenza, transmissible 
spongiform encephalopathies, tuberculosis, and now the H1N1 virus. Its 
activities contribute significantly to science-based decision-making in 
animal care.
    In fiscal year 2008, staff conducted seven sessions of AWIC's 
workshop, ``Meeting the Information Requirements of the Animal Welfare 
Act'' (evaluations of which are overwhelmingly positive, with 
participants indicating a high degree of new information acquisition), 
and presented 22 exhibitions and presentations. The AWIC website 
(http://awic.nal.usda.gov/) is one of the most accessed sites at NAL, 
with an average of over 340,000 page-views each month in fiscal year 
2008, a 12 percent increase over fiscal year 2007. Many improvements to 
the website have been made in the past year, and more information on 
more subjects through more outlets is available.
    Today we write in support of an appropriation of $1,978,400, which 
is urgently needed to fund, in addition to salaries and other expenses, 
AWIC's services and its ongoing efforts to improve their delivery:
  --$50,000--Develop web-based training modules, including interactive 
        modules, in order to provide online delivery of training 
        opportunities.
  --$36,000--Present workshops in cooperation with Animal Care to 
        assist licensees/registrants frequently cited for AWA 
        violations.
  --$20,500--Internet services
  --$13,900--AWIC staff training
  --$200,000--Resume acquisition of veterinary publications that NAL 
        discontinued 5 years ago, and increase the pace of indexing all 
        such publications.
  --$270,000--Overhead to ARS and NAL
  --$50,000--Meet Congressional mandate to digitize more materials; in 
        particular, scanning AWA-related documents going back to 1966
  --$50,000--Restore a grants program that could be used to update 
        Essentials for Animals in Research, as well as certain animal 
        care manuals, and then translate them into Spanish; develop 
        training DVDs, etc. In the past, this program yielded useful 
        products, including the original Essentials for Animal 
        Research: A Primer for Research Personnel (which was also 
        translated into Spanish and is still among the top ten 
        downloaded documents); a video on normal animal behaviors; and 
        a training video on using animals in research. It also provided 
        support for the first World Congress on Animal Use in the Life 
        Sciences, and for the proceedings of conferences for the 
        Scientists Center for Animal Welfare.
  --$10,000--Convene a stakeholders meeting to assess AWIC's services 
        and recommend steps for the future.
  --$5,000--Translate the AWA and its regulations, and other documents, 
        into Spanish.
    The growing numbers of Spanish-speaking animal-care personnel in 
U.S. research facilities and zoos, as well as increasing interest on 
the part of scientific communities in Central and South America, have 
made the availability of Spanish-language materials a priority.
    We hope that the new Administration recognizes how vitally 
important the AWIC's services are to the nation's biomedical research 
enterprise, and how essential it is to have a budget sufficient to 
support these services and technological improvements in their 
delivery. AWIC facilitates compliance with specific requirements of 
federal animal welfare regulations and policies governing animal-
related research. In addition, it provides extensive research services 
for us, thereby greatly benefiting our work on animal research issues. 
We appreciate and look forward to a continued working relationship with 
the Animal Welfare Information Center and hope you will support our 
modest request for appropriations.
                                 ______
                                 

 Prepared Statement of the Colorado River Basin Salinity Control Forum

    The Congress concluded that the Colorado River Basin Salinity 
Control Program (Program) should be implemented in the most cost-
effective way. The Program is funded by EQIP, the U.S. Bureau of 
Reclamation's (BOR) Basinwide Program, and a cost share for both of 
these programs provided by the Basin States. Realizing that 
agricultural on-farm strategies were some of the most cost-effective 
strategies, the Congress authorized a program for the United States 
Department of Agriculture (USDA) through amendment of the Colorado 
River Basin Salinity Control Act (Act) in 1984. With the enactment of 
the Federal Agriculture Improvement and Reform Act of 1996 (FAIRA), the 
Congress directed that the Program should continue to be implemented as 
one of the components of the Environmental Quality Incentives Program 
(EQIP). Since the enactment of the Farm Security and Rural Investment 
Act (FSRIA) in 2002, there have been, for the first time in a number of 
years, opportunities to adequately fund the Program within the EQIP. In 
2008, Congress passed the Food, Conservation, and Energy Act (FCEA). 
The FCEA addresses the cost sharing required from the Basin Funds. In 
so doing, the FCEA named the cost sharing requirement as the Basin 
States Program (BSP). The BSP will provide 30 percent of the total 
amount that will be spent each year by the combined EQIP and BSP 
effort.
    The Program, as set forth in the act, is to benefit Lower Basin 
water users hundreds of miles downstream from salt sources in the Upper 
Basin as the salinity of Colorado River water increases as the water 
flows downstream. There are very significant economic damages caused by 
high salt levels in this water source. Agriculturalists in the Upper 
Basin where the salt must be controlled, however, don't first look to 
downstream water quality standards but look for local benefits. These 
local benefits are in the form of enhanced beneficial use and improved 
crop yields. They submit cost-effective proposals to the State 
Conservationists in Utah, Wyoming and Colorado and offer to cost share 
in the acquisition of new irrigation equipment. It is the act that 
provides that the seven Colorado River Basin States will also cost 
share with the Federal funds for this effort. This has brought together 
a remarkable partnership.
    After longstanding urgings from the States and directives from the 
Congress, the USDA has concluded that this program is different than 
small watershed enhancement efforts common to the EQIP. In the case of 
the Colorado River salinity control effort, the watershed to be 
considered stretches more than 1,200 miles from the river's headwater 
in the Rocky Mountains to the river's terminus in the Gulf of 
California in Mexico and receives water from numerous tributaries. The 
USDA has determined that this effort should receive a special funding 
designation and has appointed a coordinator for this multi-state 
effort.
    In recent fiscal years, the Natural Resources Conservation Service 
(NRCS) has directed that about $19 million of EQIP funds be used for 
the Program. The Colorado River Basin Salinity Control Forum (Forum) 
appreciates the efforts of the NRCS leadership and the support of this 
subcommittee. The plan for water quality control of the Colorado River 
was prepared by the Forum, adopted by the States, and approved by the 
United States Environmental Protection Agency (EPA). The Colorado River 
Basin Salinity Control Advisory Council has taken the position that the 
funding for the salinity control program should not be below $20 
million per year. Over the last 3 fiscal years, for the first time, 
funding almost reached the needed level. State and local cost-sharing 
is triggered by the Federal appropriation. In fiscal year 2009, it is 
anticipated that the States will cost share with about $8 million and 
local agriculture producers will add more than $7 million. Hence, it is 
anticipated that in fiscal year 2009 the State and local contributions 
will be about 45 percent of the total program cost.
    Over the past few years, the NRCS has designated that about 2.5 
percent of the EQIP funds be allocated to the Colorado River salinity 
control program. The Forum believes this is the appropriate future 
level of funding as long as the total EQIP funding nationwide is more 
than $1 billion. Funding above this level assists in offsetting pre-
fiscal year 2003 funding below this level. The Basin States have cost 
sharing dollars available to participate in funding on-farm salinity 
control efforts. The agricultural producers in the Upper Basin are 
waiting for their applications to be considered so that they might 
improve their irrigation equipment and also cost share in the Program.
Overview
    The Program was authorized by the Congress in 1974. The Title I 
portion of the act responded to commitments that the United States 
made, through a Minute of the International Boundary and Water 
Commission, to Mexico specific to the quality of water being delivered 
to Mexico below Imperial Dam. Title II of the act established a program 
to respond to salinity control needs of Colorado River water users in 
the United States and to comply with the mandates of the then newly-
enacted Clean Water Act. This testimony is in support of funding for 
the Title II program.
    After a decade of investigative and implementation efforts, the 
Basin States concluded that the act needed to be amended. The Congress 
agreed and made a major revision to the act in 1984. That revision, 
while keeping the Department of the Interior as lead coordinator for 
Colorado River Basin salinity control efforts, also gave new salinity 
control responsibilities to the USDA. The Congress has charged the 
Administration with implementing the most cost-effective program 
practicable (measured in dollars per ton of salt controlled). It has 
been determined that the agricultural efforts are some of the most 
cost-effective opportunities.
    Since Congressional mandates of more than three decades ago, much 
has been learned about the impact of salts in the Colorado River 
system. The BOR has conducted studies on the economic impact of these 
salts. The BOR recognizes that the damages to United States' water 
users alone are hundreds of millions of dollars per year.
    The Forum is composed of gubernatorial appointees from Arizona, 
California, Colorado, Nevada, New Mexico, Utah and Wyoming. The Forum 
has become the seven-State coordinating body for interfacing with 
Federal agencies and the Congress in support of the implementation of 
the Salinity Control Program. In close cooperation with the EPA and 
pursuant to requirements of the Clean Water Act, every 3 years the 
Forum prepares a formal report evaluating the salinity of the Colorado 
River, its anticipated future salinity, and the program elements 
necessary to keep the salinity concentrations (measured in Total 
Dissolved Solids--TDS) at or below the levels measured in the river 
system in 1972 at Imperial Dam, and below Parker and Hoover Dams.
    In setting water quality standards for the Colorado River system, 
the salinity concentrations at these three locations in 1972 have been 
identified as the numeric criteria. The plan necessary for controlling 
salinity and reducing downstream damages has been captioned the ``Plan 
of Implementation.'' The 2008 Review of water quality standards 
includes an updated Plan of Implementation. In order to eliminate the 
shortfall in salinity control resulting from inadequate Federal funding 
for a number of years from the USDA, the Forum has determined that 
implementation of the Program needs to be accelerated. The level of 
appropriation requested in this testimony is in keeping with the agreed 
upon plan. If adequate funds are not appropriated, significant damages 
from the higher salt concentrations in the water will be more 
widespread in the United States and Mexico.
    Concentrations of salts in the river cause well over $300 million 
in quantified damages and significantly more in unquantified damages in 
the United States and result in poorer quality water being delivered by 
the United States to Mexico. Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector,
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector,
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and
  --increased use of imported water for leaching and cost of 
        desalination and brine disposal for recycled water.
State Cost Sharing and Technical Assistance
    The authorized cost sharing by the Basin States, as provided by 
FAIRA, was at first difficult to implement as attorneys for the USDA 
concluded that the Basin States were authorized to cost share in the 
effort, but the Congress had not given the USDA authority to receive 
the Basin States' funds. After almost a year of exploring every 
possible solution as to how the cost sharing was to occur, the States, 
in agreement with Reclamation, State officials in Utah, Colorado and 
Wyoming and with NRCS State Conservationists in Utah, Colorado and 
Wyoming, agreed upon a program parallel to the salinity control 
activities provided by the EQIP wherein the States' cost sharing funds 
are being contributed and used. We now have several years of experience 
with that program and with the passage of FCEA we now have a clear 
authority for this program that is now known as the BSP.
    The act designates that the Secretary of the Interior provide the 
coordination for the Federal agencies involved in the salinity control 
program. That responsibility has been delegated to the BOR. The BOR 
administers the Basin States cost sharing funds that have been used in 
the Parallel Program. The BOR requested that there be enacted clearer 
authority for the use of these funds.
    With respect to the use of Basin States' cost sharing funds in the 
past, the Basin States felt that it was most essential that a portion 
of the Program be associated with technical assistance (TA) and 
education activities in the field. Without this necessary support, 
there is no advanced planning, proposals are not well prepared, 
assertions in the proposals cannot be verified, implementation of 
contracts cannot be observed, and valuable partnering and education 
efforts cannot occur. Recognizing these values, the BSP designates 40 
percent of the funds available on these needed TA activities made 
possible by contracts with the NRCS.
                                 ______
                                 

      Prepared Statement of the Colorado River Board of California

    This testimony is in support of funding for the U.S. Department of 
Agriculture (USDA) with respect to its on-farm Colorado River Basin 
Salinity Control Program for fiscal year 2010. This program has been 
carried out through the Colorado River Basin Salinity Control Act 
(Public Law 93-320), since it was enacted by Congress in 1974. With the 
enactment of the Federal Agricultural Improvement and Reform Act 
(FAIRA) in 1996 (Public Law 104-127), specific funding for salinity 
control projects in the Colorado River Basin were eliminated from the 
Federal budget and aggregated into the Department of Agriculture's 
Environmental Quality Incentives Program (EQIP) as one of its program 
components. With that action, Congress concluded that the salinity 
control program could be more effectively implemented as one of the 
components of the EQIP.
    The Program, as set forth in the act, benefits both the Upper Basin 
water users through more efficient water management and the Lower Basin 
water users, hundreds of miles downstream from salt sources in the 
Upper Basin, through reduced salinity concentration of Colorado River 
water. California's Colorado River water users are presently suffering 
economic damages in the hundreds of million of dollars per year due to 
the River's salinity.
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River system. 
In this capacity, California along with the other six Colorado River 
Basin states through the Colorado River Basin Salinity Control Forum 
(Forum), the interstate organization responsible for coordinating the 
Basin States' salinity control efforts, established numeric criteria in 
June 1975 for salinity concentrations in the River. These criteria were 
established to lessen the future damages in the Lower Basin States of 
Arizona, California, and Nevada, as well as assist the United States in 
delivering water of adequate quality to Mexico in accordance with 
Minute 242 of the International Boundary and Water Commission.
    The goal of the Colorado River Basin Salinity Control Program is to 
offset the effects of water resources development in the Colorado River 
Basin after 1972 as each state develops its Colorado River Compact 
apportionments. In close cooperation with the U.S. Environmental 
Protection Agency (EPA) and pursuant to requirements of the Clean Water 
Act (Public Law 92-500), every 3 years the Forum prepares a formal 
report analyzing the salinity of the Colorado River, anticipated future 
salinity, and the program elements necessary to keep the salinity 
concentrations (measured in Total Dissolved Solids--TDS) at or below 
the levels measured in the Colorado River system in 1972 at Imperial 
Dam, and below Parker and Hoover Dams. The latest report was prepared 
in 2008 titled: 2008 Review, Water Quality Standards for Salinity, 
Colorado River System (2008 Review). The plan necessary for controlling 
salinity and reducing downstream damages has been captioned the ``Plan 
of Implementation.'' The 2008 Review includes an updated Plan of 
Implementation.
    Concentrations of salts in the River annually cause about $376 
million in quantified damage in the United States (there are 
significant un-quantified damages as well). For example, damages occur 
from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    For every 30 milligram per liter increase in salinity 
concentrations, there are $75 million in additional damages in the 
United States. Although the Program, thus far, has been able to 
implement salinity control measures that comply with the approved plan, 
recent drought years have caused salinity levels to rise in the River. 
Predictions are that this will be the trend for the next several years. 
This places an added urgency for acceleration of the implementation of 
the Program.
    Enactment of the Farm Security and Rural Investment Act of 2002 
provided an opportunity to adequately fund the Salinity Program within 
EQIP. The Colorado River Basin Salinity Control Advisory Council has 
taken the position that the USDA portion of the effort be funded at 2.5 
percent of the EQIP funding but at least $20 million annually. Over the 
past few years, the Natural Resources Conservation Service (NRCS) has 
designated 2.5 percent of EQIP funds be allocated to the Colorado River 
Salinity Control program. The Forum suggests that this is an 
appropriate level of funding as long as it does not drop below $20 
million. The Colorado River Board supports the recommendation of the 
Forum and urges this Subcommittee to support funding for the Colorado 
River Basin Salinity Control Program for 2010 at this level.
    These Federal dollars will be augmented by the State cost sharing 
of 30 percent with an additional 25 percent provided by the 
agricultural producers with whom USDA contracts for implementation of 
salinity control measures. Over the past years, the Colorado River 
Basin Salinity Control program has proven to be a very cost effective 
approach to help mitigate the impacts of increased salinity in the 
Colorado River. Continued Federal funding of this important Basin-wide 
program is essential.
    In addition, the Colorado River Board recognizes that the Federal 
Government has made significant commitments to the Republic of Mexico 
and to the seven Colorado River Basin States with regard to the 
delivery of quality water to Mexico. In order for those commitments to 
continue to be honored, it is essential that in fiscal year 2010, and 
in future fiscal years, that Congress continues to provide funds to 
USDA to allow it to provide needed technical support to agricultural 
producers for addressing salinity control in the Basin.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the 18 million residents of southern California as 
well as throughout the Colorado River Basin. As stated earlier, 
preservation and improvement of the Colorado River water quality 
through an effective salinity control program will avoid the additional 
economic damages to users of Colorado River water in California, 
Arizona, and Nevada.
                                 ______
                                 

   Prepared Statement of the Environmental Service Research Institute

a proposal for national economic recovery--an investment in geospatial 
         information infrastructure building a national gis \1\
Summary
    We respectfully request the Subcommittee's support for a multi-
year, government-wide effort to build a national Geospatial Information 
System (GIS), led by the Secretary of Interior through his role as 
chairman of the Federal Geographic Data Committee under OMB circular A-
16, and the United States Geological Survey. The total cost of the 
program, as detailed below, is expected to be approximately $1.2 
billion spread over 3 years. For fiscal 2010, we urge the Subcommittee 
to provide $40.1 million for the portions of this project within your 
jurisdiction.
---------------------------------------------------------------------------
    \1\ A vision for a National Geographic Information System, by Jack 
Dangermond and Anne Hale Miglarese.
---------------------------------------------------------------------------
Proposal
    The Stimulus Plan recently approved by Congress and the incoming 
Obama Administration is an enormous undertaking to revive the American 
economy. Potentially, it will involve thousands of infrastructure and 
other projects intended to create jobs and restart economic growth 
while producing things of lasting value to American taxpayers. The 
challenge to properly manage and execute this effort will be daunting, 
requiring unprecedented access to data and information at all levels of 
government and the private sector.
    This is the moment for America to build a national Geographic 
Information System (GIS), that is, a unified, up-to-date, publicly-
accessible national digital map, enriched with data from all available 
sources, and supported by GIS technology. This system can be built 
quickly, immediately creating high tech jobs, and will serve as a 
public resource for project planners to support transportation 
infrastructure, alternative energy research, and project siting. It 
will also provide a foundation for monitoring the U.S. economic 
recovery across our communities, allowing activities to get underway as 
soon as possible and leaving a legacy for the future.
    The benefits of a national GIS are universal. The Western 
Governor's Association declared GIS a key component of our national 
critical infrastructure. The National Geospatial Advisory Committee 
(NGAC) adopted a set of transition recommendations that represent a 
broad consensus among the key public and private stakeholders in the 
geospatial technology field and form a principal basis for this 
proposal.
Why a National GIS Should be Completed
    Agencies have been laying the foundation for national GIS for 
years. It falls within umbrella names like Imagery for the Nation, The 
National Map, the National Spatial Data Infrastructure, and the 
pioneering work of by the U.S. Geological Survey, the Department of 
Commerce Census Bureau and the National Oceanic and Atmospheric 
Administration and the Departments of Homeland Security, Agriculture, 
and Interior, among others. It is supported by technical studies from 
the National Geospatial Advisory Committee (NGAC), the National 
Research Council, the Federal Geographic Data Committee (FGDC), and the 
National States Geographic Information Council (NSGIC). Now is the time 
to pull them together.
    GIS technology is uniquely capable of providing unity both to the 
complex new Stimulus Plan as well as other ongoing initiatives. GIS can 
integrate data from agencies across all levels of government, providing 
decision makers a powerful tool to marshal knowledge on items as 
diverse as personnel, finance, economics, infrastructure, and 
resources, all organized within maps or images showing geographic 
basics such as topography, roads, parcels, buildings, utility networks, 
landmarks, soil types, and political and physical land divisions. It 
brings together all key national datasets to support action--which is 
why it is considered a must for emergency response organizations across 
the country. A national GIS will place at our fingertips a 
comprehensive description of our nation's assets, resources and 
operations, all linked geographically. Once completed, it will be a 
priceless national resource and an indispensable tool for planners and 
business alike.
    A national GIS can be built immediately, engaging hundreds of 
private firms. It will speed the start of job-rich infrastructure 
projects. Its biggest impact will be on projects critical to energy 
development, homeland security, defense, climate change, health care 
delivery, telecommunications, transportation, and the environment. 
Without national GIS as a management tool, efforts will be haphazard 
and project planners will be hamstrung. A National GIS must be a 
cornerstone program funded by the Stimulus Plan, a fulcrum to wring the 
greatest result for each dollar spent.
Technical fundamentals of a National GIS
    A GIS system integrates information from many sources and authors 
using standardized protocols so that information can be harmonized and 
incorporated into a consistent framework to support multiple missions 
at all levels of government and private business. It can be built and 
maintained largely using on-going business processes such as The 
National Map initiative of Interior Department's Geological Survey 
(USGS), and it can rely heavily on existing software, hardware, and 
networks, integrated by a lead organization setting standards and 
protocols. Existing modern GIS server technology, together with open 
standards and Services Oriented Architecture (SOA), can provide 
enabling components for a national GIS immediately. This architecture 
maximizes collaboration among government and private entities. 
Guarantees of privacy, confidentiality, protection of proprietary 
financial data, and similar concerns can be built in at the foundation 
and at every level. This national system will result in the following:
  --A series of standard geographic datasets (framework layers 
        described below);
  --A series of workflows that transactionally maintain (update) these 
        datasets;
  --A system for data management responsibility (FGDC governance);
  --A suite of tailored applications;
  --A designated Federal entity to oversee the effort;
  --The necessary technology to support a National GIS system.
Leadership and cost for a National GIS
    Both the National Geospatial Advisory Committee (NGAC) and the 
Department of Interior have developed detailed recommendations on how 
to build a National GIS. A key first step is to implement fully the 
Imagery for the Nation initiative, an intergovernmental plan to create 
a full Federal-level GIS based on nationwide aerial imaging and 
mapping, participation by agencies across the Federal landscape, and 
technological consistency.
    Next, a comprehensive national updating of mapping and 
topographical information is essential to create a complete current 
portrait of America--what is referred to as The National Map. This 
step, along with outreach to incorporate key additional databases 
maintained by State and local governments and the private sector, and 
elements such as Parcels, Transportation, Hydro, Elevation, Critical 
Habitat and Boundaries, will be needed to make the system most 
effective for project decision-makers and infrastructure planners. We 
anticipate the total cost to be approximately $1.2 billion, spread over 
3 years. We can provide detailed cost breakdowns upon request.
    In order to create a national GIS it is necessary to update and 
integrate the many currently-existing individual agency map layers into 
a consistent, integrated whole. USGS would lead this effort and combine 
information into a consistent geospatial foundation. This component 
will, over the next 3 years, require an additional $200 million spread 
over a variety of Federal Departments and Agencies.
    Interagency plans, contracts, and management systems are already in 
place today to implement this initiative. Overall management could be 
provided by the Secretary of the Interior, who chairs the Federal 
Geographic Data Committee, with significant involvement from USDA, DOC 
and DHS/FEMA. In addition, program funding can be leveraged through 
cooperative efforts with partners in State and local government and the 
private sector. The National Geospatial Advisory Committee can provide 
ongoing strategic and recommendations program design and 
implementation.
A National GIS: Key Framework Data and System Technology
    We propose focusing on the development of five key digital layers 
or initiatives as initial steps toward a National GIS: Imagery, Parcel 
Data, Elevation, and Wildlife Habitat, and Recovery.gov.
  --Imagery.--Imagery for the Nation (IFTN) is an intergovernmental 
        initiative to address the Nation's basic business needs for 
        aerial images. Imagery is used for countless applications in 
        all levels of government and the private sector, embraced by 
        the public through online tools such as Google Earth and 
        Microsoft Virtual Earth. Partnerships between levels of 
        government to acquire imagery data have lowered costs, reduced 
        duplication, and allowed greater data standardization. IFTN 
        will maximize the impact of taxpayer investments through a 
        coordinated national acquisition program. The IFTN initiative 
        was originated by the National States Geographic Information 
        Council, been endorsed by the FGDC and the NGAC, and involves a 
        heavy investment from the U.S. Department of Agriculture. The 
        approximate 3-year total cost for this activity is $140 
        million, equally split between the Departments of the Interior 
        and Agriculture. For fiscal year 2010, we urge the subcommittee 
        to provide $23.4 million for Agriculture's component.
  --A GIS-based Recovery.Gov.--President Obama has insisted that 
        Stimulus spending be subject to maximum transparency and 
        accountability, enabling citizens to understand how their funds 
        are being spent and how their communities will be affected. 
        Recovery.gov, the web-based tool being launched by OMB for this 
        purpose, must provide complete, understandable, authoritative 
        and actionable information and analysis to elected and 
        appointed officials, and to ordinary citizens. We propose that 
        Recovery.gov be equipped with interactive maps and geospatial 
        analytic tools that will substantially improve understanding 
        and effectiveness of Recovery Act execution. An interactive map 
        provides an intuitive foundation to understand, integrate, and 
        interrogate this disparate and overwhelming amount of 
        information, and to support better and timelier analysis and 
        decisions. The application of GIS technology would allow public 
        users to access and view Recovery Act spending patterns against 
        established goals and underlying local and national conditions. 
        In this way, it will allow the public to evaluate whether the 
        government is making the right choices on where money is spent, 
        and whether spending is yielding the right results. The 
        approximate 3-year total cost for this activity is $250 million 
        across the Departments of the Interior ($100 million), 
        Agriculture ($50 million), Commerce ($50 million), and Homeland 
        Security ($50 million). For fiscal year 2010, we urge the 
        subcommittee to provide $16.7 million for Agriculture's 
        component.
  --Parcel Data.--Based on the National Academies of Science, National 
        Research Council (NRC) recent report ``National Land Parcel 
        Data: A Vision for the Future,'' the land parcel data layer 
        (also known as cadastral data) is used by governments to make 
        decisions on land development, business activities, regulatory 
        compliance, emergency response, and law enforcement. The NRC 
        report concludes that nationally-integrated land parcel data is 
        necessary, feasible, and affordable. Development of a national 
        land parcel system would also provide an invaluable analytical 
        tool to help manage the mortgage crisis. The NGAC endorsed the 
        recommendations in the NRC report in October. The approximate 
        3-year total cost for this activity is $200 million for the 
        Department of the Interior.
  --Elevation.--Today, high density digital elevation models are 
        produced by a technology called LiDAR and IfSAR, an aerial 
        mapping technology that provides highly accurate mapping of 
        ground elevations. FEMA currently uses LiDAR data for flood 
        mapping whenever such data are available. LiDAR data are also 
        being utilized extensively in natural resource management, and 
        new uses are being demonstrated for emergency response and 
        homeland security purposes. An investment in a national 
        Elevation initiative would produce consistent elevation dataset 
        encompassing the entire country. The approximate 3-year total 
        cost for this activity is $300 million, equally split between 
        the Department of the Interior and the National Oceanic and 
        Atmospheric Administration.
  --Wildlife Corridor/Crucial Habitat.--The pressure for rapid economic 
        development and increased energy production threatens our 
        natural resources. The Western Governors' Association has 
        recommended a Wildlife Corridor and Crucial Habitat Decision 
        Support System. This system will support informed decisions on 
        community growth, alternative energy expansion, biodiversity 
        preservation, and resolving water resource issues. This effort 
        will produce a consistent nationwide wildlife map and GIS 
        management system. The approximate 3-year total cost for this 
        activity is $110 million for the Department of the Interior.
Conclusion
    The key step is to get it done now. America's financial crisis 
today, the worst since the end of World War II, will force difficult 
actions and decisions. Large expenditures of taxpayer money must be 
designed to yield products of long-term benefit to the country. America 
has an information economy, and a robust geospatial infrastructure 
(system of digital maps and tools) is just as vital to its continued 
development as was the physical infrastructure to the industrial 
economy. A National GIS, properly designed and effectively implemented, 
providing public access and using best technologies, will speed 
economic recovery by producing jobs and putting shovels in the ground 
more quickly. It will also leave the country with a public utility, a 
modern geospatial information system, that itself can become a 
foundation for new generations of industries and technologies in the 
future.
                                 ______
                                 

             Prepared Statement of Florida State University

    Florida State University is requesting $5,000,000 in fiscal year 
2010 for the Risk Reduction for Agricultural Crops Program from the 
Cooperative State Research Education and Extension Service/Research and 
Education Activities/Federal Admin. Account.
    Mr. Chairman, I would like to thank you and the Members of the 
Subcommittee for this opportunity to present testimony before this 
Committee. I would like to take a moment to briefly acquaint you with 
Florida State University.
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research, and top-quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities, and have 
a strong commitment to public service. Among the current or former 
faculty are numerous recipients of national and international honors 
including Nobel laureates, Pulitzer Prize winners, and several members 
of the National Academy of Sciences. Our scientists and engineers do 
excellent research, have strong interdisciplinary interests, and often 
work closely with industrial partners in the commercialization of the 
results of their research. Florida State University had over $200 
million this past year in sponsored research awards.
    Florida State University attracts students from every State in the 
Nation and more than 100 foreign countries. The University is committed 
to high admission standards that ensure quality in its student body, 
which currently includes National Merit and National Achievement 
Scholars, Rhodes and Goldwater Scholars, as well as students with 
superior creative talent. Since 2005, FSU students have won more than 
30 nationally competitive scholarships and fellowships including 3 
Rhodes Scholarships, 2 Truman Scholarships, Goldwater, and 18 Fulbright 
Fellowships.
    At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the Nation's top public 
research universities.
    Mr. Chairman, let me summarize our primary interest today. The 
current drought in the southeastern USA, the worst in recent history, 
has had significant impacts on the water resources. It has reemphasized 
the vulnerability of the citizens to climate variability and climate 
extremes. The Federal Government can reduce these risks by using modern 
technologies such as climate models, which can predict future climate, 
and decision support tools to help mitigate some of these uncertainties 
and provide adaptation strategies for the agricultural and 
environmental sectors. The Southeast Climate Consortium (SECC), which 
includes Florida State University, the University of Florida, the 
University of Miami, the University of Georgia, Auburn University, the 
University of Alabama at Huntsville, North Carolina State University 
and Clemson University, has been at the forefront of research and 
extension for the application of climate predictions to risk reduction 
for agriculture and natural resources. With support from USDA and NOAA, 
the SECC has developed new methods to predict the consequences of 
climate variability for agricultural crops, forests, and water 
resources in the southeastern USA. In recent real-life tests, these 
methods have been applied to the problems that farmers raising 
specialty crops face arising from variable rainfall, temperature, and 
wild fires. This program has strong support of extension in all States. 
The new tasks that can be accomplished with the funds requested are to 
develop improved methods to forecast droughts and other extreme climate 
events. These forecasts will be incorporated into decision support 
systems to help agricultural, forest, and natural resource managers to 
reduce risks of losses and environmental damage. The SECC will develop 
new partnerships and methods for incorporating climate forecasts into 
agricultural and water policy decisions and will continue the 
development of a decision support system to provide seasonal and multi-
year projections to water resources managers, especially for 
agricultural water use. Lastly, the SECC will initiate research to 
determine risks and appropriate agricultural responses to longer term 
trends in climate. We are requesting $5,000,000 for this project.
    Mr. Chairman, this project will have a great impact on our country 
and I appreciate your consideration.
                                 ______
                                 

  Prepared Statement of Friends of Agricultural Research--Beltsville, 
                                  Inc.

    Mr. Chairman, and Members of the Subcommittee, thank you for this 
opportunity to present our statement regarding funding for the 
Department of Agriculture's Agricultural Research Service (ARS), and 
especially for the Agency's flagship research facility, the Henry A. 
Wallace Beltsville Agricultural Research Center (BARC), in Maryland. 
Our organization--Friends of Agricultural Research--Beltsville--
promotes the Center's current and long-term agricultural research, 
outreach, and educational missions.
    Before going to the heart of our testimony, please allow us to note 
for the record that during fiscal year 2010 the Beltsville Agricultural 
Research Center will mark a great historical milestone, a milestone to 
celebrate the many great and small accomplishments that BARC research 
has contributed to the Nation's agricultural bounty and to the overall 
march of scientific progress. A full century will have passed since 
1910, the year research in Beltsville began with the assembly of a 
dairy cattle herd for research purposes. The ensuing BARC story is by 
all rights a national story--a story of world-class accomplishment. 
BARC Director Joseph Spence and his staff are planning a series of 
worthy events to commemorate the centennial year.
    The Friends of Agricultural Research-Beltsville (FAR-B) is honored 
to be both a participant in the centennial planning process and a 
contributor to coming events. We would be pleased, Mr. Chairman, to 
answer any questions, to collect any information or citations the 
Subcommittee might wish regarding the centennial or our testimony.
    We now turn to the specifics of our testimony for fiscal year 2010:
Under-Funded Salary Growth.--$1,700,000
    First, we appreciate the restoration of items that were recommended 
for termination in the president's proposed budget for fiscal year 
2009. We would hope that the fiscal year 2010 budget does not identify 
additional program terminations at BARC, and we would hope that there 
will be much needed funding increases. In the fiscal year 2009 budget, 
there was only about half of the needed funding for salary increases 
that went into effect at the beginning of the year. An unfortunate 
result of recent annual increases in Federal salaries--without 
offsetting funding increases--is a negative growth in funding available 
for discretionary spending on research. This situation has continued 
for several years now, and it has had a significant negative impact on 
ARS research.
    FAR-B strongly recommends funding adjustments to offset the almost 
yearly decline of net research funding resulting from under-funded 
salary increases.
Research Initiatives
    While it is unclear at this time if the fiscal year 2010 budget 
includes funding for additional research at BARC, it is important to 
point out that BARC conducts many areas of research and that the 
research is of the highest national priority. BARC research presents 
many compelling opportunities to reward agriculture, the environment, 
and the consumer.
    Food Safety--$500,000.--The Beltsville Area recently established 
the largest single food safety unit in ARS. This research unit will 
focus on a number of issues, including safety of fruits and vegetables 
and food safety issues related to organic agriculture. The ability 
exists at BARC to raise crops and animals under farm conditions, and 
then to process, store, and package the resulting products. A unique 
feature of the food safety research program at BARC is the ability to 
propose and test interventions that greatly reduce pathogen exposure in 
foods, and ultimately in people.
    Genomic Prediction--$1,500,000.--The promise of understanding the 
genome of plants and animals is being fully exploited at Beltsville. In 
groundbreaking research conducted here, scientists have been able to 
quickly and accurately identify dairy bulls that will produce daughters 
capable of producing the most milk. Now a simple test at birth can 
predict at twice the accuracy and at a cost of about $250 the potential 
of a bull to sire high producing cows. Traditionally, bull prediction 
methods have required farmers to obtain production records of 50 to 100 
daughters per bull to determine his genetic merit, at a cost up to 
$50,000 per bull. The potential for developing and expanding this 
breakout technology is huge and at great savings to dairy farmers and 
consumers alike.
    Climate Change--$1,500,000.--BARC has truly unique growth chambers 
that can measure and observe plant growth at every stage from root to 
stem, and under every conceivable atmospheric condition. BARC is using 
these chambers to measure the effects of increasing atmospheric 
CO<INF>2</INF> and changes in environmental temperatures. Studies are 
underway not only on agronomically important crops, but also on 
invasive weeds. Research shows that environmental changes may enhance 
the rapid growth of invasive plants, thus threatening to exacerbate 
already costly problems for American agriculture.
    Obesity Prevention--$500,000.--Obesity negatively impacts the 
health and productivity of the American public. Moreover, obesity comes 
with greatly increased risk of chronic diseases that dramatically add 
to the economic costs of health care. The Beltsville Human Nutrition 
Research Center (BHNRC) is researching barriers and facilitators to 
help the American public follow Federal dietary guidelines. A major 
research emphasis is to prevent obesity through a better understanding 
of why people make the food choices they do. This research also will 
help USDA design and implement more effective food assistance programs.
    Waste Utilization--$1,000,000.--Because it is a working farm and 
has research scientists who have expertise in animal science, 
conversion technologies, and environmental science, BARC is an ideal 
place to study the utilization of farm-generated waste products. Farm-
generated waste products can be environmentally harmful, have little or 
no value to the farmer, and disposal can be costly. Work at Beltsville 
has led to the effective development of technologies and products that 
take waste by-products and convert them to valuable new products. 
Examples include biofuels and plastics made without petroleum.
    Trade Enhancement and Global Competitiveness--$2,000,000.--BARC 
maintains and expands the Federal Government's unique collections of 
materials and organisms that are of utmost importance in identifying 
pests and for ensuring that unwanted pests are prevented from entering 
the United States and producing destruction of animals and plants of 
economic importance. These unique and irreplaceable collections include 
the Germplasm Resource Information Network, and invaluable reference 
collections of insects, nematodes, parasites, and fungi. These world-
class collections attract leading experts from around the world who 
study and use them for their own purposes. The collections are 
absolutely critical to identifying and preventing exotic pest problems 
from entering the United States through imports or by international 
travelers as well as demonstrating that our exports are safe. The 
continued availability of research in this general area of systematics 
is essential for trade, for homeland security, and for the protection 
of American agriculture.
    Chesapeake Bay Improvement--$500,000.--BARC scientists are working 
with farmers on Maryland's Eastern Shore to learn how to improve on-
farm conservation practices that will improve water quality in the 
Chesapeake Bay. The research goals--targeting the entire range of 
Eastern Shore farming practices--include reducing fertilizer and 
pesticide usage. A central goal is to create agronomic and animal waste 
management practices that will reduce fertilizer usage and control 
pollution runoff. Biocontrol studies are searching out ways to minimize 
the need for pesticides. Scientists also are using advanced remote 
sensing and hydrological technologies to protect the health of the 
Chesapeake watershed.
    FAR-B strongly recommends continued funding for these high-value, 
critically needed research initiatives.
Facilities.--$30 Million
    Ongoing facility needs at BARC are a reflection of the age of many 
of the buildings and infrastructure at BARC. As the program and the 
number of employees has decreased over time due to lack of funding, the 
burden of maintaining a large research facility has taken its toll in 
terms of routine and ongoing maintenance. It is essential that 
additional funding be provided for general facility maintenance and 
that plans for facility consolidation move forward.
    With talk of greatly increased expenditures of the Federal 
Government for facilities projects that are ``shovel-ready'', it is our 
hope that the Beltsville Area will be the recipient of a significant 
amount of those funds. Several projects at BARC are fully designed and 
ready for construction to begin almost immediately. These include the 
final phase of construction of the Beltsville Human Nutrition Research 
Center (BHNRC), in which existing building 307 will be gutted and 
rebuilt. This will allow BARC to relocate the entire BHNRC-now spread 
out at three separate locations--to one location and also free up space 
for other needed research activities. The completion of this important 
building renovation is urgently needed at BARC because many of the 
proposed space consolidations, which will greatly reduce the operating 
costs at the Center, are dependent on this project.
    Other projects that are fully designed and ready to go include 
three projects at the U.S. National Arboretum (USNA). The relocation of 
the USNA entrances from R Street and New York Avenue to Bladensburg 
Road is a major project that needs to move forward and will greatly 
improve public access while relieving traffic congestion on New York 
Avenue. Finally, the trash abatement project for the cleanup of Hickey 
Run needs to move forward. Rain runoff produces a great volume of trash 
as the result of inadequate storm water control by the District of 
Columbia. This trash accumulates on the property of the USNA. This 
project is urgently needed to prevent trash from washing onto the 
arboretum grounds, which now occurs with almost any significant 
rainfall. This project is also critically importance environmentally 
and for helping clean up the Anacostia River. The project has been 
completely designed and, while funds have been appropriated to the D.C. 
government and to ARS for this project, funding is not adequate to 
start construction on this project.
    FAR-B strongly recommends funding to complete these long delayed, 
urgently needed facility improvements.
    Mr. Chairman, that concludes our statement. We again thank you for 
the opportunity to present our testimony and for your interest and 
support.
                                 ______
                                 

        Prepared Statement of the Izaak Walton League of America

    The Izaak Walton League of America appreciates the opportunity to 
submit testimony concerning appropriations for fiscal year 2010 for 
various agencies and programs under the jurisdiction of the 
Subcommittee. The League is a national, nonprofit organization founded 
in 1922. We have more than 36,000 members and nearly 300 chapters and 
state divisions nationwide. Our members are committed to advancing 
common sense policies that safeguard wildlife and habitat, support 
community-based conservation, and address pressing environmental 
issues. The League has been a partner with farmers and a participant in 
forming agriculture policy since the 1930s. The following pertains to 
conservation programs administered by the U.S. Department of 
Agriculture.
    The Food, Conservation, and Energy Act (FCEA) of 2008 was enacted 
with a prominent commitment to increased mandatory conservation 
spending. We urge the Subcommittee to maintain the mandatory spending 
levels for conservation programs as provided in the act. The fiscal 
year 2010 budget is important to carrying out the changes in the 2008 
bill and implementing new initiatives. These conservation programs are 
critical to working with farmers, ranchers and forest landowners to 
undertake or improve conservation practices. These programs benefit 
producers through improved soil quality and productivity of their land, 
and the broader community through cleaner air and water and healthy 
habitat.
    Previous Farm Bills have included increased conservation 
authorizations that the League supported and fought hard to achieve. 
That pattern was certainly repeated with the new law, which contains a 
$25 billion investment in conservation programs overall. Although the 
authorization is important, the country will only realize the true 
benefit of conservation policies if appropriations match the authorized 
levels. As documented in our research on prior Farm Bill funding: \1\
---------------------------------------------------------------------------
    \1\ Redlin, Gupta, and Wiegand. 2007. The 2007 Farm Bill: 
Stewardship, Prosperity, and Fairness. Izaak Walton League of America. 
http://www.iwla.org/publications/agriculture/Farm_Bill_2007_WEB.pdf.

    ``Congress has also cut the funding committed to conservation 
programs in the previous [2002] Farm Bill. More than $5 billion 
promised to conservation has been withheld. This despite the fact that 
as many as three-fourths of the eligible farmers and ranchers seeking 
conservation programs are turned away due to lack of funds. No similar 
---------------------------------------------------------------------------
caps have been applied to the unlimited crop payment programs.''

    We are disappointed that the President's budget continues the 
unfortunate pattern of cutting conservation programs below mandatory 
levels established in the Farm Bill. The League is especially concerned 
about proposed cuts to the Wetland Reserve Program and Wildlife Habitat 
Incentives Program. Demand for participation in both far outstrips 
available funding, and this proposal will only exacerbate that problem 
as well as undermine conservation on-the-ground. It is critical that 
authorized levels for vital programs are met and maintained in fiscal 
year 2010 and all subsequent budget cycles for the life of the 
legislation. Specifically, the League believes achieving the following 
mandatory levels is essential:
  --Meeting the Wetland Reserve Program's full 3.041 million acre, $1.2 
        billion allocation over the life of FCEA will require $473 
        million in fiscal year 2010 according to the Congressional 
        Budget Office (CBO) March 2009 baseline. The President has 
        proposed only $391 million and reduced the program acreage by 
        139,000 acres.
  --Adding 1.22 million acres to the Grassland Reserve Program by 2012, 
        scored at $300 million for the life of FCEA, with a CBO 
        baseline of $78 million for fiscal year 2010. The 
        Administration believes $54 million will fully fund the Farm 
        Bill authorization for fiscal year 2010.
  --Maintaining the 32 million acre enrollment in the Conservation 
        Reserve Program, scored at $9.8 billion over the life of FCEA, 
        and $1.944 billion for fiscal year 2010. The Administration's 
        budget proposes full funding for CRP.
  --Achieving $85 million annually for the Wildlife Habitat Incentives 
        Program. The budget proposed by the President cuts the program 
        by more than half in fiscal year 2010 to $42 million.
    Additionally, the League worked to expand the Conservation 
Stewardship Program. Accompanying the positive revisions to better 
focus the program on higher environmental standards was an increase in 
authorized funding to support enrollment of approximately 13 million 
acres per year. The March 2009 CBO baseline places fiscal year 2010 
mandatory funding at $752 million. The Office of Management and Budget 
(OMB) has scored funding full authorization at $681 million. With the 
numerous environmental challenges facing U.S. agriculture, including 
climate change, soil quality deficiencies, declining pollinator health, 
and huge water quality and quantity issues, we strongly urge the 
Subcommittee to provide the full baseline amount in its bill.
    Furthermore, effective implementation of Farm Bill conservation 
programs depends upon adequate technical resources to work with 
landowners in addressing their unique environmental concerns. Although 
conservation programs are available, under-investment in technical 
assistance limits agency support to assist farmers and ranchers in 
selecting and optimizing appropriate programs for their operations. 
Resource concerns and conservation practices vary throughout the 
country, and the technical assistance provided to program participants 
is necessary to address specific environmental concerns. The technical 
expertise of the Natural Resource Conservation Service and partners 
that assist in the delivery of programs and technical assistance 
directly to landowners is necessary for the adoption and maintenance of 
conservation practices. We request that the subcommittee support the 
mandatory levels of conservation program funding as provided in FCEA to 
enable robust technical resources to implement those programs 
successfully.
    Finally, the Sustainable Agriculture Research and Education (SARE) 
program is a very successful competitive grant program that funds 
farmer-driven research, education, and extension initiatives. SARE 
projects, and its unique regional approach, have a long record of 
building economic prosperity, innovation and opportunity in rural 
America--all integrally aligned with natural resource conservation.
    Demand for SARE is growing, however, most years it has been able to 
fund less than 10 percent of the proposals submitted. Forty million 
dollars are authorized for SARE's research and education program and 
$20 million for its extension education and professional development 
program. However, appropriations for both programs have never topped 
$19 million. The League requests a minimum fiscal year 2010 
appropriation for SARE of $30 million, with $25 million allocated to 
research and education and $5 million to extension and professional 
development.
    We appreciate the opportunity to testify in strong support of 
fully-funding agricultural conservation programs.
                                 ______
                                 

        Prepared Statement of Goodwill Industries International

    Dear Chair and Ranking Member: On Behalf of Goodwill Industries 
International (Goodwill) and its 160 local Goodwill agencies in the 
United States, I wanted to thank you for your inclusion of funding in 
the American Recovery and Reinvestment Act targeted to low income 
workers and people with disabilities struggling in the midst of the 
recession.
    I am writing today to urge you to provide adequate funding in 
fiscal year 2010 for a critical program that supports local Goodwill 
agencies' efforts to help your constituents through the dignity of 
work. Especially during such trying economic times, Goodwill 
understands the difficult challenge that appropriators face as they 
struggle to stretch limited resources to support an ever-increasing 
list of national priorities. We stand committed to working with you 
toward implementing solutions that will restore economic stability by 
empowering disadvantaged populations
    While our agencies utilize a variety of Federal funding streams, 
AgrAbility is one of our highest priority programs.
    Goodwill has a long history in meeting the employment and training 
needs of people with disabilities who live and work in rural 
communities, including agriculture workers who have suffered disabling 
injuries. Agriculture consistently ranks as one of the nation's most 
dangerous occupations. Each year, 90,000 agricultural workers sustain 
disabling injuries in work-related accidents.
    AgrAbility is a small $5 million program that consists of one 
National AgrAbility Project and more than 20 State/Regional AgrAbility 
Projects. These projects must involve a collaborative partnership 
between a land-grant university and one or more nonprofit 
organizations.
    State AgrAbility projects provide free on-farm consultations during 
which they assess abilities and needs, make recommendations for farm 
site or task modifications and assistive technology, then develop an 
action plan that allows program participants to continue to lead 
successful careers in production agriculture and farming or in another 
chosen field. In addition, the National AgrAbility Project (lead by 
Purdue University in partnership with Goodwill Industries 
International) provides technical assistance and professional training 
for State AgrAbility Projects, produces resource materials, and 
disseminates information related to the project. This project is the 
cornerstone of Goodwill's efforts with rural communities.
    GOODWILL urges Congress to provide adequate funding for full 
implementation of AgrAbility Programs in all 50 States thereby ensuring 
that assistance is available in all 50 States to farmers, ranchers, 
other agricultural workers, and family members impacted by disability.
    Thanks for considering this request. Should you have questions, 
please feel free to contact Seth Turner, Director of Government Affairs 
and Public Policy, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="85f6e0f1edabf1f0f7ebe0f7c5e2eaeae1f2ece9e9abeaf7e2">[email&#160;protected]</a> or (240) 333-5508.
                                 ______
                                 

          Prepared Statement of the Minor Crop Farmer Alliance

    The Minor Crop Farmer Alliance is an alliance of national and 
regional organizations and individuals representing growers, shippers, 
packers, handlers, and processors of various agricultural commodities, 
including food, fiber, nursery, and horticultural products, and 
organizations involved with public health pesticides. Our members are 
extremely interested in the development of pest management tools and 
techniques that are environmentally sound. While our commodities are 
often called ``minor crops,'' they are vitally important components in 
the diets (fruits and vegetables) of all Americans and they contribute 
to safe and aesthetic surroundings for our homes, schools and places of 
business (turf, ornamental and nursery crops). Specialty crop 
agriculture in the United States is valued at more than $55 billion 
annually and accounts for more than 20 percent of the value of 
agricultural products grown in this country.
    We request that $8.4 million be provided to the National 
Agricultural Statistical Service (NASS) in fiscal year 2010 
specifically for the continuation of agricultural chemical use surveys 
for fruits, vegetables, floriculture and nursery crops.
    The U.S. Department of Agriculture's (USDA) National Agricultural 
Statistics Service (NASS) discontinued its Chemical Use Surveys for 
these commodities and has stated that it needs $8.4 million in funding 
to continue the survey program.
    The chemical usage surveys are the only source of publicly 
available data on agricultural pesticide and fertilizer use. The 
surveys are used by the USDA Office of Pest Management Policy and the 
U.S. Environmental Protection Agency (EPA) to conduct risk assessments 
and make pesticide policy decisions. Farmers, commodity organizations 
and the public utilize the data to monitor pesticide and fertilizer use 
and it is essential data for use in public policy discussions and 
participation in rulemaking.
    Proprietary data are available to verify NASS data in EPA risk 
assessments, but it cannot be used as the sole source of data because 
EPA cannot share the data with the public without violating the terms 
of its proprietary purchasing agreement. This proprietary data is not 
always gathered using appropriate sampling schemes, leaving gaps in the 
information even for specialty crops that are widely grown.
    EPA relies on the NASS surveys to conduct pesticide risk 
assessments. Without the NASS survey data, EPA plans to default to 100 
percent crop treated in future risk assessments. This could result in 
the cancellation of important crop protection tools for farmers. EPA 
has contacted USDA to communicate its strong support for the survey 
program.
    The Congress included language in the fiscal year 2009 Omnibus Bill 
that provided $2,450,000 to carry out the ``Fruit Chemical Use Data 
Study.'' While we welcome these additional funds for NASS, we hope that 
in fiscal year 2010 the Congress will provide the full amount needed to 
continue all of these critical surveys for fruits, vegetables, nursery 
and floricultural crops.
    Your consideration of this request is appreciated.

American Farm Bureau Federation
American Nursery & Landscape Association
California Specialty Crops Council
California Almond Board
California Avocado Commission
California Citrus Quality Council
California Fig Advisory Board
California Grape & Tree Fruit League
California Processed Onion and Garlic Research Committee
California Dried Plum Board
California Strawberry Commission
California Tree Fruit Agreement
Cherry Marketing Institute, Inc.
Cranberry Institute
Del Monte Foods
Florida Citrus Mutual
Florida Fruit & Vegetable Association
Florida Tomato Exchange
Food Products Association
Idaho Potato Commission
Michigan State Horticultural Society
Michigan Vegetable Council Inc.
National Council of Farmer Cooperatives
National Onion Association
National Potato Council
North Central Washington Fieldman's Association
Northwest Horticultural Council
Produce Marketing Association
Society of American Florists
United Fresh Produce Association
USA Dry Pea and Lentil Council, Inc.
U.S. Apple Association
U.S. Hop Industry Plant Protection Committee
Washington Association of Wine and Grape Growers
Washington Hops Commission
Washington State Potato Commission
Western Growers Association
Western Pistachio Association
Wild Blueberry Commission of Maine
                                 ______
                                 

Prepared Statement of the National Coalition for Food and Agricultural 
                                Research

    Dear Chairman Kohl and Ranking Member Brownback: The National 
Coalition for Food and Agricultural Research (National C-FAR) urges the 
Subcommittee and Committee to increase Federal investment in food and 
agricultural research, extension and education (RE&E) as a critical 
component of Federal appropriations for fiscal year 2010, including at 
least $300 million for the new Agriculture and Food Research Initiative 
(AFRI).
    President Obama has acknowledged the need for a major investment in 
research, saying at the annual meeting of the National Academy of 
Sciences that the United States will ``devote more than 3 percent of 
our GDP to research and development.'' We support President Obama's 
goal, and advise you that food and agriculture research must be a part 
of his vision.
    The potential payoff is enormous for both Americans' health and the 
nation's economy. Federal investments in food and agricultural RE&E 
have brought profitability to production agriculture, found solutions 
for difficult conservation and environmental challenges, addressed the 
many issues of food safety, and provided the baseline for our whole 
knowledge of human nutrition.
    Now, RE&E must seek solutions for feeding growing populations, 
dealing with climate change, developing sustainable fuel production, 
maintaining ecosystem health, and assuring all people food security and 
proper nutrition. Now is the time to grow investment in our nation's 
agricultural research enterprise and build on the successes of the past 
by increasing funding for a variety of food and agricultural research, 
extension and education efforts, and in particular the new National 
Institute of Food and Agriculture (NIFA) and AFRI.
    National C-FAR urges the Subcommittee to increase funding for AFRI 
to at least $300 million in fiscal year 2010 with a goal of funding 
AFRI at the fully authorized level as soon as practicable, and by 
fiscal year 2013 at the latest. AFRI, the successor to USDA's National 
Research Initiative (NRI) and the Initiative for Future Agriculture and 
Food Systems (IFAFS), is an integrated approach that takes research and 
innovation beyond the development phase, into implementation through 
contemporary education and extension programs. National C-FAR opposes 
taking funds from other RE&E programs in USDA to fund AFRI.
    NIFA, AFRI and other recent reforms offer a new opportunity to 
transform USDA's RE&E mission. AFRI will support research on key 
problems of national and regional importance in biological, 
environmental, physical, and social sciences relevant to agriculture, 
food, and the environment on a peer-reviewed, competitive basis. 
Additionally, AFRI should enable USDA to continue leveraging a portion 
of its RE&E funds fostering the development of partnerships with other 
Federal agencies that advance agricultural science.
    National C-FAR also supports the administration's fiscal year 2010 
requests for other parts of USDA's RE&E mission, including: the 
remainder of the Cooperative State, Research, Education and Extension 
Service (CSREES) beyond AFRI, the Agricultural Research Service (ARS), 
Economic Research Service (ERS) and Forest Service (FS).
    The Research Title of the Farm Bill represents the nation's 
signature Federal investment in the future of the food and agricultural 
sector. Other Farm Bill titles depend heavily upon the Research Title 
for tools to help achieve their stated objectives. Public investment in 
food and agricultural research, extension and education today and in 
the future must simultaneously satisfy needs for food quality and 
quantity, resource preservation, producer profitability and social 
acceptability.
    Tools provided through RE&E are needed to help achieve safer, more 
nutritious, convenient and affordable foods delivered to sustain a well 
nourished, healthy population; more efficient and environmentally 
friendly food, fiber and forest production; improved water quality, 
land conservation, wildlife and other environmental conditions; less 
dependence on non-renewable sources of energy; expanded global markets 
and improved balance of trade; and more jobs and sustainable rural 
economic development. Societal demands and expectations placed upon the 
food and agricultural system are ever-changing and growing.
    Multiple examples, such as those highlighted below, serve to 
illustrate current and future needs that arguably merit enhanced public 
investment in research, extension and education so that the food and 
agricultural system can respond to these challenges on a sustainable 
basis:
  --Strengthened bio-security is a pressing national priority. There is 
        a compelling need for improved biosecurity and bio-safety tools 
        and policies to protect against bio-terrorism and dreaded 
        problems such as foot-and-mouth and ``mad cow'' diseases and 
        other exotic plant and animal pests, and protection of range 
        lands from invasive species.
  --Food-linked health costs are high. Some $100 billion of annual U.S. 
        health costs are linked to poor diets, obesity, food borne 
        pathogens and allergens. Opportunities exist to create 
        healthier diets through improvements in the food supply and in 
        consumer knowledge and implementation of dietary guidance.
  --Research, extension and education are key to providing to solutions 
        to environment and conservation challenges related to global 
        warming, limited water resources, enhanced wildlife habitat, 
        and competing demands for land and other agricultural 
        resources. Rural water conservation and development of drought-
        resistant crops have evolved from a good idea to a necessity.
  --It is a highly competitive world for food and agriculture and rural 
        America. There was considerable debate during the last Farm 
        Bill reauthorization about how expanded food and agricultural 
        research, extension and education could enhance farm income and 
        rural revitalization by improving competitiveness and value-
        added opportunities.
  --Energy costs are escalating, dependence on petroleum imports is 
        growing and concerns about greenhouse gases are rising. 
        Research, extension and education can enhance agriculture's 
        ability to provide renewable sources of energy and cleaner 
        burning fuels, sequester carbon, and provide other 
        environmental benefits to help address these challenges, and 
        indeed generate value-added income for producers and stimulate 
        rural economic development.
  --Population and income growth are expanding the world demand for 
        food and natural fiber and improved diets. World food demand is 
        projected to double in 25 years. Most of this growth will occur 
        in the developing nations where yields are low, land is scarce, 
        and diets are inadequate. Without a vigorous response, demand 
        will only be met at a great global ecological cost.
  --Regardless of one's views about biotechnology and genetic 
        resources, an effective publicly funded research role is needed 
        for oversight and to ensure public benefits.
    Publicly financed RE&E is a necessary complement to private sector 
research, focusing in areas where the private sector does not have an 
incentive to invest, when (1) the pay-off is over a long term; (2) the 
potential market is more speculative; (3) the effort is during the pre-
technology stage; and (4) where the benefits are widely diffused. 
Public research, extension and education help provide oversight and 
measure long-term progress. Public research, extension and education 
also act as a means to detect and resolve problems in an early stage, 
thus saving American taxpayer dollars in remedial and corrective 
actions.
    The USDA, ERS September 2007 Economic Brief titled, ``Economic 
Returns of Public Agricultural Research,'' shows the average social 
rate of return to public investment in agricultural research is nearly 
50 percent. However, Federal funding for food and agricultural 
research, extension and education has been essentially flat for over 20 
years, while support for other Federal research has increased 
substantially. Public funding of agricultural research in the rest of 
the world during the same time period has outpaced investment in the 
United States, leading to competitive concerns. There also are vast 
areas where the public will trust only U.S. Federal investments in 
research--a case in point is human nutrition research.
    By any measure, Federal funding for food and agricultural research, 
extension and education--which has declined about one-fourth since 
fiscal year 2003--has failed to keep pace with identified priority 
needs. Allowing this decline to continue is likely to irrevocably harm 
our responses to human needs and competitive forces. It is imperative 
to lay the groundwork now to respond to the many challenges and 
promising opportunities ahead through Federal policies and programs 
needed to promote the long-term health and vitality of food and 
agriculture for the benefit of both consumers and producers. Stronger 
public investment in food and agricultural RE&E is essential in 
producing research outcomes needed to help deliver beneficial and 
timely solutions on a sustainable basis.
    National C-FAR serves as a forum and a unified voice in support of 
sustaining and increasing public investment at the national level in 
food and agricultural research, extension and education. National C-FAR 
is a nonprofit, nonpartisan, consensus-based and customer-led coalition 
established in 2001 that brings food, agriculture, nutrition, 
conservation and natural resource organizations together with the food 
and agriculture research and extension community.
    We agree with President Obama that, ``Science is more essential for 
our prosperity, our security, our health, our environment, and our 
quality of life than it has ever been.''
                                 ______
                                 

  Prepared Statement of National Coalition for Food and Agricultural 
                                Research

    Dear Chairman Kohl and Ranking Member Brownback: The undersigned 
organizations and individuals urge the Subcommittee and Committee to 
increase funding for the new Agriculture and Food Research Initiative 
(AFRI) to at least $300 million in fiscal year 2010 (exclusive of any 
funding identified for the former Section 406 programs) as a first step 
toward funding AFRI at the fully authorized level of $700 million 
annually. AFRI, the successor to USDA's National Research Initiative 
(NRI) and the Initiative for Future Agriculture and Food Systems 
(IFAFS), is an integrated approach that takes research and innovation 
beyond the development phase, into implementation through contemporary 
education and extension programs.
    The Food, Conservation, and Energy Act of 2008 established the 
Agriculture and Food Research Initiative (AFRI), a new competitive 
grants program authorized at $700 million annually, for research, 
extension, and education in support of our Nation's food and 
agricultural systems within USDA's National Institute of Food and 
Agriculture.
    We support full funding of AFRI at the authorized level of $700 
million annually, and urge the Subcommittee to fully fund AFRI as soon 
as practicable, by fiscal year 2013 at the latest. This is consistent 
with President Obama's commitment to return our Nation to sound 
science. With the Nation and world seeking solutions for climate 
change, sustainable fuel production, ecosystem health, food security 
and nutrition challenges, now is the time to grow investment in our 
Nation's food and agricultural research.
    Thank you for your leadership action in investing in America's food 
and agriculture system.

American Dietetic Association
American Feed Industry Association
American Malting Barley Association
American Phytopathological Society
American Society for Nutrition
American Soybean Association
American Veterinary Medical Association (AVMA)
Aquatic Plant Management Society (APMS)
Association of American Veterinary Medical Colleges
Biotechnology Industry Organization
Council for Agricultural Science and Technology
Donald Danforth Plant Science Center
Institute of Food Technologists
National Association of Wheat Growers
National Barley Growers Association
National Barley Improvement Committee
National Coalition for Food and Agricultural Research
National Farmers Union
National Oat Improvement Committee
National Sunflower Association
National Wheat Improvement Committee
North American Millers' Association
North Central Weed Science Society (NCWSS)
Northeastern Weed Science Society (NEWSS)
Southern Weed Science Society (SWSS)
Dr. Steven G. Pueppke, National Agricultural Biotechnology Council
The Council on Food, Agricultural and Resource Economics (C-FARE)
The Peanut Foundation
Professor Robert L. Thompson, Gardner Endowed Chair in Agricultural 
Policy Agricultural & Consumer Economics Dept., University of Illinois
U.S. Canola Association
USA Dry Pea & Lentil Council
Weed Science Society of America (WSSA)
Western Society of Weed Science (WSWS)
                                 ______
                                 

Prepared Statement of the National Commodity Supplemental Food Program 
                              Association

    Mr. Chairman and Subcommittee Members, thank you for this 
opportunity to present information regarding the USDA/FNS Commodity 
Supplemental Food Program (CSFP).
    The National Commodity Supplemental Food Program Association 
(NCSFPA) requests the Senate Agriculture Appropriations Subcommittee 
fund CSFP for fiscal year 2010 at $203 million and include language 
directing the Department to utilize all available resources to 
supplement the CSFP food package and meet the rising demand for 
nutritional assistance among our vulnerable senior population.
    This first effort at national food assistance began in 1969 with 
monthly packages designed to supplement protein, calcium, iron, 
vitamins A and C for low-income mothers and children (preceding WIC); 
nutrients shown to be lacking in the diets of low-income households. 
Low-income seniors added in 1983 now comprise 93 percent of all CSFP 
participants.
    CSFP is a unique program that brings together federal and state 
agencies, along with public and private entities, The USDA purchases 
specific nutrient-rich foods at wholesale prices. State agencies 
providing oversight, contract with community and faith based 
organizations to warehouse and distribute food, certify eligibility and 
educate participants. The local organizations build broad collaboration 
among non-profits, health units, and area agencies on aging for simple, 
fast access to the supplemental foods (canned fruits and vegetables, 
juices, meats, fish, peanut butter, cereals, grain products, cheese and 
dairy products from American farmers) and nutrition education to 
improve their health and quality of life. This partnership reaches even 
homebound seniors in both rural and urban settings with vital nutrition 
and remains an important ``market'' for commodities supported under 
various farm programs.
    In fiscal year 2008, the CSFP provided services through 150 non-
profit community and faith-based organizations at 1,800 sites located 
in 32 States, the District of Columbia, and two Indian Tribal 
Organizations (Red Lake, Minnesota and Oglala Sioux, South Dakota). On 
behalf of those organizations NCSFPA would like to express our 
gratitude for the increased fiscal year 2009 funding. However, we are 
disappointed that the increase in funding did not result in more 
seniors receiving food.
    CSFP's 40 years of service is a testimony to the power of community 
partnerships of faith-based organizations, farmers, private industry 
and government agencies. The CSFP offers a unique combination of 
advantages unparalleled by any other food assistance program:
  --The CSFP specifically targets our Nation's most nutritionally 
        vulnerable populations: young children and low-income seniors--
        many of whom will not qualify for other nutrition assistance 
        programs.
  --The CSFP provides a monthly selection of food packages tailored to 
        specific nutritional needs. Eligible participants are 
        guaranteed [by law] a certain level of nutritional assistance, 
        nutrition education, and food preparation guidance each month.
  --The CSFP purchases foods at wholesale prices, directly supporting 
        American farmers. The average food package cost is estimated at 
        $23.01 and the retail value is $50.00-$60.00.
  --The CSFP involves the entire community. Thousands of volunteers and 
        private companies donate money, equipment, and most importantly 
        time and effort to deliver food to needy and homebound seniors. 
        These volunteers not only bring food but companionship and 
        other assistance to seniors who might have limited support 
        systems. (See Attachment 1)
    In a recent CSFP survey, more than half of seniors living alone 
reported an income of less than $750 per month. One-half of respondents 
from two-person households reported an income under $1,000 per month. 
25 percent were enrolled in the Supplemental Nutrition Assistance 
Program (SNAP) and 50 percent said they ran out of food during the 
month. 70 percent of senior respondents said they choose between 
medicine and food.
    The Senate Agriculture Appropriations Subcommittee has consistently 
supported CSFP, acknowledging it as a cost-effective way of providing 
nutritious supplemental foods. Last year this subcommittee and all of 
Congress provided funding for CSFP in direct opposition to its proposed 
elimination. Your support is again needed to provide adequate resources 
for the 473,473 mothers, children and seniors current participants; 
37,500 low-income participants waiting in six new States, and 110,374 
seniors waiting in current states for this vital nutrition program.
    CSFP and other nutrition programs such as SNAP, are only 
supplemental programs by design. Together they cover a shortfall that 
many seniors face each month. These programs must have support to meet 
the increasing need as part of the ``safety net''.
    ``The Managers fully support continued operation of this program 
and recognize the need for a substantial expansion of CSFP. the 
Managers encourage the Secretary to approve all remaining states for 
expansion and to expand caseload in all participating states.'' Joint 
Statement of Managers, H.R. 2419, the Food, Conservation and Energy Act 
of 2008.
    ``CSFP has charms worth considering in designing human service 
programs the program's trademarks were its simplicity and accessibility 
. . . CSFP in particular represents a guaranteed source of high quality 
food, delivered in a balanced package.'' The Role of CSFP in 
Nutritional Assistance to Mothers, Infants, Children and Seniors. The 
Urban Institute, August 2008.
    The National Commodity Supplemental Food Program Association 
requests the following:
    To continue serving the 473,473 needy seniors (93 percent of 
participants), women, infants and children (7 percent of participants) 
currently enrolled in CSFP--$164 Million.
    To meet USDA's commodity procurement expenses--$0.8 Million.
    To respond to the needs of 37,500 eligible seniors in the 6 States 
with USDA approved plans: Arkansas (5,000), Delaware (2,500), Oklahoma 
(5,000), New Jersey (5,000), Utah (3,000) and Georgia (10,000)--$9.3 
Million.
    To meet the increased demand/need of an additional 110,374 at risk 
seniors in 32 States per requests turned into USDA by current CSF 
programs nationwide--$28.6 Million.
    Appropriation needed to maximize this program's effectiveness in 
serving 621,347 seniors, women, infants and young children challenged 
by hunger and malnutrition in our Nation--$203 Million.
    A 1997 report by the National Policy and Resource Center on 
Nutrition and Aging at Florida International University, Miami--Elder 
Insecurities: Poverty, Hunger, and Malnutrition indicated that 
malnourished elderly patients experience 2 to 20 times more medical 
complications, have up to 100 percent longer hospital stays, and incur 
hospital costs $2,000 to $10,000 higher per stay. Proper nutrition 
promotes health, treats chronic disease, decreases hospital length of 
stay and saves health care dollars. America is aging. CSFP must be an 
integral part of Senior Nutrition Policy and plans to support the 
productivity, health, independence and quality of life for America's 
seniors, many of whom now need to continue working at least part-time 
beyond retirement age to afford basics.
    The National CSFP Association recommends the following:
  --Support and expand the program in those states that have a need and 
        interest in the CSFP, including the 6 States that already have 
        USDA-approved plans to operate CSFP (Arkansas, Delaware, New 
        Jersey, Oklahoma, Utah and Georgia) and states demonstrating a 
        willingness to expand current CSFP services to meet rising 
        demand.
  -- Provide language encouraging the U.S. Department of Agriculture to 
        utilize all available resources to meet the rising demand for 
        this nutritional support.
  --The CSFP is committed grassroots operators and dedicated volunteers 
        with a mission to provide quality nutrition assistance 
        economically, efficiently, and responsibly always keeping the 
        needs and dignity of our participants first. We commend the 
        Food Distribution Division of Food and Nutrition Service of the 
        Department of Agriculture for their continued innovations to 
        strengthen the quality of the food package and streamline 
        administration.

                                                          FISCAL YEAR 2008 NATIONAL CSFP ASSOCIATION ADMINISTRATIVE EXPENSE/VALUE SURVEY
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                      Goods &                                                       Extra Goods
                                                                       USDA       Not Reimbursed       CSFP          Services        Volunteer     Annual Total    Percent Paid     donated to
                            Programs                                Reimbursed     by USDA Cash    Expenditures     donated to      Labor Hours    Program Value      by USDA          CSFP
                                                                       Cash                            Cash        agency Value        Value                                       participants
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
New Hampshire...................................................        $461,361  ..............        $461,361  ..............         $61,121        $522,482              88         $16,097
New York........................................................       1,947,032      $2,500,000       4,447,032         $20,700           3,984       4,471,716              44           6,500
Vermont FB......................................................         233,132  ..............         233,132  ..............  ..............         233,132             100  ..............
Washington, DC..................................................         434,945       1,600,000       2,034,945         800,000         173,632       3,008,577              14  ..............
Pennsylvania....................................................         912,209          18,637         930,846          32,169          48,259       1,011,274              90         100,000
Kentucky........................................................         980,911          64,645       1,045,556  ..............          24,577       1,070,133              92         624,093
Mississippi.....................................................         437,969  ..............         437,969          30,520         199,906         668,395              66           7,104
North Carolina..................................................          75,126  ..............          75,126  ..............  ..............          75,126             100  ..............
South Carolina..................................................         232,192  ..............         232,192  ..............           1,342         233,534              99          22,500
Tennessee \1\...................................................         840,812  ..............         840,812  ..............  ..............         840,812             100  ..............
Illinois........................................................         869,405  ..............         869,405  ..............          25,643         895,048              97  ..............
Indiana.........................................................         269,732          25,000         294,732          25,000          68,502         388,234              69          32,189
Michigan........................................................       4,861,625         314,317       5,175,942         310,168       1,722,543       7,208,653              67       4,637,316
Minnesota.......................................................         881,829         319,848       1,201,677           2,213         449,733       1,653,623              53         864,844
Red Lake, MN \1\................................................           6,204  ..............           6,204  ..............  ..............           6,204             100  ..............
Ohio............................................................         978,890         198,896       1,177,786          65,770         328,264       1,571,820              62          85,774
Wisconsin.......................................................         316,547          50,000         366,547  ..............         275,406         641,953              49          54,610
Louisiana.......................................................       4,089,578  ..............       4,089,578         330,000       1,104,420       5,523,998              74  ..............
New Mexico......................................................       1,032,128         129,911       1,162,039         248,791         233,955       1,644,785              63         479,843
Texas...........................................................         997,895         157,200       1,155,095  ..............         297,774       1,452,869              69  ..............
Colorado........................................................       1,104,198          67,533       1,171,731          57,449         119,319       1,348,499              82       1,343,961
Iowa............................................................         216,086         353,367         569,453  ..............          13,463         582,916              37  ..............
Kansas..........................................................         328,548           7,200         335,748          10,000          83,642         429,390              77          89,519
Missouri........................................................         583,040  ..............         583,040  ..............          16,608         599,648              97  ..............
Montana \1\.....................................................         425,091  ..............         425,091  ..............  ..............         425,091             100  ..............
Nebraska........................................................         820,898          75,529         896,427          40,470         301,447       1,238,344              66          70,479
North Dakota \1\................................................         175,413  ..............         175,413  ..............  ..............         175,413             100  ..............
South Dakota....................................................         176,228           8,416         184,644  ..............          26,464         211,108              83  ..............
Ogala Sioux, SD \1\.............................................          40,360  ..............          40,360  ..............  ..............          40,360             100  ..............
Alaska..........................................................         134,803          63,000         197,803       1,015,000         104,235       1,317,038              10  ..............
Arizona.........................................................         940,739         252,000       1,192,739           2,000         184,312       1,379,051              68       2,000,000
California......................................................       3,373,339         580,027       3,953,366          35,400       1,248,232       5,236,998              64         379,140
Nevada..........................................................         371,461         174,278         545,739  ..............          24,960         570,699              65         179,400
Oregon..........................................................          84,166          96,573         180,739           4,436          44,317         229,492              37           5,200
Washington......................................................         228,871           7,500         236,371         208,000          90,076         534,447              43  ..............
                                                                 -------------------------------------------------------------------------------------------------------------------------------
      Grand Total...............................................      29,862,763       7,063,877      36,926,640       3,238,086       7,276,137      47,440,863              63      11,306,319
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ No information provided Feb. 24, 2009 Client Extras incl.: flu shots, fresh produce, clothing, books, toys, health screenings, personal care items, energy efficient items, dairy, baked
  goods, eye exams, etc.

                                 ______
                                 

  Prepared Statement of the National Cooperative Business Association

    The National Cooperative Business Association, which represents all 
types of cooperatives, appreciates the opportunity to submit testimony 
on the request for a funding level of $8.25 million for the Rural 
Cooperative Development Grant (RCDG) program in the Rural Development 
Agency of the U.S. Department of Agriculture. This request includes 
funds to work in areas of high national priority including helping to 
create worker owned enterprises, e.g., worker ownership succession of 
existing rural businesses; health care; renewable energy and energy 
efficiency; and affordable housing.
    Background.--The RCDG program is a competitive grants program, 
administered by USDA's Rural Development, Rural Business--Cooperative 
Services Program. RCDG provides matching grant funding to nonprofits or 
institutions of higher education that operate cooperative development 
centers primarily serving farmers and groups seeking to form 
cooperatively owned businesses in rural areas.
    Cooperative development centers use the grants to fund critical 
technical assistance for economic development, such as legal and 
accounting assistance, feasibility studies, business planning, board 
education, and other services that help ensure the success of these 
businesses. The centers have helped start or expand more than 400 
cooperative businesses that have created over 5,800 new rural jobs in 
virtually every sector of the economy. Investment in these cooperatives 
exceeds $900 million.
    President Obama recognized the critical nature of the RCDG program 
in his budget outline. He included rural cooperative development grants 
among the five Rural Development programs needed ``to spur the 
development of small business and value-added agriculture in rural 
America.''
    The program, begun in 1993, is authorized at $50 million, but has 
never been appropriated at more than $6.5 annually despite the demand 
and cost effectiveness of the program. USDA typically receives 40-50 
applications for funding annually, but historically has only been able 
to fund 20-25 centers. In fiscal year 2008, approximately $4.6 million 
was available for RCDG grants, with a maximum grant award of $200,000 
per center. Another $500,000 was appropriated in this section for 
research on the impact of cooperative businesses, and $1.2 million for 
grants to minority-owned cooperatives, for a total appropriation of 
approximately $6.4 million.
    This program leverages a small amount of funding into much larger 
amounts while it promotes ownership and entrepreneurship. While the 
program requires a 25 percent match, centers have been leveraging 
dollar for dollar this funding with non-federal funding sources. The 
RCDG program is the only dedicated source of federal funding supporting 
the cooperative development centers.
    The Need for Assistance From Centers.--The Centers play a critical 
role in identifying and assisting new businesses to gain access to 
public funding, especially USDA loan and grant programs. Congress 
recognized the need when it developed the program and stated that ``the 
Committee hopes to link cooperatives from different communities and 
different sectors of the economy to strengthen the cooperative movement 
as a whole.'' (emphasis added) Federal Agriculture Improvement and 
Reform Act of 1996, Conf.Rep., p. 432.
    One of the ways Congress tried ``to strengthen the cooperative 
movement as a whole'' with the program was to ``emphasiz[e] job 
creation in rural areas through the development of rural cooperatives, 
value added processing, and rural businesses.'' (Conf.Rep., p. 431).
    At a time when rural America is in desperate need of jobs, the 
centers are well-situated to assist in an efficient and effective 
disbursement of economic stimulus and other funds to rural areas in 
need. But in order to do this, Congress needs to increase the maximum 
grant for centers back closer to historic levels. Under current 
funding, the maximum grant request for RCDG has been reduced from 
$300,000 in fiscal year 2005 to $200,000 currently, resulting in a 
significant reduction in support for core center operations, compounded 
by the effect of inflation. To bring funding up to an adequate level, 
we urge this subcommittee to provide $8.25 million for the RCDG program 
in this year's appropriations bill.
    The Fiscal Year 2010 Request.--The request this year is for $8.25 
million, which includes the following:
  --$4.6 million for general rural cooperative development grants to 
        centers proposing to work in any area of rural cooperative 
        development;
  --$2.0 million to be awarded to those successful RCDG applicants who 
        have both a demonstrated track record and that propose to 
        conduct rural cooperative development in the following areas of 
        high national priority: creation of worker owned enterprises, 
        including worker or community ownership succession of existing 
        rural businesses; health care; renewable energy and energy 
        efficiency, and affordable housing. Such applicants may request 
        up to $75,000 in supplemental grant awards to fund work in 
        these areas of national priority. Funds not used for these 
        purposes may be used by USDA to fund additional RCDG grants.
  --$450,000 for research on the economic impact of all types of 
        cooperatives.
  --$1.2 million for grants to minority-owned cooperatives.
    This request would allow USDA to competitively award $200,000 each 
to approximately 23-25 centers. Of these awardees, centers with both a 
track record and a proposal to work in one or more of the specified 
areas of national priority would be able to request an additional 
$75,000, for a total award of $275,000. Funding for minority-owned 
cooperatives would be funded at the same level, and funding for 
research would be reduced by $50,000 from fiscal year 2008 levels.
    Addressing High Priority Rural Economic Needs.--This request 
addresses high priority needs by providing increased support for work 
in areas that are critical to retaining and creating employment, 
improving health care, creating affordable housing, and reducing 
dependence on fossil fuels. Successful cooperative solutions have been 
demonstrated in each of these critical areas in various places 
throughout the country. Technical assistance is required to replicate 
and broadly extend those successful models.
    Rural America is populated with a number of profitable companies 
where rural jobs are at risk of loss due to a failure of succession 
planning, where aging or retiring owners do not have heirs that are 
interested or capable of taking over the business. Transfer to employee 
or community ownership is a good option in these cases, as these jobs 
then are retained in communities instead of being outsourced to urban 
or foreign buyers. But there must be business assistance infrastructure 
available before the owner is ready to retire or the business closes. 
Cooperative development centers can provide this assistance.
    Health care delivery is a major issue affecting rural areas, where 
most of America's aging population resides. Demonstrated opportunities 
for cooperative development include worker-owned home health care 
cooperatives, purchasing or shared services cooperatives for rural 
hospitals, and others. Harvard's Kennedy School of Government 
highlighted worker-owned home health care businesses as an award 
winning solution to providing jobs and benefits to rural workers while 
increasing the quality of care that allow aging rural residents to stay 
in their homes.
    Creation of affordable rural housing is an on-going need, made even 
more urgent by the nation's housing and foreclosure crisis. Substantial 
cooperative successes have been achieved by the conversion of 
manufactured home parks on rented lots to resident-owned communities. 
These co-ops have stabilized the availability of housing, and created 
greater long-term security for residents.
    Successful cooperative development can also be seen in response to 
both the need for renewable energy production (such as through ethanol 
and biodiesel cooperatives), and through consumer-owned energy 
cooperatives aimed at energy conservation and efficiency.
    The 2008 farm bill made changes to the program including allowing 
the award of grants on a multi-year basis and a provision for USDA to 
conduct ongoing research on the economic impact of cooperatives. The 
changes are designed to make more effective and efficient use of the 
ongoing capacity and expertise developed by co-op development centers 
around the country.
    Ongoing Research on Cooperatives.--The request includes $450,000 
for a cooperative research agreement between USDA and a qualified 
academic institution to continue research on the national economic 
impact of cooperatives. The research money is needed to continue 
tracking information on the number, type and economic impact of 
cooperatives across America and to assess the effectiveness of the RCDG 
program.
    In April, the first results of the federally supported research on 
the economic impact of cooperatives were released, showing significant 
contribution of the co-op sector to the U.S. economy--73,000 firms own 
more than $3 trillion in assets, generate over $650 billion in revenues 
and pay more than $75 billion in wages for 2 million jobs.
    While these results are a start, the 2008 farm bill requires USDA 
to conduct ongoing research on the economic impact of all types of 
cooperatives. This research can be used to track performance of 
cooperatives, how much capital is recycled into local economies, the 
success of Federal funds targeted at cooperative development, and 
determining other economic as well as social benefits of cooperatives. 
The fiscal year 2010 RCDG appropriation should include funding for this 
critical research.
    Funding History.--The program has received funding since 1993. 
Previous funding levels (including RCDG grant funding, research 
funding, and grant funding to minority-owned co-ops): Fiscal year 2009 
$6.18 million; fiscal year 2008 $6.423 million; fiscal year 2007 $6.4 
million; \1\ fiscal year 2006 $6.4 million; fiscal year 2005 $6 
million; fiscal year 2004 $6.5 million; fiscal year 2003 $6.5 million; 
fiscal year 2002 $5.25 million; fiscal year 2001 $4.5 million; fiscal 
year 2000 $4 million; fiscal year 1999 $1.75 million; fiscal year 1998 
$1.7 million; fiscal year 1997 $1.7 million; fiscal year 1996 $1.33 
million; fiscal year 1995 $1 million; fiscal year 1994 $750,000; and 
fiscal year 1993 $700,000.
---------------------------------------------------------------------------
    \1\ $900,000 that was appropriated to program for fiscal year 2007 
in the Continuing Resolution was taken out of program to fund another 
program.
---------------------------------------------------------------------------
    Conclusion.--We appreciate this opportunity to provide information 
about the request for $8.25 million for the Rural Cooperative 
Development Grant Program. We urge the Subcommittee to support the 
request.
                                 ______
                                 

           Prepared Statement of the National Cotton Council

    The National Cotton Council welcomes the opportunity to provide the 
following recommendations and requests for fiscal year 2010 
appropriations funding for selected programs under the jurisdiction of 
the subcommittee which make important contributions to our industry's 
ability to compete and prosper in a world market.
    We are requesting $23.39 million for APHIS for the Joint Cotton 
Pests Account and sufficient funding to continue the Farm Service 
Agency's authority to make up to $100 million in loans to eligible 
Foundations to be used in conducting activities related to the boll 
weevil and pink bollworm eradication programs. The industry requests an 
additional $700,000 above current funding ($1.54 million) be made 
available to ARS to be used to add a research position at the ARS Gin 
Lab located at Lubbock, TX. Adequate cost-share funding and loan 
authority to facilitate the successful completion of the boll weevil 
and the pink bollworm eradication programs; continued development of 
new technology through research; sufficient financial resources, 
personnel and computer equipment for FSA and FAS to successfully carry-
out their respective missions; and, funding for demand building export 
programs including MAP, FMD and GSM export credit guarantees are all 
essential to the cotton industry. The National Cotton Council also 
strongly supports the provisions of the 2008 farm law.
    The National Cotton Council of America (NCC) is the central 
organization of the U.S. cotton industry representing growers, ginners, 
warehousemen, cottonseed interests, merchants, cooperatives and 
manufacturers whose primary business operations are located in 18 
cotton producing States. Cotton Council International (CCI) is the 
overseas promotion arm of the cotton industry. NCC represents producers 
who cultivate between 10 and 14 million acres of cotton. Annual cotton 
production averaging approximately 20 million 480-lb bales is valued at 
more than $5 billion at the farm gate. While a majority of the industry 
is concentrated in the 18 cotton-producing States, the down-stream 
manufacturers of cotton apparel and home-furnishings are located in 
virtually every State. The industry and its suppliers, together with 
the cotton product manufacturers, account for more than 230,000 jobs in 
the United States. In addition to the cotton fiber, cottonseed products 
are used for livestock feed, and cottonseed oil is used for food 
products ranging from margarine to salad dressing. Taken collectively, 
the annual economic activity generated by cotton and its products in 
the U.S. economy is estimated to be in excess of $120 billion.
                           funding priorities
    Joint Cotton Pests (APHIS).--The National Cotton Council requests 
$23.39 million for APHIS to provide a Federal Cost Share for Boll 
Weevil Eradication and Pink Bollworm Eradication programs which were 
combined in fiscal year 2008 into a joint cotton pest account. As these 
programs near completion, the cost share funding for APHIS is even more 
critical to insure the complete eradication of these cotton pests for 
the benefit of those in post eradication maintenance areas. Additional 
details for the Boll Weevil Eradication Program and the Pink Bollworm 
Eradication Program are provided below as separate programs.
    Boll Weevil Eradication (APHIS--Cotton Pests).--The National Cotton 
Council requests $15.1 million for APHIS to provide a Federal cost 
share of approximately 30 percent to active boll weevil eradication 
programs underway in Texas. Cotton in the active eradication zones of 
Texas will require program activity in 2010 to continue progress toward 
full eradication. A large portion of this area is in habitats favorable 
to the boll weevil, primarily in the Southeast third of the State. For 
example, in central and south Texas, the boll weevil is especially 
adapted to the milder winter temperatures, longer growing seasons, and 
more humid summertime conditions. The lack of ``killing frost'' permits 
escape cotton plants (plants growing in non-cotton field habitats like 
ditch, fence row, etc.) to thrive year long, thus providing a source 
for sustained life and reproduction of boll weevils. Extra efforts have 
been employed to locate and remove these escape plants. Additionally, 
several zones in Texas have encountered significant costs because of 
weevils migrating out of the zones with high weevil populations into 
adjacent zones with near eradication levels of weevils. Studies have 
indicated this movement has been enhanced by hurricane winds. Even with 
these significant challenges, progress toward full eradication 
continues to be made.
    The program continues to produce documented economic and 
environmental benefits. Cotton in the United States was produced in 
2007 with an average of only 2.78 sprays per acre for all insects. This 
compares to 15 to 20 applications per acre prior to adoption of Bt 
cotton for worm control and implementation of boll weevil eradication.
    Nationally, USDA estimates that 94 percent of the U.S. cotton 
acreage is now free of boll weevils. Additionally, Mexico continues 
eradication programs in cotton areas along the U.S./Mexico border.
    Adequate Federal cost-share funds are critical to timely 
completion, especially since eradication is within sight. APHIS should 
be directed to make every effort to minimize overhead and 
administrative expenses for boll weevil eradication to ensure maximum 
funding reaches field operations.
    The fiscal year 2010 boll weevil request is less than fiscal year 
2009 and continues the annual reduction in keeping with our commitment 
to reduce Federal cost-share funding as the program moves toward 
completion.
    Boll Weevil Eradication (FSA).--The National Cotton Council 
requests sufficient funding to allow FSA to make at least $100 million 
in loans to eligible Boll Weevil Eradication Foundations. The Council 
also strongly supports providing FSA with continued authority to make 
loans for activities associated with the pink bollworm eradication 
program as previously provided in the fiscal year 2005 appropriations 
legislation.
    Pink Bollworm Programs (APHIS--Cotton Pests).--The National Cotton 
Council requests $8.29 million for the APHIS pink bollworm program. 
This will provide $2.14 million for indirect and direct costs to APHIS 
and the residual $6.15 million ``Net to Field'' will be for program 
operations. The Pink Bollworm Eradication Program originally was 
planned for a three phase expansion over several years. Insufficient 
funding resulted in Phase III being divided into Phase III(a) and Phase 
III(b) to allow partial expansion in fiscal year 2007. However, data 
revealed mass late season migration spilled into areas in eradication 
from outside eradication. Fiscal year 2008 marked the first year to 
expand into the last remaining areas of infestation. The fiscal year 
2010 request is less than the fiscal year 2009 request as a result of a 
reduction in sterile moth releases needed in some areas.
    The Pink Bollworm Eradication Program is based predominately on the 
mass release of sterile insects generated by a rearing facility located 
in Phoenix, AZ. Although this technique is favored over conventional 
insecticide spray application, the rearing costs include items related 
to fuel to maintain facility temperature most favorable to the insect 
and to soybean meal, a major diet ingredient. Soybean meal has almost 
doubled in cost (2007 vs. 2008). Insect rearing costs alone account for 
over $4 million of the budget. The shipping and mass release of these 
sterile insects via airplane over areas of California, Arizona, New 
Mexico, and Texas has increased due to fuel price increases. Costs have 
also greatly increased for the plastic raw material used to manufacture 
the trays that contain the insects during rearing.
    The Bi-National Pink bollworm eradication program has been 
implemented in three phases, with the final expansion started in 2008, 
to eliminate pink bollworm as a cotton pest in Texas, New Mexico, 
Arizona, California and adjacent cotton areas in Northern Mexico. It 
was expected that fiscal year 2009 would be the peak request for the 
program. Subsequent years are expected to require less support due to 
successful eradication in the earliest phases of the program. It is 
anticipated that fiscal year 2010 needs will meet that expectation. 
Mexico remains a partner in the eradication effort and continues to 
expand eradication programs along the border in conjunction with the 
United States.
    The funds requested for fiscal year 2010 will enable the Phoenix 
Pink Bollworm Rearing Facility to rear and release up to 20 million 
sterile pink bollworm moths per day to supply program needs. The 
Phoenix Pink Bollworm Rearing Facility (PBRF) is a partnership between 
the California growers and APHIS. The cost share for pink bollworm is 
essential to provide APHIS expertise and operational coordination in 
mass rearing and daily area-wide aerial releases of millions of moths.
    Market Access Program (MAP).--The National Cotton Council strongly 
supports funding levels authorized in 2008 farm law. Cotton Council 
International (CCI) actively promotes exports of U.S. cotton and cotton 
products in Asia, Europe, Africa, and Central and South America. 
Activities carried out using MAP (and FMD) have been responsible for 
increased export sales of cotton fiber and value-added cotton products. 
The value of U.S. cotton fiber exports exceeds $4 billion, and exports 
of value-added cotton products contribute an additional $6 billion to 
the overall value of cotton exports. For every $1 in MAP and FMD funds, 
CCI has generated matching contributions of over $4.00.
    Foreign Agriculture Service (FAS).--The industry supports 
sufficient funding to ensure FAS is adequately staffed to carry out 
important market development and trade enhancing functions in 
headquarters and abroad.
    Foreign Market Development (FMD).--The FMD program is used to 
encourage and support U.S. commodity groups to undertake long-term 
market development and trade servicing. FMD is currently funded at 
$34.5 million and requires at least a dollar-for-dollar industry match. 
The industry requests that funding be continued at the same level as 
provided for fiscal year 2009.
    Farm Service Agency (FSA).--Provide adequate funding so the agency 
can continue to deliver essential farm and conservation programs and 
services.
    Agricultural Research Service (ARS).--The industry is concerned 
with current support provided to this agency. The agency has faced a 
flat budget for most of the recent past fiscal years since 2001 and 
when not flat, its budget has suffered cuts. We respectfully request 
that this agency be considered for increased overall funding to allow 
the valuable research conducted on behalf of all agriculture to 
continue at sustainable levels. We specifically urge the subcommittee 
to provide increased base funding for the following research facility:
    Lubbock, TX Cotton Production and Processing Research Unit (Ginning 
Lab) of the Cropping Systems Research Laboratory (ARS)--$2.27 
million.--The request for $2.27 million in annual operating budget 
represents an increase of $700,000 from the funding levels provided in 
fiscal year 2008 and fiscal year 2009. This cotton ginning research 
facility is specifically equipped for research into the stripper 
harvested cotton production systems on the Texas High Plains, the 
largest contiguous production region in the United States. This unit is 
the only research unit within the ARS system that has a cotton 
harvesting research component of any type and while, historically, the 
unit's focus has been on stripper harvesting, the region's producers 
have in recent years been able to utilize new cultivars of upland 
cottons, adapted for their region, with vastly improved qualities that 
are best preserved if harvested by a machine picker rather than by a 
machine stripper. Research into best possible harvest alternatives is 
vital for this region's production to take advantage of international 
market preferences for longer, stronger cotton fiber and provide for 
continued profit improvements for the growers of this region.
    Historically this unit has been staffed with four full time 
scientists (4-SY's). In recent years, however, the lab has been 
operating with only 3-SY's, with the harvest focused position vacant 
due to retirement. Currently, harvest research is being conducted by a 
talented post-doctoral fellow with supplemental funds provided by 
industry through a grant from Cotton Incorporated, which is necessary 
to cover his direct salary and support functions. While this is a much 
appreciated stop gap approach, it is imperative for the long term 
viability of the unit for a fourth full time scientist position to be 
restored with appropriate support. ARS administrators indicate that 
this requested funding level will support a fourth scientist, long 
term, as well as provide for the necessary indirect support necessary 
for a viable 4-SY unit.
    Also included in this request is funding of critical cotton ginning 
particulate matter emissions research impacting all production regions 
which is conducted at this location. The development of this first 
class particulate emissions laboratory has become a valuable resource 
for determining and characterizing particulate emissions for many 
agricultural operations in addition to cotton ginning. In addition, 
this laboratory cooperates in research to improve Grain Sorghum Cold 
Tolerance, thus improving production of this valuable feed grain on the 
High Plains. Grain Sorghum is an important ingredient in animal feeds 
and as a feedstock for ethanol production.
    All of these activities are in addition to the basic ginning 
research necessary for support of the Texas and Southwest Region's 
cotton production industry.
    Thank you for your consideration of the cotton industry's 
recommendations for funding for programs under the subcommittee's 
jurisdiction for fiscal year 2010.
                                 ______
                                 

    Prepared Statement of the National Environmental Service Center

    Thank you for the opportunity to offer testimony to the 
Subcommittee on Agriculture, Rural Development, Food and Drug 
Administration and Related Agencies. We request $1.5 million for the 
National Drinking Water Clearinghouse (NDWC), a program that provides 
water infrastructure services for small communities and rural areas 
nationwide.
Introduction
    My name is Gerald Iwan. I serve as executive director of the 
National Environmental Services Center (NESC), located at West Virginia 
University in Morgantown, West Virginia. Previously, I was for 20 years 
the drinking water administrator for the State of Connecticut 
Department of Public Health, during which time I oversaw the 
implementation of all regulatory aspects of the Safe Drinking Water Act 
(SDWA). In my present assignment with NESC, I manage a unique program 
with nationally recognized expertise in drinking water, wastewater, and 
small community infrastructure security and emergency preparedness. 
NESC provides specialized technical assistance and training services 
and is an in-depth repository of information to small and rural 
communities nationwide.
Water and Wastewater Infrastructure Challenges
    Approximately 42,000 small and rural communities across the country 
with populations of 3,300 or fewer people receive their drinking water 
from small, community-operated water systems (EPA, 2009). These systems 
are mandated to comply with the Safe Drinking Water Act in providing 
reliable and safe water services. The system operators typically have 
limited financial, human and equipment resources. These systems account 
for the majority of SDWA violations. The USDA's Water and Wastewater 
Grants and Loans program may be the only option small system operators 
have to obtain funding to address necessary system improvements. 
Organizations such as the NDWC can provide reliable technical 
assistance in advising the system operators and in helping them to 
overcome the many challenges they face in complying with local, State 
and Federal regulations.
    Recognizing these challenges, the USDA makes funds available 
through the ``Rural Water and Wastewater Technical Assistance and 
Training (RWTA) Programs'' under authorization provided in the 
Consolidated Farm and Rural Development Act (the Farm Bill). The 
National Drinking Water Clearinghouse is one RWTA program. We have been 
funded by USDA for 18 years to help communities and rural areas 
identify and evaluate solutions to water or wastewater problems, 
improve facility operation and maintenance, and prepare funding 
applications for water or wastewater treatment facility construction 
projects.
Deliverables Provided by the NDWC
    The NDWC serves local officials, utility managers, system operators 
and RWTA professionals in small and rural communities. Congressional 
support would enable us to provide the following deliverables to our 
stakeholders. Telephone callers would obtain toll-free drinking water 
technical assistance from our staff of certified operators, engineers, 
and scientists. Our quarterly publication ``On Tap,'' a magazine for 
small drinking water systems, provides information about water 
treatment, financing, and management options and would be distributed 
free of charge to 26,000 subscribers. A comprehensive Web site 
www.NESC.wvu.edu and databases with thousands of entries will be 
maintained to provide ``round the clock'' access to contemporary 
information for small water systems. Training sessions customized for 
small and rural areas, teleconferences, and more than 600 free and low-
cost educational products would be provided to give people the 
instruction and tools they need to address their most pressing drinking 
water issues. Our staff of experts will be available to visit small 
communities, if invited, to offer in-the-field assessments and advice 
to the host communities.
    We anticipate an even greater need for NDWC services in 2010 due to 
the current recession and the federal effort to stimulate the economy 
through infrastructure projects. Stimulus funding in the water sector 
has been so far predominately directed to construction, with little or 
no funding directed to support water and wastewater facility operation 
and maintenance, or for technical assistance programs such as provided 
by the NDWC. Small and ruralcommunities will need increased support 
from units such as ours to plan for and protect their current and 
future utility assets. The NDWC has accordingly expanded its scope of 
deliverables for fiscal year 2010 to provide additional services. It is 
imperative that the NDWC continues to receive funding from the 
Technical Assistance and Training Grants (TAT) account to assist small 
communities with their drinking water systems and associated concerns 
related to protecting drinking water supplies from contamination.
Request
    In order to provide services to meet this national need, we request 
a congressionally directed appropriation of $1.5 million to continue 
and increase the NDWC program services through the Technical Assistance 
and Training (TAT) Grants account. Thank you for considering our 
request.
                                 ______
                                 

          Prepared Statement of the National Organic Coalition

    My name is Steven Etka. I am submitting this testimony on behalf of 
the National Organic Coalition (NOC) to detail our requests for fiscal 
year 2010 funding for several USDA marketing, research, and 
conservation programs of importance to organic agriculture.
    The National Organic Coalition (NOC) is a national alliance of 
organizations working to provide a voice for farmers, ranchers, 
environmentalists, consumers, cooperative retailers and others involved 
in organic agriculture. The current members of NOC are the Beyond 
Pesticides, Center for Food Safety, Equal Exchange, Food and Water 
Watch, Maine Organic Farmers and Gardeners Association, Midwest Organic 
and Sustainable Education Service, National Cooperative Grocers 
Association, Northeast Organic Dairy Producers Alliance, Northeast 
Organic Farming Association-Interstate Policy Council, Rural 
Advancement Foundation International--USA, and the Union of Concerned 
Scientists.
    We urge the Subcommittee's strong consideration of the following 
funding requests for various USDA programs of importance to organic 
farmers, marketers and consumers:
USDA/Agricultural Marketing Service (AMS)
            National Organic Program--Request: $8 million
    In fiscal years 2006 and 2007, funding of $2.026 was appropriated 
for the National Organic Program within the AMS budget. For fiscal year 
2008, in keeping with the President's budget request for the program, 
$3.18 million was appropriated for the National Organic Program. The 
NOP appropriation grew again in fiscal year 2009 to a funding level of 
$3.867 million.
    Sales of organic food and beverages continue to grow at an average 
rate of 20 percent per year in this country. While funding levels for 
USDA's National Organic Program (NOP) have grown in recent years, the 
growth in resources for this regulatory agency has not kept pace with 
the market growth of the organic sector.
    For NOP to be a credible regulator and enforcer of the USDA organic 
label, resources must increase significantly, and long overdue policies 
must be established within NOP to ensure consistency in the standards, 
transparency in the standards setting process, and proper enforcement. 
If the funding for this program does not expand significantly to meet 
the growing needs, we fear that the important work of the NOP will 
suffer, the integrity of the organic standards will be jeopardized, and 
public confidence in the USDA organic label will be eroded.
    Specifically, the Members of the National Organic Coalition urge 
the Committee to funding the National Organic Program at $8 million for 
fiscal year 2010, as authorized by Section 10303 of the Food, 
Conservation, and Energy Act of 2008, and to include language directing 
NOP to undertake the following critical activities, as established by 
the Organic Foods Production Act (OFPA) of 1990.
  --Establish a Peer Review Panel, as called for in Section 2117 of the 
        Organic Foods Production Act (OFPA) of 1990, and Section 
        205.509 of USDA's own organic regulations; to provide oversight 
        of USDA's accreditation process for organic certifying agents.
  --Reinstate funding for independent, scientific reviews of substances 
        proposed for use in organic agriculture, as required by OFPA. 
        Historically, the National Organic Standards Board (NOSB) has 
        had the benefit of independent scientific reviews, called 
        Technical Advisory Panel (TAP) reviews, of any substance 
        proposed for use in organic agriculture, to make sure that its 
        use is compatible with the purposes of OFPA. However, in recent 
        years, USDA has denied funding for these independent TAP 
        reviews, leaving the NOSB with little information on which to 
        base these important decisions.
  --Make the NOP budget fully transparent and accountable to the 
        public, by publishing the details of the budget on the NOP 
        website.
  --Finalize the pending pasture rule for organic livestock, and 
        initiate rulemaking to address the issue of the origin of 
        livestock.
USDA
            Organic Data Initiatives
    Authorized by Section 7407 of the 2002 Farm Bill, the Organic 
Production and Marketing Data Initiative States that the ``Secretary 
shall ensure that segregated data on the production and marketing of 
organic agricultural products is included in the ongoing baseline of 
data collection regarding agricultural production and marketing.'' 
Section 10302 of the Farm, Conservation, and Energy Act of 2008 amends 
the provision further to provide mandatory funding, and to provide 
further authorization for $5 million annually in discretionary funds 
for this effort.
    As the organic industry matures and grows at a rapid rate, the lack 
of national data for the production, pricing, and marketing of organic 
products has been an impediment to further development of the industry 
and to the effective functioning of many organic programs within USDA. 
The organic data collection and analysis effort at USDA has made 
significant strides in recent years, but remains in its infancy. 
Because of the multi-agency nature of data collection within USDA, 
organic data collection and analysis must also be undertaken by several 
different agencies within the Department: We are requesting the full $5 
million to be appropriated for this initiative, to be divided between 
the three main data collection sub-agencies as follows:
    Economic Research Service (ERS).--Collection and Analysis of 
Organic Economic Data--Request: $1.5 million
    Agricultural Marketing Service (AMS).--Collection and Analysis of 
Organic Economic Data--Request: $3 million
    National Agricultural Statistic Service (NASS).--Organic Production 
Data--Request: $500,000
USDA/CSREES
            Organic Transitions Program--Request: $5 million
    The Organic Transition Program, authorized by Section 406 of the 
Agricultural Research, Education and Extension Reform Act (AREERA) for 
Integrated Research Programs, is a research grant program that helps 
farmers surmount some of the challenges of organic production and 
marketing. As the organic industry grows, the demand for research on 
topics related to organic agriculture is experiencing significant 
growth as well. The benefits of this research are far-reaching, with 
broad applications to all sectors of U.S. agriculture, even beyond the 
organic sector. Yet funding for organic research is minuscule in 
relation to the relative economic importance of organic agriculture and 
marketing in this nation. Starting in fiscal year 2009, the program has 
been administered in combination with the CSREES Water Quality 
integrated research program, to study the watershed impacts of organic 
systems.
    The Organic Transition Program was funded at $2.1 million in fiscal 
year 2003, $1.9 million in fiscal year 2004, $1.88 million for both 
fiscal year 2005 and 2006, $1.855 million for fiscal year 2007 and 
2008, and 1.842 million in fiscal year 2009. Given the rapid increase 
in demand for organic foods and other products, and the growing 
importance of organic agriculture, this important research program 
should be growing instead of contracting. Therefore, we are requesting 
that the program be funded at $5 million in fiscal year 2010.
USDA/CSREES/Agriculture and Food Research Initiative (AFRI)
            Request: Report language on Conventional/Classical Plant 
                    and Animal Breeding
    In recent decades, public resources for classical plant and animal 
breeding have dwindled, while resources have shifted toward genomics 
and biotechnology, with a focus on a limited set of major crops and 
breeds. This problem has been particularly acute for organic and 
sustainable farmers, who seek access to germplasm well suited to their 
unique cropping systems and their local environment.
    Ever year since fiscal year 2005, the Senate Agriculture 
Appropriations Subcommittee has included report language raising 
concerns about this problem, and urging CSREES to give greater 
consideration to research needs related to classical plant and animal 
breeding, when setting priorities within the National Research 
Initiative. Despite this report language, research proposals for 
classical plant and animal breeding that have sought NRI funding in the 
recent years have been consistently declined.
    In Section 7406 of the Food, Conservation, and Energy Act of 2008, 
the National Research Initiative was merged with the Initiative for 
Future Agriculture and Food Systems to become the Agriculture and Food 
Research Initiative (AFRI). Congress included language within the AFRI 
to make ``conventional'' plant and animal breeding a priority for AFRI 
research grants, consistent with the concerns expressed by 
Appropriations Committee in the three preceding appropriations cycles.
    When CSREES released its AFRI Program Announcement in December of 
2008, it invited research proposals on conventional/classical plant and 
animal breeding. However, when researchers submitted their initial 
letters of intent spelling out their research topics in the arena, they 
were nearly all rejected in the pre-proposal stage. Therefore, we are 
requesting that report language be added to the CSREES/AFRI section of 
the report, stating the following:

    ``While the Committee is pleased that the new AFRI program language 
is now encouraging classical or conventional plant and animal breeding 
initiatives, we are concerned by the lack of progress in funding of 
actual projects in this research arena. The Committee urges USDA to 
make further progress by creating a clear, separate and on-going 
category of research funding for conventional/classical plant and 
animal breeding within AFRI, with adequate funding allocations to meet 
this critical and growing need.''
USDA/CSREES
            Sustainable Agriculture Research and Education (SARE) 
                    Request: $25 Million (Research and Education 
                    Grants) and Education (SARE) and $5 Million 
                    (Professional Development Grants)
    The SARE program has been very successful in funding on-farm 
research on environmentally sound and profitable practices and systems, 
including organic production. The reliable information developed and 
distributed through SARE grants have been invaluable to organic 
farmers. For fiscal year 2010, we are requesting $25 million for 
research and education grants and $5 million for professional 
development grants.
USDA/Rural Business Cooperative Service
            Appropriate Technology Transfer for Rural Areas (ATTRA)--
                    Request: $3 million
    ATTRA, authorized by Section 6016 on the Food, Conservation, and 
Energy Act of 2008, is a national sustainable agriculture information 
service, which provides practical information and technical assistance 
to farmers, ranchers, Extension agents, educators and others interested 
and active in sustainable agriculture. ATTRA interacts with the public, 
not only through its call-in service and website, but also provides 
numerous excellent publications written to help address some of the 
most frequently asked questions of farmers and educators. Much of the 
real-world information provided by ATTRA is extremely helpful to both 
the conventional and organic communities, and is available nowhere 
else. As a result, the growth in demand for ATTRA services has 
increased significantly, both through the website-based information 
services and through the growing requests for workshops. We are 
requesting $3 million for ATTRA for fiscal year 2010.
USDA/ARS
            Organic Agricultural Systems Research--Request: Devote 
                    ``Fair Share'' of ARS Research Dollars, 
                    Commensurate With Organic's Retail Market Share 
                    (Approximately $33 Million), to Direct Organic 
                    Research.
    USDA research programs have not kept pace with the growth of 
organic agriculture in the marketplace. Although organic currently 
represents nearly 4 percent of total U.S. food retail market, the share 
of USDA research targeted to organic agriculture and marketing is 
significantly less. With regard to ARS specifically, efforts have been 
made to devote greater resources to organic research. The current total 
funding for direct organic projects within ARS is about $14 million, 
about 1.5 percent of the ARS budget. Despite this progress, much more 
needs to be done in this area. We are requesting that a ``fair share'' 
of ARS expenditures (approximately $33 million annually) be devoted to 
direct organic projects, using organic's retail market share as a basis 
of comparison to the conventional sector. This should include the 
establishment of a clearinghouse for disseminating organic research 
information through the National Agricultural Library, Alternative 
Farming Systems Information Center (NAL-AFSIC).
USDA/NRCS
            Conservation Stewardship Program--Request: No Funding 
                    Limitation
USDA/Rural Business Cooperative Service
            Value-Added Producer Grants--Request: $40 million
    The Conservation Security Program (authorized by Section 2001 of 
the 2002 farm bill) and the Value-Added Producer Grant (authorized by 
Section 6401 of the 2002 farm bill) have great potential to benefit 
organic and conventional producers in their efforts to conserve natural 
resources and to explore new, value-added enterprises as part of their 
operations. Unfortunately, while these programs were authorized to 
operate with mandatory funding, their usefulness has been limited by 
funding restrictions imposed through the annual appropriations process. 
We are urging that the Conservation Security Program be permitted to 
operate with unrestricted mandatory funding, and that the Value-Added 
Producer Grant Program receive an appropriation of $40 million for 
fiscal year 2009.
Food and Nutrition Service/WIC Program
            Report Language: Removing Barriers of Access to Organic 
                    Foods for WIC recipients
    Despite the scientifically documented nutritional and health 
benefits of organic food, particularly for pregnant mothers and small 
children, many States have greatly limited or prohibited access to 
organic foods as part of the WIC program. Some of the barriers are 
explicit, whereby WIC recipient are expressly prohibited in some States 
from using their WIC certificates or vouchers for organic versions of 
WIC foods. Others barriers are indirect, such as rules that make it 
difficult for retail stores that carry organic foods from participating 
in the program. Therefore, we are requesting that report language be 
included in the Food and Nutrition Service section of the fiscal year 
2010 Appropriations report, such as:

    ``The Committee is concerned about the number of States the have 
set up barriers within the WIC program to hinder or prohibit WIC 
recipients from purchasing organic food. The Committee strongly urges 
FNS to actively encourage States to remove barriers to the purchase of 
organic foods as part of the basic food instrument, and to understand 
the nutritional and health benefits of organic foods for the vulnerable 
populations served by this program.''
                                 ______
                                 

           Prepared Statement of the National Potato Council

    My name is Justin Dagen. I am a potato farmer from Karlstad, 
Minnesota and current Vice President, Legislative/Government Affairs 
for the National Potato Council (NPC). On behalf of the NPC, we thank 
you for your attention to the needs of our potato growers.
    The NPC is the only trade association representing commercial 
growers in 50 States. Our growers produce both seed potatoes and 
potatoes for consumption in a variety of forms. Annual production is 
estimated at 437,888,000 cwt. with a farm value of $3.2 billion. Total 
value is substantially increased through processing. The potato crop 
clearly has a positive impact on the U.S. economy.
    The National Potato Council (NPC) urges the Congress to continue to 
fund programs critical to potato growers and to oppose any attempts to 
eliminate and/or curtail various critical research and other projects. 
For example, interruptions in CSREES funded projects will result in 
significant disruption or cancellation of valuable breeding research 
and the loss of varieties resulting from years of previous research. 
Much of this potato research is conducted jointly using potato industry 
and university funding. Similarly, ARS potato research is critical to 
the potato industry.
    The NPC'S fiscal year 2010 Appropriations Priorities are as 
follows:
                            potato research
Cooperative State Research Education and Extension Service (CSREES)
    The NPC urges the Congress not to support any attempt to eliminate 
the CSREES Special Grant Program for potatoes. This program supports 
and fine-tunes important university research work that helps our 
growers remain competitive in today's domestic and world marketplace.
    The NPC supports an appropriation of $1,800,000 for the Special 
Potato Grant program for fiscal year 2010. The Congress appropriated 
$1,482,000 in fiscal year 2006 and recommended the same amount in 
fiscal year 2007. However, the program only received $1,112,000 in 
fiscal year 2008 which was further reduced by the across-the-board cut 
and $1,037,000 in fiscal year 2009. This has been a highly successful 
program, and the number of funding requests from various potato-
producing regions is increasing.
    The NPC also urges that the Congress include Committee report 
language as follows:

    ``Potato research.--The Committee expects the Department to ensure 
that funds provided to CSREES for potato research are utilized for 
varietal development testing. Further, these funds are to be awarded 
after review by the Potato Industry Working Group.''
                  agricultural research service (ars)
    The NPC urges that the Congress to continue the Congressional 
increases for research projects.
    The Congress provided funds for a number of important ARS projects 
and, due to previous direction by the Congress, the ARS continues to 
work with the NPC on how overall research funds can best be utilized 
for grower priorities.
    The NPC urges that $3 million per site be provided for the 
construction and/or the expansion of nematode research facilities at 
Cornell University in New York and in Idaho. The Potato Cyst Nematode 
Laboratory (PCNL) at Cornell University is structurally deficient and 
may lose its Federal license to operate as a quarantine facility. Its 
demise would put New York agriculture and the United States potato 
industries at risk. Equally important is the risk to the Western United 
States from the Idaho and Alberta outbreaks. A coordinated National 
Program is critical if export markets are to be maintained and this 
quarantined pest is to be contained. The Western facility could be 
constructed on University of Idaho land where an existing nematologist 
is present and a core ARS presence already exists. If PCN expands into 
other States, the entire U.S. potato industry will be affected, not 
only from direct damage by the pest (up to 80 percent yield loss), but 
more importantly, by embargoes disrupting interstate and international 
trade
                       foreign market development
Market Access Program (MAP)
    The NPC also urges that the Congress maintain the spending level 
for the Market Access Program (MAP) at its authorized level of $200 
million annually.
Foreign Agriculture Service (FAS)
    The NPC supports a minimum of $279 million for salaries and 
expenses of the USDA Foreign Agriculture Service (FAS). This level is 
the minimum necessary for the Agency given the multitude of trade 
negotiations and discussions currently underway. The Agency has had to 
absorb pay cost increases, as well as higher operating costs for its 
overseas offices, such as increased payments to the Department of State 
for services provided at overseas posts. However, this minimal budget 
request does not allow for expanded enforcement activities to assure 
that various trade agreements are being properly implemented. The 
Congress should consider increasing the budget request to allow for 
more FAS trade enforcement activities.
                           food aid programs
McGovern-Dole
    The NPC supports a level of at least $108 million for the McGovern-
Dole International Food Aid Program. The Program has included potato 
products.
                      pest and disease management
Animal and Plant Health Inspection Service (APHIS)
    Given the transfer of Agriculture Quarantine Inspection (AQI) 
personnel at U.S. ports to the Department of Homeland Security (DHS), 
it is important that certain USDA-APHIS programs be adequately funded 
to ensure progress on export petitions and protection of the U.S. 
potato growers from invasive, harmful pests and diseases. Even though 
DHS staffing has increased, agriculture priorities have not yet been 
adequately addressed.
    Golden Nematode Quarantine.--The NPC supports an appropriation of 
$1,266,000 for this quarantine which is what is believed to be 
necessary for USDA and the State of New York to assure official control 
of this pest. Failure to do so could adversely impact potato exports.
    Emerging Plant Pests.--The NPC supports at least $145 million with 
$9.5 million going to the potato cyst nematode regulatory, control and 
survey activity. The recent discovery of Golden Nematode in seed fields 
in Alberta, and possibly linked to production fields in the United 
States, has increased the scope and cost of the national survey being 
conducted by USDA. In addition, the costs of the eradication program 
have increased due to rising input costs and some expansion of target 
acres.
    Pest Detection.--The NPC supports $45 million. This is essential 
for the Plant Protection and Quarantine Service's (PPQ) efforts against 
potato pests and diseases, such as Ralstonia and the potato cyst 
nematode, and funds many cooperative pest and disease programs.
    Trade Issues Resolution Management.--The NPC supports $19 million 
but ONLY if any increase is specifically for plant protection and 
quarantine activities. These activities are of increased importance as 
new trade agreements are negotiated, the Agency must have the necessary 
staff and technology to work on plant related import/export issues and 
to resolve phytosanitary trade issues in a timely manner.
                        agricultural statistics
National Agricultural Statistics Service (NASS)
    The NPC supports an addition of $8.4 million and report language to 
assure that the potato objective yield and grade and size surveys and 
vegetable pesticide use surveys are continued. These surveys provide 
valuable data to the growers and the EPA for use in registration and 
reregistration decisions for key chemical tools. NASS has discontinued 
these chemical use surveys for fruits and vegetables.
                                 ______
                                 

    Prepared Statement of the National Fish and Wildlife Foundation

    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to submit testimony regarding fiscal year 2010 funding for 
the National Fish and Wildlife Foundation (Foundation). We appreciate 
the Subcommittee's past support and respectfully request your approval 
of $5 million through the Natural Resources Conservation Service's 
(NRCS) Conservation Operations appropriation in fiscal year 2010. This 
funding request is authorized and would allow the Foundation to expand 
our historical partnership with NRCS.
    In 2009, the Foundation is celebrating its 25th Anniversary and a 
remarkable history of bringing private partners together to leverage 
Federal funds to conserve fish, wildlife, plants and their habitats.
    The Foundation is required by law to match each federally-
appropriated dollar with a minimum of one non-Federal dollar. We 
consistently exceed this requirement by leveraging Federal funds at a 
3:1 ratio while providing thought leadership and emphasizing 
accountability, measurable results, and sustainable conservation 
outcomes. Funds appropriated by this subcommittee are fully dedicated 
to project grants and do not cover any overhead expenses of the 
Foundation.
    As of fiscal year 2008, the Foundation has awarded over 10,000 
grants to more than 3,500 national and community-based organizations 
through successful partnerships with NRCS and other Federal agencies, 
including the USDA Forest Service, U.S. Fish and Wildlife Service and 
other Department of Interior agencies, Environmental Protection Agency, 
and National Oceanic and Atmospheric Administration. This effective 
model brings together multiple Federal agencies with State and local 
government and private organizations to implement conservation 
strategies on private lands that directly benefit diverse habitats and 
a wide range of fish and wildlife species.
    During fiscal year 2000-2006, the Foundation received an average 
appropriation of $3 million annually to further the mission of NRCS 
through a matching grant program focused on private lands conservation. 
Together, NRCS and the Foundation have supported nearly 500 grants to 
conservation districts, universities, Resource Conservation and 
Development Councils, and non-profit organizations who partner with 
farmers, ranchers, and foresters to support conservation efforts on 
private land. Through these efforts, the Foundation leveraged $21 
million in NRCS funds into more than $85 million to conserve fish and 
wildlife habitat, reduce agricultural runoff, and remove invasive 
species in 50 States, the Caribbean, and the Pacific Islands. We ask 
that the subcommittee restore the NRCS appropriation for the Foundation 
in fiscal year 2010.
    This subcommittee's support is critical to our success in 
attracting additional funding for agricultural conservation through 
corporate and foundation contributions, legal settlements, and direct 
gifts. As a neutral convener, the Foundation is in a unique position to 
work with the Federal agencies, State and local government, 
corporations, foundations, conservation organizations and others to 
build strategic partnerships to address the most significant threats to 
fish and wildlife populations and their habitats. Currently, the 
Foundation has active partnerships with more than 30 corporations and 
foundations and 17 Federal agencies. The Foundation is successfully 
building bridges between the government and private sector to benefit 
NRCS's mission. Examples of those benefiting agricultural conservation 
include:
  --ArcelorMittal, the world's largest steel company, established a 
        $2.5 million partnership with the Foundation in 2008 to restore 
        wildlife habitat in the Great Lakes.
  --The Kellogg Foundation contributed $750,000 of NRCS-matching funds 
        through to support innovative and sustainable conservation 
        activities on agricultural lands.
  --Strong partnerships with Anheuser-Busch, Southern Company, and the 
        McKnight Foundation, all of whom have a special interest in 
        conserving habitat on private agricultural lands. New 
        opportunities in 2009 for agriculture-focused partnerships 
        include Syngenta and Perdue.
          implementation of strategic conservation initiatives
    It is widely known that climate change will endanger some wildlife 
populations and ecosystems more than others. In fiscal year 2008, the 
Foundation initiated grant-making through new keystone initiatives, 
which focus on select species of birds, fish and sensitive habitats. 
With support from the subcommittee in fiscal year 2010, we will 
accelerate implementation of these strategic initiatives, many of which 
seek to address the affects of climate change through wildlife and 
natural resource adaptation. To ensure success in these investments, we 
are incorporating monitoring and evaluation into the entire lifecycle 
of our strategic initiatives in order to measure progress, promote 
adaptive management, demonstrate results, and continuously learn from 
our grant-making. With our partners, the Foundation has identified 
several species and ecosystems in need of immediate conservation 
action, a few of which are described below.
    Southeastern Grasslands.--Loss of native grasslands in the 
Southeast has dramatically reduced populations of grassland birds, such 
as the Northern Bobwhite and Loggerhead Shrike. Despite intensive 
efforts to improve habitat for these species, efforts have been 
disjointed and ineffective at recovering species. The Foundation will 
work with NRCS, other Federal agencies, and corporate partners to 
facilitate ongoing and new efforts toward effective and results-
oriented grassland bird conservation. Fiscal year 2010 funding would 
support grassland restoration and management on private agricultural 
lands in the Southeast and, in turn, positively benefit wildlife 
conservation and associated recreation, erosion control and water 
quality.
    Northeastern Early Successional Forests.--The state fish and 
wildlife agencies in the Northeast have identified habitats that depend 
on disturbance as a top priority for their investments. Fiscal year 
2010 funds will strengthen the Foundation's partnership with NRCS to 
work with the States, farmers, family foresters and other landowners to 
create incentives to manage working lands that can support healthy 
wetland and forest wildlife. This includes controlling invasive 
species, using grazing as a win-win management tool, and other 
proactive efforts to keep declining species off the endangered species 
list.
    The Green River Basin of Wyoming.--Sublette County and other areas 
in the southwest corner of the State--are a major area for U.S. natural 
gas production and provide some of the highest quality sagebrush, 
riparian habitats and forest for wildlife in the west. The area also 
supports one of the strongest sage grouse populations, as well as mule 
deer, pronghorn and elk populations. Energy development impacts on 
wildlife movement and habitat are being addressed by energy companies, 
BLM and other government agencies. Our goal is to work with public and 
private partners to accelerate these efforts through several key 
strategies which include modifying fences and other barriers that 
obstruct wildlife movement, reducing road mortality along important 
migratory pathways, and protecting key parcels of private ranchland 
from development and subdivision with conservation easements.
    Sierra Nevada Alpine Wetlands.--We recognize that climate change 
will greatly exacerbate two existing water supply problems which impact 
wildlife and the public--too little water and the seasonality of 
freshwater supplies. The Foundation is working proactively with 
Federal, State and local partners to expand voluntary water transaction 
programs for private landowners and launching new initiatives to 
increase natural water storage. These efforts will benefit a diversity 
of wildlife species while improving water flows year-round for human 
use. For example, Sierra Nevada alpine wetlands, or ``wet meadows'', 
are hotspots within the Sierra Nevada ecosystem for wildlife diversity. 
Federal agencies manage about 40 percent of the area of these mountain 
ranges, but wet meadow habitat along valley bottoms is primarily 
private land. The Foundation will invest in partnerships that provide 
incentives to private landowners to conserve springs and wet meadows 
and provide artificial water sources to protect stream habitats.
    Klamath Basin.--The Foundation will be focusing on spring systems 
in the Klamath either by acquisition, easement, or voluntarily 
modifying agricultural practices as it is the soundest strategy for 
recovery of both endangered Suckers and Coho salmon. This strategy will 
provide these species and other fishes the ability to withstand climate 
change (resilience) much longer into this century. Similarly, an 
investment strategy of protecting and restoring spring systems in the 
Shenandoah River Basin will allow for the return of Eastern Brook Trout 
and 18-24 additional native species. In the Upper Colorado River Basin, 
locating areas at the warmwater-coldwater interface which contain 
Colorado Cutthroat trout and native suckers and chubs is providing the 
framework to sustain these fishes into the next century, on both public 
and private lands.
    Restored funding through NRCS in fiscal year 2010 will also support 
the Foundation's ongoing conservation grant programs including the 
Great Lakes Watershed Restoration Fund, Long Island Sound Futures Fund, 
and Chesapeake Bay Stewardship Fund. These grant programs, which 
effectively leverage funds from multiple Federal agencies and corporate 
partners, continued positive results in 2009 with priority project 
requests far exceeding available funds.
          efficiency, performance measures and accountability
    As you know, the Foundation has taken important strides to 
strengthen our performance measures and accountability. For example, 
the Foundation is working with scientists and other experts to develop 
species-specific metrics for each of our keystone initiatives that we 
will use to measure our progress in achieving our conservation 
outcomes. Our grant review and contracting processes have been improved 
to ensure we maximize efficiency while maintaining strict financial and 
evaluation-based requirements. We have enhanced our website with 
interactive tools such as webinars and a grants library to enhance the 
transparency of our grant-making, and instituted a new paperless 
application and grant administration system. In 2009, we will continue 
our efforts improve communication between and among our stakeholders 
and streamlining of our grant-making process.
    The Foundation's grant-making involves a thorough internal and 
external review process. Peer reviews involve Federal and State 
agencies, affected industry, non-profit organizations, and academics. 
Grants are also reviewed by the Foundation's issue experts, as well as 
evaluation staff, before being recommended to the Board of Directors 
for approval. In addition, according to our Congressional Charter, the 
Foundation provides a 30-day notification to the Members of Congress 
for the congressional district and state in which a grant will be 
funded, prior to making a funding decision.
    Once again, Mr. Chairman, we greatly appreciate your continued 
support and hope the subcommittee will approve funding for the 
Foundation in fiscal year 2010.
                                 ______
                                 

   Prepared Statement of the New Mexico Interstate Stream Commission

Summary
    This statement is submitted in support of appropriations for the 
U.S. Department of Agriculture's Environmental Quality Incentives 
Program (EQIP) and the Colorado River Basin Salinity Control Program. 
Prior to the enactment of the Farm Security and Rural Investment Act 
(FSRIA) in 2002, the salinity control program had not been funded at 
the level necessary to control salinity with respect to water quality 
standards since the enactment of the Federal Agriculture Improvement 
and Reform Act (FAIRA) of 1996. Inadequate funding of the salinity 
control program also negatively impacts the quality of water delivered 
to Mexico pursuant to Minute 242 of the International Boundary and 
Water Commission. Adequate funding for EQIP, from which the U.S. 
Department of Agriculture (USDA) funds the salinity program, is needed 
to implement salinity control measures. I request that the Subcommittee 
designate 2.5 percent, but no less than $20 million, of the EQIP 
appropriation for the Colorado River Basin salinity control program. I 
request that adequate funds be appropriated for technical assistance 
and education activities directed to salinity control program 
participants.
Statement
    The seven Colorado River Basin States, in response to the salinity 
issues addressed by Clean Water Act of 1972, formed the Colorado River 
Basin Salinity Control Forum (Forum). Comprised of gubernatorial 
appointees from the seven Basin States, the Forum was created to 
provide for interstate cooperation in response to the Clean Water Act, 
and to provide the States with information to comply with Sections 
303(a) and (b) of the act. The Forum has become the primary means for 
the seven Basin States to coordinate with Federal agencies and Congress 
to support the implementation of the Salinity control program.
    Congress authorized the Colorado River Basin salinity control 
program in the Colorado River Basin Salinity Control Act of 1974. 
Congress amended the act in 1984 to give new responsibilities to the 
USDA. While retaining the Department of the Interior as the lead 
coordinator for the salinity control program, the amended act 
recognized the importance of the USDA operating under its authorities 
to meet the objectives of the salinity control program. Many of the 
most cost-effective projects undertaken by the salinity control program 
to date have occurred since implementation of the USDA's authorization 
for the program. Now, Congress is considering enactment of a new Farm 
Bill to further define how the Colorado River Basin States can cost-
share in a newly designated salinity control program known as the 
``Basin States Program.''
    Bureau of Reclamation studies show that quantified damages from the 
Colorado River to United States water users are about $350,000,000 per 
year. Unquantified damages are significantly greater. Damages are 
estimated at $75,000,000 per year for every additional increase of 30 
milligrams per liter in salinity of the Colorado River. It is essential 
to the cost-effectiveness of the salinity control program that USDA 
salinity control projects be funded for timely implementation to 
protect the quality of Colorado River Basin water delivered to the 
Lower Basin States and Mexico.
    Congress concluded, with the enactment FAIRA in 1996, that the 
salinity control program could be most effectively implemented as a 
component of EQIP. However, until 2004, the salinity control program 
since the enactment of FAIRA was not funded at an adequate level to 
protect the Basin State-adopted and Environmental Protection Agency 
approved water quality standards for salinity in the Colorado River. 
Appropriations for EQIP prior to 2004 were insufficient to adequately 
control salinity impacts from water delivered to the downstream States, 
and hampered the required quality of water delivered to Mexico pursuant 
to Minute No. 242 of the International Boundary and Water Commission, 
United States and Mexico.
    EQIP subsumed the salinity control program without giving adequate 
recognition to the responsibilities of the USDA to implement salinity 
control measures per Section 202(c) of the Colorado River Basin 
Salinity Control Act. The EQIP evaluation and project ranking criteria 
target small watershed improvements which do not recognize that water 
users hundreds of miles downstream are significant beneficiaries of the 
salinity control program. Proposals for EQIP funding are ranked in the 
States of Utah, Wyoming and Colorado under the direction of the 
respective State Conservationists without consideration of those 
downstream, particularly out-of-state, benefits.
    Following recommendations of the Basin States to address the 
funding problem, the USDA's Natural Resources Conservation Service 
(NRCS) designated the Colorado River Basin an ``area of special 
interest'' including earmarked funds for the salinity control program. 
The NRCS concluded that the salinity control program is different from 
the small watershed approach of EQIP. The watershed for the salinity 
control program stretches almost 1200 miles from the headwaters of the 
river through the salt-laden soils of the Upper Basin to the river's 
termination at the Gulf of California in Mexico. NRCS is to be 
commended for its efforts to comply with the USDA's responsibilities 
under the Colorado River Basin Salinity Control Act, as amended. 
Irrigated agriculture in the Upper Basin realizes significant local 
benefits of improved irrigation practices, and agricultural producers 
have succeeded in submitting cost-effective proposals to NRCS.
    Years of inadequate Federal funding for EQIP since the 1996 
enactment of FAIRA and prior to 2004 resulted in the Forum finding that 
the salinity control program needs acceleration to maintain the water 
quality criteria of the Colorado River Water Quality Standards for 
Salinity. Since the enactment of FSRIA in 2002, an opportunity to 
adequately fund the salinity control program now exists. The requested 
funding of 2.5 percent, but no less than $20 million, of the EQIP 
funding will continue to be needed each year for at least the next few 
fiscal years.
    State and local cost-sharing is triggered by and indexed to the 
Federal appropriation. Federal funding for the NRCS salinity control 
program of about $18 million for fiscal year 2009 has generated about 
$13.8 million in cost-sharing from the Colorado River Basin States and 
agricultural producers, or more than a 75 percent match of the Federal 
funds appropriated for the fiscal year.
    USDA salinity control projects have proven to be a most cost-
effective component of the salinity control program. USDA has indicated 
that a more adequately funded EQIP program would result in more funds 
being allocated to the salinity program. The Basin States have cost-
sharing dollars available to participate in on-farm salinity control 
efforts. The agricultural producers in the Upper Basin are willing to 
cost-share their portion and are awaiting funding for their 
applications to be considered.
    The Basin States expend 40 percent of the State funds allocated for 
the program for essential NRCS technical assistance and education 
activities. Previously, the Federal part of the salinity control 
program funded through EQIP failed to adequately fund NRCS for these 
activities, which has been shown to be a severe impediment to 
accomplishing successful implementation of the salinity control 
program. Recent acknowledgement by the administration that technical 
assistance and education activities must be better funded has 
encouraged the Basin States and local producers that cost-share with 
the EQIP funding for implementation of the essential salinity control 
work. I request that adequate funds be appropriated to NRCS technical 
assistance and education activities directed to the salinity control 
program participants (producers).
    I urge the Congress to appropriate at least $1 billion in fiscal 
year 2010 for EQIP. Also, I request that Congress designate 2.5 
percent, but no less than $20 million, of the EQIP appropriation for 
the Colorado River Basin salinity control program.
                                 ______
                                 

     Prepared Statement of the Organic Farming Research Foundation

    The Organic Farming Research Foundation's funding requests for the 
fiscal year 2010 Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies Appropriations Bill are to protect 
mandatory funding and to allocate $54.7 million in discretionary funds, 
divided among agencies and programs in the following manner:
  --USDA--Cooperative State Research, Extension, and Education Service
      --Organic Agriculture Research and Extension Initiative
        Fiscal year 2009 actual: $18 million
        USDA fiscal year 2010 request: protect mandatory funding
        OFRF fiscal year 2010 request: protect mandatory funding plus 
            $5 million discretionary
      --``Organic Transitions'' Integrated Research
        Fiscal year 2009 actual: $1.8 million
        USDA fiscal year 2010 request: $1.8 million
        OFRF fiscal year 2010 request: $5 million
  --USDA--Agricultural Research Service
      --Direct Organic Projects
        Fiscal year 2009 actual: $16.9 million
        USDA fiscal year 2010: N/A
        OFRF fiscal year 2010 request: $33 million
      --Includes ``Organic Research Clearinghouse,'' National 
            Agricultural Library: $250,000
  --USDA--Agricultural Marketing Service/Economic Research Service/
        National Agricultural Statistics Service
      --Organic Production and Market Data Initiatives
        Fiscal year 2009 actual: $500,000 appropriated and $5 million 
            one-time mandatory from 2008 Farm Bill
        USDA fiscal year 2010 request: $0
        OFRF fiscal year 2010 request: $5 million
  --USDA--Agricultural Marketing Service
      --National Organic Program
        Fiscal year 2009 actual: $3.8 million
        USDA fiscal year 2010 request: $6.7 million
        OFRF fiscal yea 2010 request: $6.7 million
    Details and further information on these programs is provided 
below.
    The Organic Farming Research Foundation (OFRF) appreciates the 
opportunity to present our funding requests for the fiscal year 2010 
Agriculture, Rural Development, FDA, and Related Agencies 
Appropriations Bill. OFRF is a grower-directed, non-profit foundation 
working to foster the improvement and widespread adoption of organic 
farming systems. Organic agriculture plays an important and growing 
role in U.S. agriculture. Relatively modest investments in organic 
research and education can significantly increase the economic benefits 
and environmental services provided by organic farming systems and the 
organic products sector. As a result, we urge the Subcommittee to 
provide additional resources for organic agriculture in fiscal year 
2010.
    The Organic Farming Research Foundation appropriations requests for 
fiscal year 2010 reflect a coordinated set of activities that will 
strategically build upon the growth of organic agriculture and leverage 
the sector's role in addressing the Nation's economic, climate, and 
energy challenges. Organic agriculture continues to be a growing sector 
in U.S. agriculture, despite the economic recession. The organic 
products sector provides jobs on- and off-farm, provides increased 
marketing opportunities for farmers and processors, and meets 
widespread consumer demand for more food grown in an environmentally-
sound manner. Emerging research is showing that organic agricultural 
systems provide a comprehensive strategy for mitigating the effects of 
climate change and facilitating the adaptation to climate change. 
Organic agriculture also reduces the use of non-renewable sources of 
energy such as fossil fuels. The multiple benefits of organic 
production systems make organic agriculture an effective vehicle for 
achieving national economic and environmental goals. This growth has 
been facilitated by the Subcommittee and was supported by the 2008 Farm 
Bill.
    OFRF's recommendations emphasize research, data collection, and 
information dissemination. In our view, these are the most limiting 
factors for the growth and improvement of organic agriculture. Within 
the USDA--REE Mission Area, the support of the Subcommittee and the 
Department has been usefully tracked by the ``fair-share'' 
comparison.\1\ Currently, organic product sales are approaching 4 
percent of the domestic retail market, yet USDA-REE expenditures 
directed explicitly to research and information programs for organic 
agriculture have only just reached 2 percent of the REE Mission Area 
funding.\2\ This discrepancy is detrimental to an industry that relies 
intensively on management and information for its success. By providing 
modest increases as outlined below, the Subcommittee can help meet the 
``fair-share'' benchmark for organic research and promote the multiple 
public benefits that organic farming can provide.
---------------------------------------------------------------------------
    \1\ The fair-share benchmark compares the U.S. retail market share 
of organic products to the percentage of USDA-REE spending on 
activities explicitly directed towards organic farming and food.
    \2\ OFRF estimates total fiscal year 2009 organic REE spending at 
$48 million, out of approximately $2.4 billion for the REE Mission 
Area. This includes: OREI ($18 million), ORG ($1.8 million), ARS 
direct-organic ($16.9 million), ODI ($5 million), other CSREES grants 
($6 million).
---------------------------------------------------------------------------
   usda--cooperative state research, extension, and education service
Organic Agriculture Research and Extension Initiative (OREI) \3\
            OFRF Fiscal Year 2010 Request: $25 million (protect 
                    mandatory funding plus $5 million discretionary)
    OREI is USDA's premier competitive research and education grant 
program specifically dedicated to the investigation of organic 
agriculture. Due to its success with very modest funding, the program 
received an increase in mandatory funding in the 2008 Farm Bill. 
Despite this increase, the program remains heavily oversubscribed. For 
the fiscal year 2009 allocation of $18 million, the program received 
applications totaling over $98 million. Increasing organic research 
capacities within the land grant university system and elsewhere are 
reflected in this trend.
---------------------------------------------------------------------------
    \3\ The Organic Agriculture Research and Extension Initiative 
(OREI) is authorized by Section 1672B of the Food, Agriculture, 
Conservation, and Trade Act of 1990 (7 U.S.C. 5925b) as amended by 
Section 7206 of the Food, Conservation, and Energy Act of 2008.
---------------------------------------------------------------------------
    The 2008 Farm Bill allocates mandatory funding of $20 million to 
OREI for fiscal year 2010. The legislation also recognizes the need for 
further increases to reach the full potential of this program and 
authorizes discretionary funding of up to $25 million annually. In 
addition to protecting the full mandatory allocation, OFRF recommends 
appropriating $5 million of the discretionary authority in fiscal year 
2010. This modest additional increase would continue making progress 
towards the fair-share benchmark of USDA research and education for 
organic agriculture and respond to the strong demand and increased 
capacity for the program's outcomes.
``Organic Transitions'' Integrated Research (ORG) \4\
            OFRF Fiscal Year 2010 Request: $5 million
    ORG is the older and smaller of two USDA competitive grant programs 
dedicated to organic research and education. From 2003 to 2008, it was 
administered together with OREI. Starting in fiscal year 2009, USDA-
CSREES is instead combining the program with the 406 Integrated Water 
Quality research program. The newly combined program will fund multi-
year projects that examine the effects of organic production systems on 
water quality. This approach provides a ``specialized'' complement to 
the general purposes of OREI, and OFRF supports this move by the 
agency. At current funding levels,\5\ this program can only fund a 
small number of serious investigations. Our request of $5 million for 
fiscal year 2010 seeks to enable a higher level of program performance 
and help reach the overall organic fair-share benchmark.
---------------------------------------------------------------------------
    \4\  ``Organic Transitions'' Integrated Research (ORG) is 
authorized by Section 406 of the Agricultural Research, Extension, and 
Education Reform Act of 1998 (AREERA) (7 U.S.C. 7626).
    \5\ $1,8 million for fiscal year 2009.
---------------------------------------------------------------------------
                  usda--agricultural research service
Direct Organic Projects
            OFRF Fiscal Year 2010 Request: $33 million (``fair share'' 
                    for ARS organic research)
    USDA--Agricultural Research Service has an organic research 
portfolio and a strategic plan for further organic research activities. 
The current funding for direct organic projects is $16.9 million, about 
1.5 percent of the total ARS budget.\6\ We are urging growth of the 
agency's direct organic activity to reach an ARS fair-share objective 
of $33 million. The increase should be pointed towards full 
implementation of the ARS Organic Research Action Plan.\7\
---------------------------------------------------------------------------
    \6\ Communications from ARS national program staff, April 29, 2009. 
A larger total is reported to Congress, combining ``direct organic'' 
projects with ``indirect organic'' projects, as determined by ARS 
staff.
    \7\ Organic Research Action Plan: http://www.ars.usda.gov/
SP2UserFiles/Program/216/OrganicResearchActPlan.pdf.
---------------------------------------------------------------------------
    We ask that $250,000 be directed at funding the National 
Agricultural Library's Alternative Farming Systems Information Center 
(NAL-AFSIC). As organic results proliferate, dissemination of 
information becomes a critical limiting factor for the overall goals of 
widespread adoption. The NAL-AFSIC program is well positioned to lead 
the dissemination function within USDA. OFRF estimates that maintenance 
and outreach for a national ``clearinghouse'' for organic agriculture, 
``enthusiastically'' supported by USDA's National Research Advisory 
Board,\8\ will require an ongoing annual budget allocation of $250,000.
---------------------------------------------------------------------------
    \8\ ``Report and Recommendations from a Focus Session on Organic 
Agriculture Conducted at the Advisory Board Meeting held in Washington, 
D.C. on October 29-31, 2007.'' Page 4. National Agricultural Research, 
Extension, Education, and Economics Advisory Board. Transmitted to the 
Secretary of Agriculture and the House and Senate Committees on 
Appropriations, and Agriculture, March 5, 2008.
---------------------------------------------------------------------------
usda--agricultural marketing service/economic research service/national 
                    agricultural statistics service
Organic Production and Market Data Initiatives (ODI) \9\
            OFRF Fiscal Year 2010 Request: $5 million ($3 million for 
                    AMS, $1.5 million for ERS, and $0.5 million for 
                    NASS)
    Data on prices, yields, and markets are vital to farmers for 
production planning, market development, risk management, and obtaining 
financial credit. The organic sector is still without vital 
comprehensive data on par with what USDA provides for conventional 
agriculture, putting organic farmers at a significant disadvantage. The 
absence of marketing and production data specific to organic 
agriculture inhibits organic producers and handlers, and limits the 
effectiveness of policies enacted to facilitate the public benefits of 
organic agriculture.
---------------------------------------------------------------------------
    \9\ The Organic Market and Production Data Initiatives is 
authorized by Section 7407 of the Farm Security and Rural Investment 
Act of 2002 as amended by Section 10302 of the Food, Conservation, and 
Energy Act of 2008.
---------------------------------------------------------------------------
    The Subcommittee has supported the initial 2002 authorization with 
$500,000 from 2004 through 2009. These appropriations enabled a minimal 
baseline effort for general measurements of the organic sector. The 
2008 Farm Bill provided $5 million in mandatory funds to jumpstart the 
combined data collection initiatives at AMS, ERS, and NASS. Those funds 
have already been spent on a variety of efforts at each of the 
agencies,\11\ including the development of a first-ever survey of 
organic agriculture by NASS to be released in early May 2009.
---------------------------------------------------------------------------
    \11\  For an update on the use of the funds, see ``U.S. Department 
of Agriculture Report to Congress: Status of Organic Production and 
Market Data Activities As Required by the 2008 Farm Bill.'' December 
2008.
---------------------------------------------------------------------------
    Activities of AMS, ERS, and NASS require continued full support to 
build upon the previous investments. AMS has planned further 
enhancement of organic reporting and the development of additional 
organic market information tools. NASS is releasing its first-ever 
organic agriculture production survey in May, and will need funds to 
continue its data collection efforts. ERS will use additional targeted 
funds to continue expanding the agency's overall program of research 
and analysis of organic agriculture, and will work jointly with NASS to 
analyze the data from the organic production survey.
    The 2008 Farm Bill provided additional authority up to $5 million 
annually for ODI. We are asking the Subcommittee to exercise its full 
authority and allocate $5 million for fiscal year 2010 to organic data 
collection, distributed among the three agencies leading this 
initiative. We anticipate that the President's budget will recommend a 
similar allocation and agency distribution.
            USDA--Agricultural Marketing Service
National Organic Program (NOP)
            OFRF Fiscal Year 2010 Request: $6.7 million
    NOP (including the National Organic Standards Board, organic 
standards setting, certifier accreditation and enforcement) received an 
increased authorization for appropriations in the 2008 Farm Bill. $8 
million is the authorization level for fiscal year 2010. NOP has a 
large and growing number of important backlogged tasks. We support the 
President's fiscal year 2010 request for $6.7 million.
    The Organic Farming Research Foundation thanks the Subcommittee for 
the opportunity to submit our requests. We ask the Subcommittee to 
provide funds to close the gap in research and education funding for 
organic agriculture, for the continued improvement and expansion of 
organic farming systems.
    Disclosure.--Organic Farming Research Foundation was a 
subcontractor for a grant awarded by the USDA-CSREES Integrated Organic 
Program. Grant# 2207-01384. ``Midwest Organic Research Symposium.''
                                 ______
                                 

     Prepared Statement of the Society for Women's Health Research

    On the behalf of the Society for Women's Health Research and the 
Women's Health Research Coalition, we are pleased to submit testimony 
in support of increased funding for the Food and Drug Administration 
(FDA), and more specifically for the Office of Women's Health (OWH), a 
critical focal point on women's health within the Agency.
    The Society for Women's Health Research is the Nation's only non-
profit organization whose mission is to improve the health of all women 
through advocacy, research, and education. Founded in 1990, the Society 
brought to national attention the need for the appropriate inclusion of 
women in major medical research studies and the need for more 
information about conditions affecting women exclusively, 
disproportionately, or differently than men. The Society advocates 
increased funding for research on women's health; encourages the study 
of sex differences that may affect the prevention, diagnosis and 
treatment of disease; promotes the inclusion of women in medical 
research studies; and informs women, providers, policy makers and media 
about contemporary women's health issues.
    In 1999, the Women's Health Research Coalition was established by 
the Society to give a voice to scientists and researchers from across 
the country that are concerned and committed to improving women's 
health research. The Coalition now has more than 650 members, including 
leaders within the scientific community and medical researchers from 
many of the country's leading universities and medical centers, as well 
as leading voluntary health associations, and pharmaceutical and 
biotechnology companies.
    The Society and the Coalition are committed to advancing the health 
status of women through the discovery of new and useful scientific 
knowledge. We strongly believe that appropriate funding of the FDA by 
Congress is critical for the Agency to function and to assure the 
American public of the safety of its food and drugs. However, as has 
been well documented, currently the FDA is endeavoring to catch up 
after years of flat funding to meet the needs of scientific growth, 
innovation and development, and adequate food and drug protection. 
Further, FDA is struggling to catch up to present-day needs in the area 
of information technology (IT).
    Last year the FDA was awarded a $325 million increase to assist in 
revamping the Agency, as well as a one time investment of $150 million 
in supplemental funding. This influx of funds was meant to address 
years of chronic under-funding; however, the Agency needs a continuous 
stream of funding to address the myriad of infrastructure, resources 
and IT issues resulting from the budget shortages it has faced in the 
past decade.
    The Society urges Congress to provide the FDA with an increase of 
$386 million, bringing the FDA's fiscal year 2010 budget to $2.425 
billion. This funding increase will allow the FDA to continue 
rebuilding its infrastructure and addressing the shortage of resources 
was well as install IT systems that match the needs of the industries 
it is regulating and expectations of the American public.
    Another important investment that must be taken into account at the 
FDA is the Office of Women's Health (OWH). OWH's women's health 
programs, often conducted with the Agency centers, are vital to 
maintaining focus on women's health within the FDA. They are critical 
to improved care and increased awareness of disease-specific impacts to 
women. For example, OWH ensures that sex and gender differences in the 
efficacy of drugs (such as metabolism rates), devices (sizes and 
functionality) and diagnostics are taken into consideration in reviews. 
To address OWH's growing list of priorities, the Society recommends 
that Congress support a $7 million budget for OWH for fiscal year 2010 
within the budget for the FDA. In addition, we further recommend that 
the current budget levels not only increase in the future, but should 
never be less than the $6 million that the office currently receives.
                   fda information technology systems
    The FDA is tasked with guarding the safety, efficacy, and security 
of human drugs, biological products, and medical devices. However, as 
was stated by the Science Board Report, requested by former 
Commissioner von Eschenbach, FDA's IT systems were inefficient and 
incapable of handling the current demands placed on the Agency, thus 
preventing the FDA from fulfilling its mission. Equipment is outdated, 
often unsupported by maintenance, and regularly breaks down. FDA's IT 
system, a system which needs to function 24/7, simply cannot keep up 
with current scientific data and market trends. This will only continue 
to worsen as servers' age beyond usefulness, and serviceability and 
email networks fail multiple times per day.
    Additionally, the new Obama Administration is seeking to pass an 
overhaul of the Nation's healthcare system. This reform is likely to 
include further advances to electronic health records and other IT 
innovations which will place an even greater burden on the FDA, among 
other agencies, to function within those advanced IT systems and 
networks.
    The antiquated nature of the IT systems also makes the agency 
unable to conduct safety analyses for product marketing applications, 
track the natural history and disease models for rare disorders, and 
access huge amounts of clinical data. The creation of a central 
database must happen to provide for a system query to a centralized 
repository for all relevant facts about a certain product including 
where, when and how the product was made. Such a uniform centralized 
database will be relevant for all information stored across agencies, 
so as to maximize functionality not only of FDA's data but of expected 
research and analysis needed by the American public.
    Currently, the FDA receives large volumes of information in 
applications from drug manufacturers for review and evaluation. FDA 
reviewers must manually comb through the submitted drug trial reports 
and digital data in as many as twelve formats to evaluate a new drug's 
safety and effectiveness. Frequently reviewers must handpick data 
manually from stacks of paper reports and craft their own data 
comparisons. This process is time consuming, makes the review process 
less efficient, and is error-prone and delays access to important 
information. Scientific and medical advances are occurring rapidly and 
the public needs and deserves access to the most recent and accurate 
information regarding their health. It is time Congress recognize that 
the Agency must utilize up-to-date information technology and that it 
sorely needs the resources to maintain them.
    The Society believes that the Agency and/or the FDA's Office of 
Women's Health should be able to track women or men and other 
subpopulations in all clinical trials before them and they are 
currently not able to do so. The FDA should be able to know how many 
women are in studies (both by recruitment and retention rates). This 
should be an immediate goal of any new IT system upgrade at the Agency 
in conjunction with the adoption of uniform data standards from which 
to pull the data and as part of the shift to an automated, electronic 
filing system.
    Estimations have shown that it would take $200 million ($40 
million/year) over the course of 5 years to begin the process of 
improving the IT system. Congress must address past shortfalls to FDA 
and provide it a $386 million increase to begin IT transformation and 
many other improvements.
                        office of women's health
    OWH at the FDA, established in 1994, plays a critical role in 
women's health, both within and outside the Agency, supporting sex- and 
gender-based research, areas in which the Society has long been a 
proponent. OWH provides scientific and policy expertise on sex and 
gender sensitive regulatory and oversight issues; endeavors to correct 
sex and gender disparities in the areas for which the FDA is 
responsible--drugs, devices, and biologics; and monitors women's health 
priorities, providing both leadership and an integrated approach across 
the FDA. Despite inadequate funding, OWH provides all women with 
invaluable tools for their health.
    Each year OWH, with little difficulty, exhausts its tiny budget. 
OWH's pamphlets are the most requested of any documents at the 
government printing facility in New Mexico. Last year more than 5.6 
million pamphlets are distributed to women across the Nation including 
target populations such as Hispanic communities, seniors and low-income 
citizens. Further, the Office attends over 125 meetings per year to 
exhibit, to present scientific posters and oral presentations, and to 
chair sessions. Despite its $1 million increase the office received 
last year, additional funding is needed so OWH may continue its present 
work on current projects, but expand and develop future projects.
    It is absolutely critical for Congress to take action now to help 
preserve the vital functions of OWH and to ensure that its small budget 
is dedicated to the resource needs of the office and to the projects 
and programs and research it funds.
    Since its beginning, OWH has funded high quality scientific 
research to serve as the foundation for Agency activities that improve 
women's health. To date, OWH has funded over 100 research projects with 
approximately $19.9 million intramural grants, supporting projects 
within the FDA that address knowledge gaps or set new directions for 
sex and gender research. Extramural contracts leverage a wealth of 
expertise and other resources outside the FDA to provide insight on 
regulatory questions pertinent to women's health. All contracts and 
grants are awarded through a competitive process. A large number of 
these studies are published and appear in peer reviewed journals.
    As part of its educational outreach efforts to consumers, OWH works 
closely with women's advocacy and health professional organizations to 
provide clarity on the results of the Women's Health Initiative. Due to 
OWH efforts, an informational fact sheet about menopause and hormones 
and a purse-sized questionnaire to review with the doctor were 
distributed to national and local print, radio, and Internet 
advertisements. OWH's website, to date, has received over 3 million 
hits to download campaign materials.
    Further, OWH's website serves as a vital tool for consumers and is 
constantly updated to include new and important health information. The 
website provides free, downloadable fact sheets on over 40 different 
illnesses, diseases, and health related issues. Recently OWH has 
completed medication charts on seven chronic diseases, which are unique 
within the Agency. These charts list all the medications that are 
prescribed and available for each disease. This information is ideal 
for women to use in talking to their doctors, pharmacists or nurses 
about their treatment options.
    OWH continues to improve the health of women through new research 
initiatives. Most recently, they have collaborated with Pharmacy 
Choice, Inc. to create a web portal solely dedicated to FDA consumer 
health education materials, providing access to fact sheets and 
medication guides.
OWH and Sex Differences Research
    Scientists have long known of the anatomical differences between 
men and women, but only within the past decade have they begun to 
uncover significant biological and physiological differences. Sex 
differences have been found everywhere from the composition of bone 
matter and the experience of pain, to the metabolism of certain drugs 
and the rate of neurotransmitter synthesis in the brain. Sex-based 
biology, the study of biological and physiological differences between 
men and women, has revolutionized the way that the scientific community 
views the sexes, with even more information is forthcoming as a result 
of the sequencing of the X chromosome. The evidence is overwhelming, 
and as researchers continue to find more and complex biological 
differences, they gain a greater understanding of the biological and 
physiological composition of both sexes.
    Much of what is known about sex differences is the result of 
observational studies, or is descriptive evidence from studies that 
were not designed to obtain a careful comparison between females and 
males. The Society has long recognized that the inclusion of women in 
study populations by itself was insufficient to address the inequities 
in our knowledge of human biology and medicine, and that only by the 
careful study of sex differences at all levels, from genes to behavior, 
would science achieve the goal of optimal health care for both men and 
women. Many sex differences are already present at birth, whereas 
others develop later in life. These differences play an important role 
in disease susceptibility, prevalence, time of onset and severity and 
are evident in cancer, obesity, heart disease, immune dysfunction, 
mental health disorders, and other illnesses. Physiological and 
hormonal fluctuations may also play a role in the rate of drug 
metabolism and effectiveness of response in females and males. This 
research is supported and encouraged by the Office of Women's Health 
within the Agency. OWH directly works with the various centers to 
advance the science in this area, collaborating on programs, projects, 
and research.
    Building upon sex differences research, the Society encourages the 
establishment of drug-labeling requirements that ensure labels include 
language about differences experienced by women and men. Furthermore, 
we advocate for research on the comparative effectiveness of drugs with 
specific emphasis on data analysis by sex. When available, this 
information should be on labels.
    Our country's drug development process has succeeded in delivering 
new and better medications to ensure the health of both women and men. 
However, the requirement that the data acquired during research of a 
new drug's safety and effectiveness be analyzed as a function of sex or 
that information about the ways drugs may differ in various populations 
(e.g., women requiring a lower dosage because of different rates of 
absorption or chemical breakdown) be included in prescription drug 
labels and other patient educational and instructional materials is 
generally not enforced.
    The Society believes the opportunity to present this information to 
consumers is now. Sex differences data discovered from clinical trials 
can be directly related to the medical community and to consumers 
through drug labeling and packaging inserts and other forms of alerts. 
As part of advancing the need to analyze and report sex differences, 
the Society encourages the FDA to continue adequately addressing the 
need for accurate drug labeling in order to identify important sex and 
gender differences, as well as to ensure that appropriate data analysis 
of post-market surveillance reporting for these differences is placed 
in the hands of physicians and ultimately the patient.
    In conclusion, Mr. Chairman, we thank you and this Committee for 
its strong record of support for the FDA and women's health and your 
commitment to OWH. We recommend that you increase the overall fiscal 
year 2010 budget for the FDA by $386 million, so that it may 
dramatically improve upon current operations while also rebuilding its 
IT infrastructure. Secondly, we urge you to allocate $7 million for the 
Office of Women's Health for fiscal year 2010, and to ensure that 
future budget appropriations for the OWH are never below current 
funding levels. We look forward to continuing to work with you to build 
a stronger and healthier future for all Americans.
                                 ______
                                 

     Prepared Statement of The Humane Society of the United States

    As the largest animal protection organization in the country, we 
appreciate the opportunity to provide testimony to your subcommittee on 
fiscal year 2010 items of great importance to The Humane Society of the 
United States (HSUS) and its 11 million supporters nationwide. In this 
testimony, we request the following amounts for the following USDA 
accounts:
  --FSIS/Humane Methods of Slaughter Act Enforcement--funding and 
        language to improve enforcement (defer to subcommittee 
        expertise for specific funding level)
  --FSIS/Horse Slaughter--language mirroring fiscal year 2009 omnibus 
        provision
  --APHIS/Horse Protection Act Enforcement--at least $1 million
  --APHIS/Animal Welfare Act Enforcement--$22,275,270
  --APHIS/Investigative and Enforcement Services--$14,036,350
  --OIG/including Animal Fighting Enforcement--$87,910,150
  --CSREES/Veterinary Student Loan Forgiveness--$5,000,000
  --APHIS/Emergency Management Systems/Disaster Planning for Animals--
        $1,001,000
  --NAL/Animal Welfare Information Center--$1,978,400
                   enforcement of animal welfare laws
    We thank you for your outstanding support during recent years for 
improved enforcement by USDA of key animal welfare laws and we urge you 
to sustain this effort in fiscal year 2010. Your leadership is making a 
great difference in helping to protect the welfare of millions of 
animals across the country. As you know, better enforcement will also 
benefit people by helping to prevent: (1) food safety risks to 
consumers from sick animals who can transmit illness, and injuries to 
slaughterhouse workers from suffering animals; (2) orchestrated 
dogfights and cockfights that often involve illegal gambling, drug 
trafficking, and human violence, and can contribute to the spread of 
costly illnesses such as bird flu; (3) the sale of unhealthy pets by 
commercial breeders, commonly referred to as ``puppy mills''; (4) 
laboratory conditions that may impair the scientific integrity of 
animal-based research; (5) risks of disease transmission from, and 
dangerous encounters with, wild animals in or during public exhibition; 
and (6) injuries and deaths of pets on commercial airline flights due 
to mishandling and exposure to adverse environmental conditions. In 
order to continue the important work made possible by the Committee's 
prior support, we request the following for fiscal year 2010:
  food safety and inspection service/humane methods of slaughter act 
                              enforcement
    We Request Funding and Language to Ensure Strengthened HMSA 
Enforcement.--We greatly appreciated the Committee's inclusion of 
language calling on USDA to immediately close the downed cattle 
loophole, language that was indeed effective, as President Obama 
announced USDA's new no-downed cattle rule just three days after he 
signed the omnibus into law. We also greatly appreciated the 
Committee's inclusion of a $2 million increase in fiscal year 2009 to 
begin to address severe shortfalls in the agency's oversight of humane 
handling rules for animals at slaughter facilities, oversight that is 
important not only for animal welfare but also for food safety. This 
problem came sharply into focus last year when egregious abuse of 
cattle was revealed from a 6-week hidden camera investigation of a 
plant--which happened to be the #2 beef supplier to the National School 
Lunch Program and had been honored by USDA as ``Supplier of the Year'' 
for the 2004-2005 academic year--leading to the nation's largest meat 
recall in history. In that case, the blatant and recurrent violations 
of food safety and humane rules were not reported by 5 USDA inspection 
personnel at the plant. Subsequent undercover investigations showed the 
mistreatment was not an isolated case, and a USDA Inspector General's 
audit identified several serious, continuing weaknesses in the 
inspection regime. We request funding and language to ensure that 
inspectors are continually observing live animals as they arrive and 
are offloaded and handled in pens, chutes, and stunning areas, and that 
USDA officials are taking strong action to avert violations of the 
Humane Methods of Slaughter Act and the ban on slaughter of cattle too 
sick or injured to stand and walk. We urge the Committee to make this a 
high priority in order to better protect consumers and animals.
    Specifically, we recommend a combination of measures to ensure 
meaningful compliance. More inspectors observing live animals are 
needed, and all inspectors should be trained and directed to monitor 
the treatment of live animals to ensure that they are handled humanely. 
Inspectors must understand that their oversight responsibilities begin 
at the moment animals arrive at slaughter premises, including when the 
animals are on trucks at slaughter facilities. An inspector should meet 
each truck when it arrives on the premises and should order the 
immediate humane euthanasia and condemnation of any cattle who are non-
ambulatory. Egregious conduct such as forcefully striking an animal 
with an object, dragging an animal, ramming or otherwise attempting to 
move an animal with heavy machinery, or using electric shock, water 
pressure, or other extreme methods should be explicitly prohibited and 
those policies established in a formal rule to take effect immediately. 
Inspections should be unannounced and not on a predictable schedule. 
Oversight could be enhanced with video surveillance, accessible for 
viewing by independent third parties, but this should complement, not 
be a substitute for, improved inspections. Inspectors must be 
encouraged to report violations, rather than being discouraged from and 
even reprimanded for doing so by their superiors. Egregious humane 
handling violations must be noted through Noncompliance Reports and not 
just through Memoranda of Interview, so that documentation of these 
serious violations will be accessible through the PBIS system to other 
inspectors, USDA's Office of Food Safety, Congress, and the public. 
Penalties should be more meaningful, particularly for repeat or 
egregious violations of humane handling standards. It would be helpful 
to rotate inspectors to ensure that they do not become too close with 
plant personnel, and undercover investigations by USDA personnel, under 
the OIG or otherwise, would bolster deterrence.
                            horse slaughter
    We Request Inclusion of Language Barring USDA From the Expenditure 
of Funds for Horse Slaughter Inspection.--Such language has been 
included in past years and has been vital to prevent renewed horse 
slaughter activity in this country.
                 aphis/horse protection act enforcement
    We Request at Least $1 Million for Strengthened Enforcement of the 
Horse Protection Act.--Congress enacted the Horse Protection Act (HPA) 
in 1970 to end the cruelty and abuse of ``soring''--a practice in which 
unscrupulous trainers use a variety of methods to inflict pain on 
sensitive areas of Tennessee Walking Horses' feet and legs in an effort 
to exaggerate their high-stepping gait and gain an unfair competitive 
advantage at industry horse shows. For example, caustic chemicals--such 
as mustard oil, diesel fuel, kerosene, and industrial cleaners--are 
painted on the lower front legs of a horse. Then, the horse's legs are 
wrapped in plastic wrap and tight bandages to ``cook'' the chemicals 
deep into the horse's flesh. Sored horses are often left standing in 
their stalls for days with their legs coated and wrapped. This makes 
the horse's legs extremely painful and sensitive, and can result in 
permanent damage or even death in some cases. It is not uncommon to see 
sored horses lying down in their stalls, moaning in pain. When ridden, 
the horse is fitted with chains that slide up and down the horse's sore 
legs, forcing him to produce an exaggerated, high-stepping gait in the 
show ring. In addition, other chemicals such as salicylic acid are used 
to slough off the scarred tissue and granulomas in an attempt to 
disguise the sored areas, a practice that is equally painful and cruel 
to these horses. When shown, some Tennessee Walking horses are fitted 
with heavy stacked shoes. Another particularly egregious form of 
soring--known as pressure shoeing--involves cutting a horse's hoof 
almost to the quick, paring it down to the sensitive live tissue and 
causing an extreme amount of pain every time the horse bears weight on 
the hoof. To further increase the pain in the horse's feet, foreign 
objects such as metal screws or acrylic are often inserted between the 
stacks and the horse's hoof.
    Though soring has been illegal for almost 40 years, this cruel 
practice continues unabated by the well-intentioned but seriously 
understaffed APHIS inspection program. The most effective way to meet 
the goal of the Horse Protection Act is to have Animal Care inspectors 
present at the shows. Exhibitors who sore their horses go to great 
lengths to avoid detection, including fleeing a show when USDA 
inspectors arrive. Unfortunately, given an enforcement budget that has 
remained static at around $500,000 since 1976, Animal Care is able to 
attend only about 6 percent of the more than 500 Tennessee Walking 
Horse shows held annually. Funding of at least $1 million in fiscal 
year 2010 will begin to address the need for additional inspectors, 
training, security (to address threats of violence against inspectors), 
and advanced detection equipment (thermography and gas chromatography/
mass spectrometry machines) to give agency officials the tools they 
need to meaningfully enforce this law as Congress intended.
                  aphis/animal welfare act enforcement
    We Request $22,275,270 (Near Level Funding) for AWA Enforcement 
Under the Animal and Plant Health Inspection Service (APHIS).--We 
commend the Committee for responding in recent years to the urgent need 
for increased funding for the Animal Care division to improve its 
inspections of almost 16,000 sites, including commercial breeding 
facilities, laboratories, zoos, circuses, and airlines, to ensure 
compliance with AWA standards. As part of the 2008 Farm Bill, Congress 
established a new responsibility for this division--to enforce a ban on 
imports from foreign puppy mills where puppies are mass produced under 
inhumane conditions and then forced to endure harsh long-distance 
transport, so that many arrive ill or dead or die soon after being sold 
to an American family. Animal Care currently has 111 inspectors (with 5 
vacancies in the process of being filled), compared to 64 inspectors at 
the end of the 1990s. An appropriation at the requested level would 
maintain fiscal year 2009 funding with a modest increase to cover pay 
costs and additional responsibilities associated with the new import 
ban and the increasing number of licensed/registered facilities.
              aphis/investigative and enforcement services
    We Request $14,036,350 (Near Level Funding) for APHIS Investigative 
and Enforcement Services (IES).--We appreciate the Committee's 
consistent support for this division, which handles many important 
responsibilities, including the investigation of alleged violations of 
Federal animal welfare laws and the initiation of appropriate 
enforcement actions. The volume of animal welfare cases is rising 
significantly as new facilities become licensed and registered. An 
appropriation at the requested level would maintain fiscal year 2009 
funding with a modest increase to cover pay costs.
        office of inspector general/animal fighting enforcement
    We Request $87,910,150 (Near Level Funding) for the Office of 
Inspector General (OIG) to Maintain Staff, Improve Effectiveness, and 
Allow Investigations in Various Areas, Including Enforcement of Animal 
Fighting Laws.--We appreciate the Committee's inclusion of funding and 
language in recent years for USDA's OIG to focus on animal fighting 
cases. Congress first prohibited most interstate and foreign commerce 
of animals for fighting in 1976, tightened loopholes in the law in 
2002, established felony penalties in 2007, and further strengthened 
the law as part of the 2008 Farm Bill, in the wake of the high-profile 
Michael Vick dogfighting case. We are pleased that USDA is taking 
seriously its responsibility to enforce this law, working with State 
and local agencies to complement their efforts and address these 
barbaric practices, in which animals are drugged to heighten their 
aggression and forced to keep fighting even after they've suffered 
grievous injuries. Dogs bred and trained to fight endanger public 
safety, and some dogfighters steal pets to use as bait for training 
their dogs. Cockfighting was linked to an outbreak of Exotic Newcastle 
Disease in 2002-2003 that cost taxpayers more than $200 million to 
contain. It's also been linked to the death of a number of people in 
Asia reportedly exposed through cockfighting activity to bird flu. 
Given the potential for further costly disease transmission, as well as 
the animal cruelty involved, we believe it is a sound investment for 
the Federal government to increase its efforts to combat illegal animal 
fighting activity. We also support the OIG's auditing and investigative 
work to improve compliance with the humane slaughter law and downed 
animal rules and the Horse Protection Act.
cooperative state research, education, and extension service/veterinary 
                        student loan forgiveness
    We Request $5,000,000 to Continue the Implementation of the 
National Veterinary Medical Service Act (Public Law 108-161), 
Specifically Authorized in 2003.--This program received $2,950,000 in 
fiscal year 2009, and was projected to need $5,000,000 in its third 
year under the CBO score accompanying authorization. We appreciate that 
Congress is working to address the critical shortage of veterinarians 
practicing in rural and inner-city areas, as well as in government 
positions at FSIS and APHIS. A 2009 Government Accountability Office 
report enumerating the challenges facing veterinary medicine identified 
that an inadequate number of veterinarians to meet national needs is 
among the foremost challenges. A 2006 study demonstrated the acute and 
worsening shortage of veterinarians working in rural farm animal 
practice, while domestic pets in both rural and urban areas are often 
left without necessary medical care. Having adequate veterinary care is 
a core animal welfare concern. To ensure adequate oversight of humane 
handling and food safety rules, FSIS must be able to fill vacancies in 
inspector positions. Veterinarians also support our nation's defense 
against bioterrorism (the Centers for Disease Control estimate that 75 
percent of potential bioterrorism agents are zoonotic--transmitted from 
animals to humans). They are also on the front lines addressing public 
health problems such as those associated with pet overpopulation, 
parasites, rabies, chronic wasting disease, and bovine spongiform 
encephalopathy (``mad cow'' disease). Veterinary school graduates face 
a crushing debt burden of $120,000 on average, with an average starting 
salary of $61,000. For those who choose employment in underserved rural 
or inner-city areas or public health practice, the National Veterinary 
Medical Service Act authorizes the Secretary of Agriculture to forgive 
student debt. It also authorizes financial assistance for those who 
provide services during Federal emergency situations such as disease 
outbreaks.
   aphis/emergency management systems /disaster planning for animals
    We Request $1,001,000 (Level Funding) for Animal Care Under APHIS' 
Emergency Management Systems Line Item.--Hurricanes Katrina and Rita 
demonstrated that many people refuse to evacuate if they are forced to 
leave their pets behind. The Animal Care division has been asked to 
develop infrastructure to help prepare for and respond to animal issues 
in a disaster and incorporate lessons learned from previous disasters. 
These funds will be used for staff time and resources to support State 
and local governments' and humane organizations' efforts to plan for 
protection of people with animals. The additional resources will enable 
the agency to participate, in partnership with FEMA, in the National 
Response Plan without jeopardizing other Animal Care programs.
                   animal welfare information center
    We Request $1,978,400 for AWIC.--These funds will enable AWIC to 
improve its services as a clearinghouse, training center, and 
educational resource to help institutions using animals in research, 
testing and teaching comply with the requirements of the Animal Welfare 
Act, including consideration of alternatives to minimize or eliminate 
the use of animals in specific research protocols.
    Again, we appreciate the opportunity to share our views and 
priorities for the Agriculture, Rural Development, FDA, and Related 
Agencies Appropriation Act of fiscal year 2010. We are grateful for the 
Committee's past support, and hope you will be able to accommodate 
these modest requests to address some very pressing problems affecting 
millions of animals in the United States. Thank you for your 
consideration.
                                 ______
                                 

                 Prepared Statement of WhiteWave Foods

    My name is Kelly Shea, and I thank you for the opportunity to 
testify on behalf of WhiteWave Foods regarding the growth of the 
organic industry and our support for the U.S. Department of Agriculture 
National Organic Program. Specifically, we support providing the 
Program with $8 million as authorized by Congress.
    Headquartered in Broomfield, Colorado, WhiteWave Foods, a growing 
subsidiary of Dean Foods, is the home of several pioneer organic 
brands, including Horizon Organic, The Organic Cow, and Silk Soymilk. 
As the organic industry evolves, we continue to lead with insight, 
integrity, and an unwavering commitment to organic principles. With 
this in mind, we are strongly supportive of efforts to ensure the 
continued growth of the organic sector by providing additional funding 
for the U.S. Department of Agriculture (USDA) National Organic Program.
    The National Organic Program (NOP) is rapidly outgrowing its 
present resource capacity. With retail sales at $24 billion and 
continuing to grow, certified operations in excess of 26,000, and 98 
accredited certifying agents operating globally, the current NOP budget 
continually struggles to keep up with growing demands.
    Consumer confidence is the key to growth in the organic market. 
Ensuring continued consumer confidence requires consistent and adequate 
enforcement of the organic rule to ensure the integrity of the USDA 
organic seal. Therefore, adequate funding is required to enable the NOP 
to hire additional staff and continue to do a credible job of re-
accreditation and investigating non-compliances. Additional resources 
are needed for both addressing gaps in the regulations and increasing 
compliance and enforcement activity. The long run objective is to 
maintain the integrity of the USDA organic seal for consumers who are 
willing to purchase organic products, produced according to a set of 
sustainable practices voluntarily subscribed to by producers and 
processors, based on legislation and regulations they initiated nearly 
two decades ago.
    The baseline for the NOP for the 2009 fiscal year is approximately 
$3 million. However, a portion of the budget is, and has been, a 
``pass-through'' for funding of the Federal-State Marketing Improvement 
Program (FSMIP). FSMIP provides matching funds to State Departments of 
Agriculture and other appropriate State agencies to assist in exploring 
new market opportunities for U.S. food and agricultural products, and 
to encourage research and innovation aimed at improving the efficiency 
and performance of the U.S. marketing system.
    To facilitate the continued expansion of the organic industry, we 
support fully funding the operations of the NOP at the $8 million level 
authorized by Congress.\1\ We are strongly supportive of an increase in 
funding that could be allocated towards strengthening the accreditation 
process (training, education, audit, review, and compliance) for 
domestic and foreign certifying agents who are certifying to the NOP; 
international standards recognition and conformity assessment; 
standards development (new standards needed and continuing to improve 
existing standards as the industry develops); and enforcement through 
audits, investigative compliance and review (the NOP receives over 100 
complaints per year).
---------------------------------------------------------------------------
    \1\ The Food, Conservation, and Energy Act of 2008 (Section 10303: 
National Organic Program).
---------------------------------------------------------------------------
    We appreciate your consideration of our requests; we believe that 
this increased funding will be critical to the continued growth of the 
organic sector. We thank you for the opportunity to testify today and 
look forward to working with you in the future.
                                 ______
                                 

               Prepared Statement of The Wildlife Society

    The Wildlife Society appreciates the opportunity to submit 
testimony concerning the fiscal year 2010 budgets for the Animal Plant 
Health Inspection Service (APHIS), Cooperative State Research, 
Education and Extension Services (CSREES), and Natural Resources 
Conservation Service (NRCS). The Wildlife Society represents over 8,000 
professional wildlife biologists and managers dedicated to sound 
wildlife stewardship through science and education. The Wildlife 
Society is committed to strengthening all Federal programs that benefit 
wildlife and their habitats on agricultural and other private land.
               animal and plant health inspection service
    Wildlife Services (WS), a unit of APHIS, is responsible for 
controlling wildlife damage to agriculture, aquaculture, forest, range, 
and other natural resources, wildlife-borne diseases, and wildlife at 
airports. Its activities are based on the principles of wildlife 
management and integrated damage management, and are carried out 
cooperatively with state fish and wildlife agencies. The President's 
budget would allocate $345 million to this program. The Wildlife 
Society recommends that Congress increase funding for this important 
program in fiscal year 2010, to at least the fiscal year 2009 level of 
$351 million.
      cooperative state research, education, and extension service
    The Renewable Resources Extension Act (RREA) provides an expanded, 
comprehensive extension program for forest and rangeland renewable 
resources. The RREA funds, which are apportioned to State Extension 
Services, effectively leverage cooperative partnerships at an average 
of four to one, with a focus on private landowners. The need for RREA 
educational programs is greater than ever today because of continuing 
fragmentation of ownership, urbanization, the diversity of landowners 
needing assistance, and increasing societal concerns about land use and 
the impact on natural resources including soil, water, air, wildlife 
and other environmental factors. The Wildlife Society recommends that 
the Renewable Resources Extension Act be funded at $30 million, as 
authorized in the 2008 Farm Bill.
    The McIntire-Stennis Cooperative Forestry Program is essential to 
the future of resource management on non-industrial private 
forestlands, as forest products are produced while conserving natural 
resources, including fish and wildlife. As demand for forest products 
grow, privately held forests will increasingly be needed to supplement 
supplies, but trees suitable for harvest take decades to produce. In 
the absence of long-term and on-going research, such as provided 
through McIntire-Stennis, the nation could be unable to meet future 
forest-product needs. We appreciate the over $27 million in funding 
allocated in the fiscal year 2009 omnibus and recommended in the fiscal 
year 2010 proposal, and encourage a further increase in fiscal year 
2010.
                 natural resources conservation service
    The Farm Bill conservation programs are more important than ever 
given huge backlogs of qualified applicants for these programs, 
increased pressure on farmland from the biofuels boom, sprawling 
development, and the ongoing declines in wildlife habitat and water 
quality. We are very concerned by the proposed decreases in the Farm 
Bill conservation programs in fiscal year 2010. The Wildlife Society 
recommends that the Farm Bill conservation programs be funded at the 
levels mandated in the 2008 Farm Bill. In particular, we encourage full 
funding of the Wildlife Habitat Incentive Program at $85 million. In 
addition, we note that 4 million acres of Conservation Reserve Program 
contracts are expiring. CRP should be funded at a level that allows for 
full enrollment of authorized CRP acres.
                          farm service agency
    The Voluntary Public Access and Habitat Incentive Program was 
authorized by the 2008 Farm Bill, to encourage farmers and ranchers to 
allow public access on their lands. We support funding at $16.67 
million per year for the period 2010-2012, as recommended by the 
President.
    Thank you for considering the views of wildlife professionals. We 
look forward to working with you and your staff to ensure adequate 
funding for wildlife conservation.
                                 ______
                                 

     Prepared Statement of The Humane Society of the United States

    On behalf of the undersigned animal welfare and horse industry 
organizations, with combined supporters exceeding 12 million, we submit 
the following testimony seeking an increase in funding for the USDA/
APHIS Horse Protection Program to at least $1 million for fiscal year 
2010. This funding is urgently needed to begin to fulfill the intent of 
the Horse Protection Act--to eliminate the cruel practice of soring--by 
allowing the USDA to strengthen its enforcement capabilities for this 
law.
    In 1970, Congress passed the Horse Protection Act to end soring, 
the intentional infliction of pain to the hooves and legs of a horse to 
produce an exaggerated gait, practiced primarily in the Tennessee 
Walking Horse show industry. The Act authorizes the USDA to inspect 
Tennessee Walking Horses and Racking Horses--in transport to and at 
shows, exhibits, auctions and sales--for signs of soring, and to pursue 
penalties against violators. Unfortunately, since its inception, 
enforcement of the act has been plagued by underfunding. As a result, 
the USDA has never been able to adequately enforce the act, allowing 
this extreme and deliberate cruelty to persist on a widespread basis.
    The most effective way to eliminate soring and meet the goals of 
the Horse Protection Act is to have USDA officials present at more 
shows. Current funding levels allow USDA officials to attend only about 
6 percent of more than 500 Tennessee Walking Horse shows held annually. 
As a result, the agency opted to institute an industry-run system of 
certified Horse Industry Organizations (HIO) inspection programs, which 
are charged with inspecting horses for signs of soring at the majority 
of shows. These groups license examiners known as Designated Qualified 
Persons (DQPs) to conduct inspections. To perform this function, they 
often hire industry insiders who have an obvious stake in preserving 
the status quo.
    Statistics clearly show that when USDA inspectors are in attendance 
to oversee shows, the numbers of noted violations are many times higher 
than at shows where industry inspectors alone are conducting the 
inspections. And when USDA inspectors do arrive at shows, many 
exhibitors load up and leave to avoid being caught with sored horses. 
Agency officials have stated that inspectors are wary of going outside 
of their designated inspection area to examine horses on trailers as 
they leave the show grounds or in the barn areas, for fear of 
harassment and physical violence from exhibitors. Recently, armed 
security has been utilized to allow such inspections, at additional 
expense to this program. The fact that exhibitors feel they can 
intimidate government officials without penalty is a testament to the 
inherent shortcomings of the current system. By all measures, the 
overall DQP program has been a failure--the only remedy is to abolish 
it or greatly reduce dependence on this conflicted industry-run program 
of self-regulation and give USDA the resources it needs to adequately 
enforce the act.
    Lack of a consistent presence by USDA officials at Tennessee 
Walking Horse shows, sales, exhibits and auctions has fostered a 
cavalier attitude among industry insiders, who have not stopped their 
abuse, but have only become more clandestine in their soring methods. 
The continued use of soring to gain an advantage in the show ring has 
tainted the Tennessee Walking Horse industry as a whole, and creates an 
unfair advantage for those who are willing to break the law in pursuit 
of victory.
    Besides the indefensible suffering of the animals themselves, the 
continued acceptance of sored horses in the show ring prevents those 
with sound horses from competing fairly for prizes, breeding fees and 
other financial incentives, while those horse owners whose horses are 
sored may unwittingly suffer property damage and be duped into 
believing that their now abused, damaged horses are naturally superior.
    Currently, the means of inspection involves a physical palpation by 
the inspector. New technologies, such as thermography and ``sniffer'' 
devices (gas chromatography/mass spectrometry machines), have been 
developed, which can help inspectors identify soring more effectively 
and objectively. However, USDA has been unable to purchase and put 
enough of this equipment in use in the field, allowing for industry 
insiders to continually evade detection. With increased funding, the 
USDA could purchase this equipment and train more inspectors to use it 
properly, greatly increasing its ability to enforce the Horse 
Protection Act (HPA).
    The egregious cruelty of soring is not only a concern for animal 
protection and horse industry organizations, but also for 
veterinarians. Last year, the American Association of Equine 
Practitioners (AAEP) issued a white paper condemning soring, calling it 
``one of the most significant welfare issues faced by the equine 
industry.'' It called for the abolition of the DQP Program, saying 
``the acknowledged conflicts of interest which involve many of them 
cannot be reasonably resolved, and these individuals should be excluded 
from the regulatory process.'' The AAEP further stated, ``The failure 
of the HPA to eliminate the practice of soring can be traced to the 
woefully inadequate annual budget of $500,000 allocated to the USDA to 
enforce these rules and regulations.''
    It is unacceptable that nearly 40 years after passage of the Horse 
Protection Act, the USDA still lacks the resources needed to end this 
extreme form of abuse. It is time for Congress to give our public 
servants charged with enforcing this Act the support and resources they 
want and need to fulfill their duty to protect these horses as 
effectively and safely as possible.
    We appreciate the opportunity to share our views about this serious 
problem, and thank you for your consideration of our request.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
